<html>
<title> - DOMESTIC PASSENGER AND FREIGHT RAIL SECURITY</title>
<body><pre>[Senate Hearing 109-462]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-462
 
              DOMESTIC PASSENGER AND FREIGHT RAIL SECURITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                    U.S. GOVERNMENT PRINTING OFFICE
28-172                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 20, 2005.................................     1
Statement of Senator Boxer.......................................    46
Statement of Senator Lautenberg..................................    47
Statement of Senator McCain......................................    41
Statement of Senator Ben Nelson..................................    76
Statement of Senator Rockefeller.................................    74
Statement of Senator Stevens.....................................     1
    Prepared statement...........................................     1

                               Witnesses

Berrick, Cathleen A., Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office..................    12
    Prepared statement...........................................    13
Boardman, Joseph H., Administrator, Federal Railroad 
  Administration.................................................     8
    Prepared statement...........................................     9
Crosbie, William L., Senior Vice President, Operations, Amtrak...    59
    Prepared statement...........................................    62
Hamberger, Edward R., President/CEO, Association of American 
  Railroads......................................................    49
    Prepared statement...........................................    51
Hawley, Edmund ``Kip'', Assistant Secretary, Transportation 
  Security Administration........................................     2
    Prepared statement...........................................     4
Wytkind, Edward, President, Transportation Trades Department, 
  AFL-CIO........................................................    65
    Prepared statement...........................................    67

                                Appendix

Pryor, Hon. Mark, U.S. Senator from Arkansas, prepared statement.    81
Response to Written Questions Submitted by Hon. Daniel K. Inouye 
  to:
    Cathleen A. Berrick..........................................    81
    Joseph H. Boardman...........................................    98
    William L. Crosbie...........................................    86
    Edward R. Hamberger..........................................    82
    Edmund ``Kip'' Hawley........................................    87
    Edward Wytkind...............................................    97
Response to Written Questions Submitted by Hon. Frank R. 
  Lautenberg to:
    Joseph H. Boardman...........................................   100
    Edward R. Hamberger..........................................    86
    Edmund ``Kip'' Hawley........................................    94


              DOMESTIC PASSENGER AND FREIGHT RAIL SECURITY

                              ----------                              


                       THURSDAY, OCTOBER 20, 2005

                               U.S. Senate,
Committee on Commerce, Science, and Transportation,
                                                     Washington DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning.
    Mr. Hawley. Good morning, Mr. Chairman.
    The Chairman. I welcome you here today and I want to thank 
you for your willingness to appear before the Committee to 
discuss the security of our Nation's rail system. Alaska, has 
only one railroad, as you know. As a matter of fact, it's 
really essential to our livelihood and it has an interesting 
history, which I won't go into now. This is one of a series of 
hearings we're going to hold, to try and fulfill our oversight 
responsibilities on TSA, to work to develop our understanding 
of the security systems that are going to be implemented for 
all modes of transportation. I hope that we can get other 
Senators here to explore some of the details that are involved 
here, in your reports. I have gone through them briefly, but, 
I'm very interested in pursuing the whole subject.
    We have a report here from GAO that I find very interesting 
and it indicates there remains confusion among the various 
entities, as to who is actually in charge of the initiatives 
that are necessary to improve rail security. So, I look forward 
to your testimony. I'm going to put my statement in full in the 
record and will give a similar opportunity for all the members, 
to put their statements in the record.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    I welcome the witnesses who are here today and I thank you for your 
willingness to appear before the Committee to discuss the security of 
our Nation's rail system, a matter that is essential to the 
preservation of interstate commerce and the U.S. economy. In my State 
of Alaska, freight and passenger rail lines are a vital means of 
transportation for resources, as well as tourism. The Alaska Railroad 
Corporation hauls 7 million tons of freight and 500,000 passengers each 
year, and employs more than 700 Alaskans.
    Today's hearing is one in a series of hearings that the Committee 
will hold to fulfill its oversight responsibilities over the 
Transportation Security Administration (TSA) as we work to develop ways 
to further improve the security of all modes of transportation, 
including our rail systems.
    However, in securing any mode of transportation, we must achieve a 
balance in our approach that ensures the greatest security possible 
while not inhibiting the free flow of commerce. Senator Inouye and I, 
along with several of our Committee colleagues, have attempted to 
achieve that balance in legislation that we introduced that addresses 
the security of all modes, including the security of our rail systems.
    Much has been done since September 11th to enhance the security of 
our Nation's rail systems, particularly by the freight and passenger 
rail industries, which have invested substantially to ensure the 
security of their infrastructure and assets. But the London bombings 
and the recent threats to the New York City subway system underscore 
the fact that much more remains to be done.
    Despite TSA being designated the lead agency with authority over 
rail security nearly four years ago, the agency has been criticized by 
the Government Accountability Office and the rail industry for not 
seeking industry input in policy decisions, and for not acting quickly 
enough to assess risk and allocate resources. GAO recently reported 
that TSA has yet to finalize risk assessments of passenger rail systems 
around the country, or set a time-line for the completion of such 
assessments. GAO indicated that there remains confusion among 
stakeholders concerning who is actually in charge given that several 
Federal agencies have initiatives to improve rail security.
    I welcome Mr. Hawley's testimony on these topics, and I look 
forward to a constructive dialogue concerning ways to enhance rail 
security.

    Our first witness today, is the Assistant Secretary of the 
Transportation Security Administration, Kip Hawley. I am 
pleased to have your statement, Mr. Hawley.

   STATEMENT OF EDMUND ``KIP'' HAWLEY, ASSISTANT SECRETARY, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Hawley. Thank you, Mr. Chairman and good morning. I 
appreciate my first opportunity to appear as head of the TSA 
before this Committee and this morning, I will discuss our 
efforts to assure domestic passenger and freight rail security.
    At the outset, I want to acknowledge the team nature of 
security in today's world and express appreciation for the 
Government Accountability Office and Cathy Berrick, who's 
represented on this panel and the Department of Transportation 
today, represented by Federal Railroad Administrator, Joe 
Boardman.
    America's passenger and freight transportation system is a 
dynamic, interconnected network. It consists of overlapping 
sub-networks and multiple organizations, with a variety of 
governance structures and a mix of public and private 
ownership. In terms of security, decentralized systems such as 
this are more difficult to ``secure,'' but they also have 
advantages. They present more operational uncertainty to those 
who would do them harm, and they are more robust in the face of 
catastrophic failure of any single component of the network.
    Despite the good work that has already been done to improve 
security and transit, the London bombings and other events 
throughout the world have demonstrated the need for a refined 
approach to transportation security.
    Fundamentally, our challenge is to protect our 
transportation networks in a constantly changing threat 
environment. We understand better that terrorists will not only 
look for weaknesses in our transportation system and in 
security measures, but they will also adapt to perceived 
security measures. As a result, it is not possible to precisely 
``predict'', with any degree of certainty, the next attack 
based on previous terrorist activity. In the face of 
unpredictability and rapid change with respect to threats, our 
approach to security in every transportation sector must be 
based on flexibility and adaptability.
    While it is necessary, it is no longer sufficient to 
protect ourselves against known or suspected terrorists; we 
must protect ourselves against people with no known affiliation 
to terrorism.
    While it is necessary, it is no longer sufficient to focus 
on finding threat devices like guns, explosives and knives, we 
must enhance our ability to find terrorists before an attack is 
underway.
    And while it is necessary, but no longer sufficient to 
subject every passenger to basic security procedures, we must 
create uncertainty and an element of unpredictability in 
security operations in order to disrupt terrorist planning and 
attempts.
    To accomplish these objectives, TSA is pursuing a security 
strategy based on Security Chair Chertoff's Second Stage 
Review. There are four core operating principles applicable to 
TSA. First, we will use analysis based on risk, vulnerability 
and consequence to make investment and operational decisions. 
Second, we will avoid giving terrorists an advantage based on 
our predictability. TSA will deploy resources, canine teams, 
air marshals, or inspectors, for example and establish 
protocols, standards and best practices, flexibly based on 
risk. Terrorists will not be able to use the predictability of 
our security measures to their advantage in planning or 
carrying out an attack. Third, we will continue to intervene 
early based on intelligence, law enforcement information and 
counter-surveillance suspicious incident reporting, to focus 
our security measures on the terrorist, as well as the means 
for carrying out the threat. Effective analysis and 
dissemination of timely information to those who need them is a 
vital component of this effort.
    Finally, we will build and take advantage of security 
networks. We are pursuing a restructuring of TSA that will put 
a renewed emphasis on building information sharing networks in 
every transportation sector. Through these efforts, we work 
more closely with stakeholders and put a renewed emphasis on 
sharing intelligence, capacity and technology with other law 
enforcement, intelligence gathering and security agencies at 
every level of government. As we move forward, we are fortunate 
to be able to build upon a solid foundation of work, not only 
at the local level, but nationally as well. This foundation 
includes products and resources, developed by our Federal 
partners, especially the Department of Transportation, with the 
Federal Transit Administration and the Federal Railroad 
Administration, and partners in industry, such as the American 
Public Transportation Association, the Association of American 
Railroads and its members, labor unions and individual public 
transportation systems.
    This collective experience fortifies our knowledge, 
expertise and overall strategic approach. We value the critical 
role that Congress, and especially this Committee, plays in the 
effort. We look forward to working with you on the full range 
of these issues. I'll be happy to answer any questions at the 
appropriate time.
    [The prepared statement of Mr. Hawley follows:]

   Prepared Statement of Edmund ``Kip'' Hawley, Assistant Secretary, 
                 Transportation Security Administration

    Good morning, Mr. Chairman, Co-Chairman Inouye, and Members of the 
Committee. I am pleased to have this opportunity to testify on the 
subject of domestic passenger and freight rail security.
    At the outset, I acknowledge and appreciate the work of the 
Government Accountability Office (GAO) in its recent report on 
passenger rail security. The strategic approach, programs, and 
initiatives I will discuss today move us well along in addressing the 
GAO's recommendations.
    As you know, the September 11 attacks focused Congress, the 
Administration, and the public on improving the security of our 
aviation system. It was an honor to be a part of the team that helped 
create the Transportation Security Administration (TSA) at the 
Department of Transportation (DOT), and it is an honor today to have 
the opportunity to lead the agency at the Department of Homeland 
Security, as we refocus and realign TSA to reflect the changing reality 
of terrorist threats to the transportation sector. Of necessity, much 
of our early work at TSA focused on the very real and present threats 
and vulnerabilities in aviation. We were fortunate to have partners at 
DOT and in industries and communities around the Nation who immediately 
stepped forward at that time to initiate security improvements in the 
transit and rail sectors. Today, we continue to work with these 
partners and build upon their record of success to address the changing 
transportation threat environment.
Overview of Surface Transportation
    America's passenger and freight transportation system is a dynamic, 
interconnected network. It consists of overlapping sub-networks and 
multiple organizations, with a variety of governance structures and a 
mix of public and private ownership. In terms of security, 
decentralized systems such as this are more difficult to ``control,'' 
but they also have advantages. They present more operational 
uncertainty to those who seek to do them harm, and they are more robust 
in the face of catastrophic failure of any single component of their 
networks.
    Public Transportation. America's public transportation system is 
actually composed of over 6,000 separate local transit systems. These 
local systems range from very small bus-only systems in rural 
communities, to very large multi-modal systems in urban areas that may 
combine bus, light rail, subway, commuter rail and ferry operations. 
Transit systems are not only locally operated, but they are also 
protected largely by State and local law enforcement.
    Americans took 9.4 billion trips using public transportation in 
2003. The 30 largest transit systems in the U.S. carry most (almost 80 
percent) of the Nation's transit passenger trips. There is now some 
form of rail transit (light rail, subway, or commuter rail) operated by 
53 different transit agencies located in 33 cities and 23 states. These 
rail systems provide a combined 11.3 million passenger trips each 
weekday, compared to 1.8 million domestic emplanements per day 
nationwide.
    Approximately 28 percent of all transit trips and 77 percent of all 
rail transit trips are on heavy rail. There are 14 heavy rail transit 
systems (also known as subways) in the U.S., consisting of more than 
2,000 route miles, with over 1,000 stations and approximately 10,500 
subway cars. The New York City subway system is the largest in the 
U.S., carrying about 75 percent of the Nation's heavy rail passengers, 
with half of the stations and more than 6,000 scheduled trains per day 
carrying over 3 million riders. In New York's Penn Station alone, more 
than 1,600 people per minute pass through dozens of access points 
during a typical rush hour.
    Intercity Bus Transportation. Though not owned by public entities, 
intercity bus service is an important component of America's 
transportation network. Intercity bus service is provided by over 4,000 
private operators across the country, 90 percent of which operate 25 or 
fewer buses. Greyhound is the largest intercity bus operator, with a 
fleet of more than 2,400 buses. Public transit buses annually carry 
about 8 times the number of riders as intercity buses; heavy rail 
(subway) operators carry over 3 times as many riders as intercity 
buses.
    Intercity Passenger Rail. Intercity passenger rail service is 
provided by two entities: Amtrak and the Alaska Railroad Corporation 
(ARRC), which is a public corporation of the State of Alaska. The ARRC 
provides freight and passenger service from Whittier, Seward and 
Anchorage to Fairbanks, Denali National Park and military 
installations.
    Amtrak carries approximately 25 million passengers per year or an 
estimated 68,000 passengers per day, operating as many as 300 trains 
per day and serving over 500 stations in 46 States. In many large 
cities, Amtrak stations are co-located with stations serving rail 
transit, intercity bus, and other modes of transportation. Amtrak 
operates over more than 22,000 route miles. It owns 650 route miles, 
primarily between Boston and Washington, D.C., and in Michigan. In 
other parts of the country, Amtrak trains use tracks owned by freight 
railroads.
    Freight Rail. U.S. freight railroads operate over a network 
spanning more than 140,000 route miles. This system is vital to the 
economy, linking businesses and ensuring products reach consumers in an 
efficient, safe, and cost-effective manner. Still, recent events, such 
as the accidental derailment in Graniteville, SC, that resulted in the 
release of chlorine gas, have highlighted the need to focus additional 
attention on the potential security risks associated with freight rail. 
Over 64 percent of toxic inhalation hazard chemicals are currently 
transported by rail. In 2003, over 60,000 tank cars of chlorine or 
anhydrous ammonia chemicals were shipped, each carrying an average of 
90 tons of chlorine or 30,000 gallons of anhydrous ammonia.
London Lessons Learned
    Al-Qaeda and its affiliated extremist groups and sympathizers 
demonstrated their ability to strike mass transit targets with suicide 
bombings on buses in Israel, Turkey and China, and bombings of subways, 
rail systems, and ferries in India, Pakistan, Thailand, Chechnya, 
Russia and the Philippines. The Madrid train attacks in 2004 and the 
London subway and bus attacks on July 7 and 21 of this year have 
further reminded us that our trains, subways and buses may be terrorist 
targets.
    Heavy rail transit systems in the U.S., like the London 
Underground, are particularly high consequence targets in terms of 
potential loss of life and economic disruption. These systems carry 
large numbers of people in a confined environment, offer the potential 
of targeting specific populations at particular destination stations, 
and often have stations located below or adjacent to high profile 
government buildings, major office complexes, or public icons. Threats 
to particular economic sectors, like government or financial 
institutions, may also be carried out through attacks on public 
transit.
    The London attacks were particularly noteworthy from a security 
perspective.

  <bullet> In a relatively short period of time, unknown and apparently 
        unaffiliated individuals/groups were able to plan and execute 
        the attacks with little or no surveillance or rehearsal 
        activity.

  <bullet> The perpetrators came through fare-gates directly onto the 
        train; they did not access storage yards, tunnels or bridges. 
        As a result, London's extensive intrusion detection devices and 
        security cameras did not prevent the attacks. Recording 
        capability was helpful, but only after-the-fact in helping to 
        identify suspects.

  <bullet> The improvised explosive devices used by the attackers were 
        assembled with materials readily available in local shops. The 
        devices fit easily into backpacks of the type and design 
        commonly carried by students, commuters, and tourists.

  <bullet> Even with markedly increased public awareness, 
        countermeasures, and law enforcement presence after the first 
        London bombings, the same methods were able to be used in the 
        second attack without suspicion or detection.

    Immediately following the first London attacks, transit agencies 
and local officials took action. Responding to a joint inquiry by TSA 
and DOT's Federal Transit Administration (FTA), the 30 largest transit 
agencies reported that they:

  <bullet> Extended patrol hours through law enforcement overtime and 
        the deployment of administrative and operational personnel;

  <bullet> Expanded the use of canine explosive detection patrols; and

  <bullet> Issued more frequent and more detailed public awareness 
        announcements regarding how to report unattended bags and 
        suspicious behavior and how to evacuate from particular transit 
        environments (i.e., train cars, tunnels, and bridges).

    These actions built upon the important security foundation that was 
established over the last several years. In contrast to their pre-9/11 
security posture, all of the largest transit agencies have now: 
developed and implemented action plans that are specific to each 
Homeland Security Alert System threat level; sent front-line employees 
to Federally-funded security and emergency response training courses; 
instituted public awareness campaigns, many utilizing Federally-
developed materials; developed and tested emergency response plans; and 
hardened numerous assets to protect against security threats.
Adapting to a Changing Threat Environment
    Despite the work that has already been done, Mr. Chairman, the 
London bombings and other events throughout the world have demonstrated 
the need for a new strategic approach to transportation security. 
Fundamentally, our challenge is to protect passengers, freight, and our 
transportation network in a constantly changing threat environment. We 
understand better that terrorists will not only look for weaknesses in 
our transportation system and its security measures, but they will also 
adapt to perceived security measures. As a result, it is not possible 
to ``predict'' the next attack based on previous terrorist activity or 
put into place specific security measures to protect against it. In 
this dynamic environment, history is an unreliable guide.
    In the face of unpredictability and rapid change in terms of 
threats, our approach to security in every transportation sector must 
be based on flexibility and adaptability.

  <bullet> While it is necessary, it is no longer sufficient to protect 
        ourselves against known or suspected terrorists; we must 
        protect ourselves against people with no known affiliation to 
        terrorism.

  <bullet> While it is necessary, it is no longer sufficient to focus 
        on finding weapons and common explosives; we must enhance our 
        ability to recognize suspicious behavioral patterns and 
        demeanors to identify people who may have devised a new means 
        to attack our transportation systems or passengers.

  <bullet> While it is necessary, it is no longer sufficient to subject 
        every passenger to the same basic security procedures; we must 
        create uncertainty and an element of randomness in security 
        operations in order to disrupt terrorist planning and attempts.

  <bullet> While it is necessary, it is no longer sufficient to focus 
        solely on identifying the actors, like suicide bombers; we must 
        integrate our security measures with local law enforcement to 
        identify those who make the bombs and provide support.

    Therefore, TSA is pursuing a security strategy based on Secretary 
Chertoff 's Second Stage Review, the National Strategy for 
Transportation Security, and the following four operating principles:
    First, we will use risk/value analysis to make investment and 
operational decisions. That means that we will assess risks based not 
only on threat and vulnerability, but on the potential consequences of 
a particular threat to people, transportation assets, and the economy. 
Further, we will assess and undertake risk management and risk 
mitigation measures based on their effect on total transportation 
network risk. This holistic approach to risk assessment and risk 
mitigation may lead us, for example, to redirect the actions of our 
airport screeners to focus less on identifying and removing less 
threatening items from carry-on luggage, so that their time and 
attention can be spent on identifying potential components of an 
improvised explosive device.
    Second, we will avoid giving terrorists or potential terrorists an 
advantage based on our predictability. TSA will deploy resources--
whether they are canine teams, screeners, air marshals, or inspectors--
and establish protocols flexibly based on risk, so that terrorists 
cannot use the predictability of security measures to their advantage 
in planning or carrying out a threat. This may mean changing or adding 
to inspection routines on a daily or hourly basis to introduce 
uncertainty into terrorist planning efforts.
    Third, we will continue to intervene early based on intelligence, 
and focus our security measures on the terrorist, as well as the means 
for carrying out the threat. Enhancing and expanding the techniques to 
identify suspicious persons at the transit, train, or bus station, or 
to detect explosive devices is necessary. However, the strongest 
defense posture detects the terrorist well before the attempt to launch 
an attack has begun. A coordinated interagency intelligence collection 
and analysis effort must stand as the first line of defense. Effective 
dissemination of timely intelligence products to those who need them is 
a vital component of this effort.
    And, finally, we will build and take advantage of security 
networks. As you may know, I am pursuing a restructuring of TSA that 
will put a renewed emphasis on building information sharing networks in 
every transportation sector--rail, transit, maritime, and trucking, as 
well as aviation. Not only will we work more closely with stakeholders 
in these industries, we will put a renewed emphasis on sharing 
intelligence, capacity and technology with other law enforcement, 
intelligence gathering and security agencies at every level of 
government. We will build a more robust, distributed network of 
security systems to protect America.
    As we apply these operational principles, I have also directed my 
staff to rededicate themselves to important customer service 
principles, as well. As we move forward:

  <bullet> TSA will identify opportunities and engage the private 
        sector in its work to develop and implement security systems 
        and products.

  <bullet> We will protect the privacy of Americans by minimizing the 
        amount of personal data we acquire, store and share, and we 
        will vigorously protect any data that is collected, stored or 
        transmitted.

  <bullet> And TSA will remember, in all that we do, our goal in 
        stopping terrorism is to protect the freedoms of the American 
        people. Therefore, we will work to make travel easier for the 
        law-abiding public, while protecting the security of the 
        transportation network and the people who depend upon it.

A Solid Foundation
    As we move forward strategically to enhance our security efforts in 
the public transportation and rail sectors, we are fortunate to be able 
to build upon a solid foundation of work, not only at the local level, 
but nationally, as well.
    Grants. Substantial Federal assistance has been and will continue 
to be provided to support improved transit and rail security. TSA has 
assisted the DHS Office of State and Local Government Coordination and 
Preparation (SLGCP) in the development of its Transit Security Grant 
Program (TSGP). To date, SLGCP has provided more than $255 million to 
State and local transit agencies through this program to increase 
protection through hardening of assets, greater police presence during 
high alerts, additional detection and surveillance equipment, increased 
inspections, and expanded use of explosives detection canine teams. In 
April 2005, DHS announced $141 million in TSGP funding, of which more 
than $107 million has been dedicated to owners and operators of rail 
systems. An additional $6 million was awarded to Amtrak through the 
Inter-city and Passenger Rail Security Program (IPRSGP) for security 
enhancements to passenger rail operations in the Northeast Corridor and 
at Amtrak's hub in Chicago. Additionally, through SLGCP's State 
Homeland Security Grant Program and Urban Area Security Initiative, the 
Department has allocated more than $8.3 billion for general 
counterterrorism preparedness.
    The FY 2006 appropriations bill includes an additional $2.5 billion 
for this purpose. The bill also includes a total of $390 million in 
discretionary grants specifically for surface transportation security 
programs, including $150 million for rail and transit security, $175 
million for port security, $10 million for intercity bus security, and 
$5 million for the Highway Watch program. TSA will continue to work 
closely with SLGCP on these programs, as well.
    Security Exercises and Training. TSA has held numerous security 
exercises that bring together stakeholders, Federal, State, and local 
first responders, and security experts to test preparedness and 
response and identify best practices and lessons learned. We are also 
seeking new and improved ways to exercise and train for prevention 
methods, which will help strengthen a national prevention capability. 
These efforts will develop and support effective relationships among 
Federal, State and local entities and the private sector, and they 
significantly enhance our ability to anticipate and respond quickly and 
appropriately to security issues.
    Additionally, through an interagency agreement with the Federal Law 
Enforcement Training Center (FLETC), TSA has trained over 400 law 
enforcement officers, transit police, and first responders through the 
Land Transportation Anti-Terrorism Training Program. TSA has also 
contracted with the FTA's National Transit Institute to develop a CD-
ROM-based interactive training program for passenger and freight rail 
employees. This product is expected to be completed before the end of 
the current fiscal year. These training programs emphasize 
antiterrorism planning and prevention for land transportation systems. 
Areas of focus include security planning, transit system 
vulnerabilities, contingency planning, recognition and response for 
threats involving explosives and weapons of mass destruction, and 
crisis and consequence management. Guest instructors with specialized 
expertise supplement the FLETC staff, providing the benefit of actual 
experience through case studies.
    Self-Assessment Tool. TSA has developed the Vulnerability 
Identification Self-Assessment Tool (VISAT), a multi-modal tool that 
public transportation agencies may voluntarily use to self-assess 
vulnerabilities within their systems. Specific modules focus on mass 
transit (heavy rail/subways), rail passenger stations, highway bridges, 
maritime, and operations centers. Additional modules under development 
will ensure this tool covers the spectrum of modes for which TSA holds 
lead responsibility for security. In general, the tool focuses on the 
prevention and the mitigation of an array of threat scenarios developed 
for each mode within the sector. Users rate their entity in terms of 
target attractiveness (from a terrorist's perspective) and several 
consequence categories that broadly describe health and well-being, 
economic consequence, and symbolic value of the entity. The tool 
enables a user to capture a snapshot of its security system baseline, 
assessing vulnerabilities in the system and assisting in the 
development of a comprehensive security plan.
    Surface Transportation Security Inspector Program. The Department 
of Homeland Security Appropriations Act for FY 2005 provided $12 
million to TSA for rail security, including $10 million to deploy 100 
Federal security compliance inspectors and Congress has continued this 
funding in FY 2006. TSA has made substantial progress in developing a 
robust and comprehensive surface transportation security compliance 
inspector program with emphasis on hiring, training, and logistical and 
procedural planning. A total of 99 inspectors are now on board. Among 
other tasks, the security compliance inspectors will identify gaps in 
security and validate compliance with TSA's security directives.

Conclusion
    Mr. Chairman and Members of the Committee, I want to assure you 
that TSA is pursuing a robust strategy to support rail and transit 
security that builds upon the work of other Department of Homeland 
Security agencies, the Department of Transportation, and our public and 
private sector partners at the State and local level. We value the 
critical role the Congress, and especially this Committee, plays in 
this effort. The success of Secretary Chertoff 's Second Stage Review 
and the strategic approach I've described today depend upon retaining 
the flexibility to determine risk-based priorities and to adjust our 
tactics to respond to developing circumstances and emerging trends. We 
look forward to working with Congress and this Committee on the full 
range of subjects so critical to protecting America's transportation 
infrastructure, its passengers, and the commerce that depends upon it.
    Thank you. I would be pleased to respond to questions.

    The Chairman. Thank you very much. Senator McCain, do you 
have an opening statement?
    Senator McCain. Since you've already begun, I'd be glad to 
wait until after the witnesses, Mr. Chairman.
    The Chairman. Well, thank you. Our next witness is the 
Administrator of the FRA, Mr. Joseph Boardman.

    STATEMENT OF JOSEPH H. BOARDMAN, ADMINISTRATOR, FEDERAL 
                    RAILROAD ADMINISTRATION

    Mr. Boardman. Good morning, Mr. Chairman, Senator McCain, 
other Members of the Committee, I am pleased to be here today 
to testify, on behalf of the Secretary of Transportation, about 
the security of our Nation's passenger and freight railroad 
network.
    Since June 1 of this year, it has been my privilege to 
serve as the Administrator of the Federal Railroad 
Administration.
    Although DOT has not yet prepared a views report on Senate 
1052, which precludes me from providing official views on the 
provisions of that bill, we're certainly willing to work with 
this Committee on any legislative ideas that will enhance rail 
security.
    The FRA administers the Federal Railroad Safety Laws, which 
provide FRA with authority over every area of railroad safety. 
It also enforces hazardous material transportation regulations 
issued by PHMSA or the Pipeline and Hazardous Materials Safety 
Administration. And although the railroad industry's overall 
safety record has improved over the last decade and most safety 
trends are moving in the right direction, significant train 
accidents continue to occur.
    As a result, in May of 2005, Secretary Mineta announced a 
Railroad Safety Action Plan and FRA has begun to move forward 
on all elements of that action plan. FRA has a role in 
transportation railroad security. To date, FRA personnel have 
reviewed security plans, and security training records, and 
since April of 2004, FRA and PHMSA have also worked with DHS on 
a coordinated plan to improve the security of the rail 
transport of hazardous materials classified as `` Toxic 
Inhalation Hazards.'' In the area of passenger security, FRA 
inspectors have conducted basic security reviews of Amtrak and 
commuter railroads, in work with TSA inspectors after the July 
transit bombings in London, together, to ensure safety in 
passenger service.
    FRA sponsors and conducts research, development and 
technology demonstrations that are related to rail security 
through its Office of Research and Development such as 
exploring various methods to harden tank cars.
    In September 2004, DOT and DHS entered into a Memorandum of 
Understanding concerning their respective roles on security 
issues. The MOU requires early coordination between the parties 
on the development of regulations affecting security and will 
help delineate each department's specific area of 
responsibility.
    FRA works closely with the managers of the Transportation 
Security Administration's new Rail Security Inspection Program. 
A day to day connection with that is extremely important for 
the event of catastrophic events. FRA's primary mission is 
helping to ensure the safety of railroad transportation. In 
some areas such as hazardous material transportation, safety 
and security are inextricably intertwined, which means that FRA 
safety activities will no doubt continue to have an effect on 
security. In general, however, FRA's role is to support DHS and 
TSA in carrying out their security responsibilities to the 
extent FRA can do so within its present authority and with its 
current resources.
    Thank you and I'm available for questions.
    [The prepared statement of Mr. Boardman follows:]

   Prepared Statement of Joseph H. Boardman, Administrator, Federal 
                        Railroad Administration

    Chairman Stevens, Ranking Member Inouye, and other Members of the 
Committee, I am very pleased to be here today to testify, on behalf of 
the Secretary of Transportation, about the security of our Nation's 
passenger and freight railroad network. Since June 1 of this year, it 
has been my privilege to serve as the Administrator of the Federal 
Railroad Administration (FRA). By delegation from the Secretary, FRA's 
primary mission is to promote the safety of the U.S. railroad industry 
and to reduce the number and severity of accidents and incidents 
arising from railroad operations. Our railroad safety mission 
necessarily includes our involvement in railroad security issues. The 
U.S. Department of Homeland Security (DHS) has the primary 
responsibility for transportation security. FRA plays a supporting 
role, providing technical assistance and assisting DHS when possible 
with implementation of its security policies, as allowed by statutory 
authority and available resources
    My testimony today will provide some background on FRA's railroad 
safety program and briefly describe the role that FRA plays in railroad 
security.

FRA's Railroad Safety Program
    FRA administers the Federal railroad safety laws, which provide FRA 
with authority over ``every area of railroad safety,'' 49 U.S.C. 
20103(a). The agency has issued a wide range of safety regulations 
covering such topics as: track; passenger equipment; locomotives; 
freight cars; power brakes; locomotive event recorders; signal and 
train control systems; maintenance of active warning devices at 
highway-rail grade crossings, accident reporting, alcohol and drug 
testing, protection of roadway workers; operating rules and practices; 
locomotive engineer certification; positive train control; and use of 
train horns at grade crossings. We currently have active rulemaking 
projects on a number of important safety topics, including locomotive 
crashworthiness, noise exposure of railroad employees, and continuous 
welded rail. In addition, FRA enforces hazardous materials regulations 
issued by another DOT agency, the Pipeline and Hazardous Materials 
Safety Administration (PHMSA). Those regulations include requirements 
that railroads and other hazardous materials transporters, as well as 
shippers, have and adhere to security plans.
    FRA has an authorized inspection staff of about 400 persons 
nationwide, distributed across its eight regions. (In addition, about 
160 inspectors employed by the 30 States that participate in FRA's 
State participation program inspect for compliance with FRA's 
standards.) The inspectors are experts in specific disciplines, 
including track, signal and train control, motive power and equipment, 
operating practices, and hazardous materials. In addition, we have 16 
grade crossing experts in the field. Our inspectors conduct thousands 
of inspections every year, investigate more than 100 train accidents, 
investigate hundreds of complaints, develop recommendations for 
hundreds of enforcement actions, and engage in a range of educational 
activities on railroad safety issues. Although some inspectors have had 
basic familiarization training on security issues, they are not 
security experts.
    The railroad industry's overall safety record has improved over the 
last decade, and most safety trends are moving in the right direction. 
However, significant train accidents continue to occur, and the train 
accident rate has not shown substantial improvement in recent years. 
Moreover, recent train accidents have highlighted specific issues that 
need prompt government and industry attention, and the strong growth of 
rail and highway traffic continues to drive up exposure at highway-rail 
grade crossings. FRA developed its Railroad Safety Action Plan to 
address these critical issues, and Secretary Mineta announced the plan 
in May 2005.
    This Action Plan will:

  <bullet> Target the most frequent, highest risk causes of accidents;
  <bullet> Focus FRA's oversight and inspection resources; and
  <bullet> Accelerate research efforts that have the potential to 
        mitigate the largest risks.

    FRA's plan includes initiatives in several areas: reducing human 
factor-caused train accidents; acting to address the serious problem of 
fatigue among railroad operating employees; improving track safety; 
enhancing hazardous materials safety and emergency preparedness; 
improving highway-rail grade crossing safety; and better focusing FRA's 
resources (inspections and enforcement) on areas of greatest safety 
concern. One of the primary elements of the Action Plan is FRA's 
implementation of its National Inspection Plan, which uses 
sophisticated trend analysis to ensure that FRA is properly allocating 
its inspectors within the regions so that they are directing their 
efforts toward the railroads that pose the highest risks. In addition, 
FRA has developed guidance for its inspectors in each discipline to 
help them use all available data to focus not only on the railroads 
with the highest risks but also on the particular kinds of 
noncompliance that involve the most significant hazards.
    FRA has begun to move forward on all of the elements of its Action 
Plan, and has implemented its National Inspection Plan in the three 
areas that account for more than 75 percent of all train accidents: 
human factors; track; and equipment.

FRA's Role in Railroad Security
    Since the terrorist attacks on September 11, 2001, FRA has been 
actively engaged in the railroad industry's response to the threat of 
terrorism. The railroads have developed their own security plans, and 
FRA has worked with the railroads, rail labor, and law enforcement 
personnel to develop the Railway Alert Network for the distribution of 
information and intelligence on security issues. Working with the 
Federal Transit Administration, another DOT agency, we have 
participated in security risk assessments on commuter railroads. FRA's 
security director works on a daily basis to facilitate communications 
on security issues between government agencies and the railroad 
industry.
    In 2003, PHMSA (then the Research and Special Programs 
Administration) issued a rule requiring transporters and shippers of 
certain hazardous materials to develop and adhere to security plans. 
PHMSA issued its rule under its authority, delegated from the 
Secretary, to ``prescribe regulations for the safe transportation, 
including security, of hazardous materials,'' 49 U.S.C. 5103(b)(1). 
Under the rule, security plans must include an assessment of security 
risks and appropriate measures to address those risks. The plans must, 
at a minimum, address three specific areas--personnel security, 
unauthorized access, and en route security. To assist railroads that 
transport hazardous materials and shippers that offer those materials 
for transport by rail, particularly small and medium-sized companies, 
to comply with this new requirement, FRA field personnel have spent a 
considerable amount of time in outreach efforts. To date, FRA personnel 
have reviewed more than 3,600 security plans and more than 29,000 
employee security training records.
    Since April 2004, FRA and PHMSA have also worked with DHS on a 
coordinated plan to improve the security of the rail transport of 
hazardous materials classified as toxic inhalation hazards (TIH). These 
include materials such as chlorine, which is used in water filtration 
plants, and anhydrous ammonia, which is used extensively in 
agriculture. DHS's Transportation Security Administration (TSA) has the 
lead on this project. TSA has led vulnerability assessments of a number 
of rail corridors where TIH materials are transported. DOT and TSA 
published a notice and request for comments in the Federal Register 
asking for input on aspects of TIH rail shipments, the DOT security 
program requirement, and the need for additional regulation, 69 Fed. 
Reg. 50988 (Aug. 16, 2004). More than 100 comments were received, 
addressing the following issues:

  <bullet> security plan improvements;
  <bullet> shipment identification and hazard communication;
  <bullet> temporary storage;
  <bullet> tank car integrity; and
  <bullet> communication and tracking.

    DOT is considering possible amendments to the PHMSA security plan 
rule that would enhance the security of the transportation of TIH 
materials.
    In the area of passenger security, FRA inspectors have conducted 
basic security reviews of Amtrak and commuter railroad security both 
after the 2004 train bombings in Madrid and after the July 2005 transit 
bombings in London. In both cases, FRA inspectors were deployed 
immediately after the bombings to assess the security readiness of 
passenger railroad facilities based on a checklist of major security 
criteria. In the aftermath of the London bombings, FRA worked closely 
on these security reviews with TSA's new rail security inspectors. TSA 
focused primarily on urban rapid transit lines, while FRA inspectors 
concentrated on commuter and intercity passenger operations. In some 
situations, inspectors from the two agencies worked jointly.
    FRA also supports research, development, and demonstration projects 
related to rail security through its Office of Research and Development 
(OR&D), often in cooperation with DHS. One completed project to 
evaluate tank car security and two current, follow-up projects provide 
examples. The tank car security evaluation project was conducted 
jointly by FRA OR&D and DHS in October 2003 at FRA's Transportation 
Technology Center, Inc., in Pueblo, Colorado. Its first purpose was to 
evaluate the ability of hydrophones inside tank cars to detect breaches 
and to distinguish noise coming from a breach of the tank car from 
other background noises such as those present in the normal tank car 
operating environment. Its second purpose was to develop emergency 
response techniques, tools, and procedures to plug punctures in 
pressurized tank cars caused by small arms fire or other means. A 
confidential report has been completed. The acoustic signatures of the 
small arms fire and other projectiles were recorded from both the 
hydrophones and accelerometers. The results of this test proved the 
feasibility of developing algorithms to monitor tank cars while under 
load. As a follow-on to this test, DHS and FRA funded an effort to look 
at the effects of small arms fire on tank cars and the use of 
hydrophones to sense a ``hit.'' Development of the algorithm for 
detecting a hazardous material release event continues.
    As a result of these tests, the Association of American Railroads 
(AAR) and contractors have examined various methods to ``harden'' tank 
cars. All of the options to ``armor'' tank cars available with today's 
technology are either too heavy or so expensive as to be economically 
impractical. FRA has learned about a new material, Dragon Shield, which 
is currently being used for armor coating military vehicles in Iraq. 
The Railway Supply Institute, the American Chemistry Council, the 
Chlorine Institute, and the AAR have worked with DHS and FRA in putting 
together a test plan to determine the feasibility of using this liquid 
armor (Dragon Shield) technology to reduce tank car vulnerability based 
upon the threat previously identified. Testing of the material will 
start in FY 2006. FRA's Office of Research and Development will 
continue to partner with DHS on these and other security initiatives.
    In September 2004, DOT and DHS entered into a memorandum of 
understanding (MOU) concerning their respective roles on security 
issues. The MOU notes that DHS has the primary responsibility for 
security in all modes of transportation and that DOT plays a supporting 
role, but notes that both agencies have regulatory responsibilities in 
the area of transportation security. The MOU requires early 
coordination between the parties on the development of regulations 
affecting security. The MOU also contemplates the development of 
separate annexes on specific task and areas of responsibility. DOT and 
DHS have executed an annex concerning their joint project on the 
security of the transportation of TIH materials. FRA has also prepared 
a draft annex concerning rail security issues in general and has 
recently shared that draft with TSA. We hope to complete that annex 
soon.

FRA's Cooperation with TSA's New Inspection Force
    The FY 2005 DHS Appropriations Bill Conference Report No. 108-774 
earmarked $10 million for TSA to deploy up to 100 Federal rail security 
compliance inspectors. The first class of these inspectors completed 
training in early June 2005, and since then FRA has worked closely with 
the managers of TSA's new inspection program. Through regular meetings 
and frequent contacts, we are developing working relationships at the 
headquarters and field levels of both agencies. We are trying to ensure 
that the two agencies' roles are clearly distinguished and do not 
result in duplicative inspections of the rail industry. As mentioned 
previously, inspectors from the two agencies have already engaged in a 
successful joint security review of passenger operations.
    As TSA's full complement of inspectors becomes fully functional, 
FRA anticipates that there will be less need for FRA inspectors to 
participate in activities related purely to security. FRA's safety 
mission is critical and requires the constant attention of its 
inspection force. Of course, if FRA's inspectors are needed to support 
TSA's efforts for a limited duration in a time of an elevated security 
threat, FRA will make every effort to provide that support. Moreover, 
in those areas such as hazardous materials transportation where safety 
and security are significantly interrelated, FRA inspectors will 
continue to play an active role (e.g., in enforcing PHMSA's security 
plan regulations).

Conclusion
    FRA's primary mission is helping to ensure the safety of railroad 
transportation. In some areas, such as hazardous materials 
transportation, safety and security are inextricably intertwined, which 
means that FRA's safety activities will no doubt continue to have an 
effect on security. In general, however, FRA's role is to support DHS 
and TSA in carrying out their security responsibilities, to the extent 
FRA can do so within its present authority and with its current 
resources.

    The Chairman. Thank you very much. Ms. Berrick, Director of 
Homeland Security and Justice at GAO, please?

          STATEMENT OF CATHLEEN A. BERRICK, DIRECTOR, 
          HOMELAND SECURITY AND JUSTICE ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Berrick. Thank you, Mr. Chairman and Senator McCain, 
for the opportunity to discuss passenger rail security in the 
United States. My testimony today focuses on actions DHS has 
taken to assess the risk posed by terrorism to the rail system. 
Federal actions taken to enhance passenger rail security and 
security practices implemented by domestic and selected foreign 
passenger rail operators.
    DHS, in conjunction with its grant-making authority, has 
completed numerous risk assessments of passenger rail systems 
around the country and has provided technical assistance and 
training to rail operators. The Department has also begun to 
develop an overall framework to help agencies in the private 
sector develop a consistent approach for analyzing and 
comparing risks to transportation and to other sectors.
    TSA, as the lead agency responsible for securing all modes 
of transportation, has also begun to conduct risk assessments 
and establish a methodology for analyzing and characterizing 
risks. However, these efforts have not yet been completed or 
fully coordinated within the Federal Government and with rail 
operators. TSA has also missed deadlines in issuing its 
Transportation Sector Specific Plan, which is required by law 
and it's to identify and prioritize infrastructure protection 
efforts and key resources.
    Until these efforts are completed, it may not be possible 
to compare risks within the rail sector and across different 
sectors, prioritize them and allocate resources accordingly.
    After the 9/11 attacks, the Department of Transportation 
took several actions to strengthen rail security, including 
providing security training to rail operators and technical 
assistance in conducting risk assessments.
    More recently, following the Madrid bombings, TSA issued 
emergency security directives to rail operators and pilot 
tested explosive detection technology for use in the rail 
system. However, some Federal and rail stake holders question 
the feasability of implementing and complying with these 
directives, claiming that they were not always based on 
industry best practices or were unclear. TSA also had not yet 
developed criteria or procedures for rail inspectors to use in 
enforcing compliance with the directives.
    In response to a prior recommendation, DHS and DOT signed a 
Memorandum of Understanding last year, intended to improve 
coordination among Federal agencies and with rail stakeholders. 
And recently, in September of 2005, signed a transit security 
annex to this MOU. We are hopeful that this effort will 
increase coordination between the two departments and 
stakeholders to create a more unified and effective approach to 
securing rail.
    We also found that domestic and foreign passenger rail 
operators have generally taken similar actions to secure their 
rail systems. For example, most have implemented customer 
awareness programs, to encourage passengers to report 
suspicious activities, increased the number and visibility of 
security personnel and upgraded their security technologies.
    However, we also observe security practices among certain 
foreign rail operators or their governments that are not 
currently used or used to the same degree in the United States. 
These practices include the random screening of passengers and 
their bags, the utilization of covert testing to help keep 
employees alert to security threats, and building security into 
the design and refurbishing of rail stations. We also found 
that certain foreign governments maintain a clearinghouse of 
rail security technologies, which is not currently done in the 
U.S.
    In conclusion, Mr. Chairman, we are encouraged by the steps 
DHS has taken to use elements of a risk management approach to 
guide infrastructure protection decisions for rail and across 
all sectors. However, we believe that enhanced Federal 
leadership is needed to help ensure that actions and 
investments designed to enhance security are properly focused 
and prioritized. Mr. Chairman, this concludes my opening 
statement. I'd be happy to respond to any questions at the 
appropriate time.
    [The prepared statement of Ms. Berrick follows:]

Prepared Statement of Cathleen A. Berrick, Director, Homeland Security 
       and Justice Issues, U.S. Government Accountability Office

    Mr. Chairman and Members of the Committee:
    Thank you for inviting me to participate in today's hearing on 
passenger and freight rail security. The London rail bombings that took 
place in July--resulting in over 50 fatalities and more than 700 
injuries--made clear that even when a variety of security precautions 
are put in place, passenger rail systems that move high volumes of 
passengers on a daily basis remain vulnerable to terrorist attack. 
While securing the U.S. passenger rail system is a daunting task--a 
shared responsibility requiring coordinated action on the part of 
Federal, State, and local governments and the private sector--it is 
important nonetheless to take the necessary steps to identify and 
mitigate risks to passenger rail systems.
    As we have reported previously, the sheer number of stakeholders 
involved in securing these systems can lead to communication 
challenges, duplication of effort, and confusion about roles and 
responsibilities. Key Federal stakeholders with critical roles to play 
within the rail sector include the Transportation Security 
Administration (TSA), which is responsible for transportation security 
overall, and the Office for Domestic Preparedness (ODP), which provides 
grant funds to rail operators and conducts risk assessments for 
passenger rail agencies, both within the Department of Homeland 
Security (DHS); and the Federal Transit Administration (FTA) and 
Federal Railroad Administration (FRA), both within the Department of 
Transportation (DOT). One of the critical challenges facing these 
Federal agencies, and rail system operators they oversee or support, is 
finding ways to protect rail systems from potential terrorist attacks 
without compromising the accessibility and efficiency of rail travel.
    At the Federal level, another significant challenge to securing 
rail systems involves allocation of resources. The U.S. passenger rail 
systems represent one of many modes of transportation--along with 
aviation, maritime, and others--competing for limited Federal security 
resources. Within the passenger rail sector itself, there is 
competition for resources, as Federal, State, and local agencies and 
rail operators seek to identify and invest in appropriate security 
measures to safeguard these systems while also investing in other 
capital and operational improvements. Moreover, given competing 
priorities and limited homeland security resources, difficult policy 
decisions have to be made by Congress and the Executive Branch to 
prioritize security efforts and direct resources to areas of greatest 
risk within the passenger rail system, among all transportation modes, 
and across other nationally critical sectors.
    In this regard, to help Federal decision makers determine how to 
best allocate limited resources, we have advocated, the National 
Commission on Terrorist Attacks Upon the United States (the 9/11 
Commission) has recommended, and the subsequent Intelligence Reform and 
Terrorism Prevention Act of 2004 requires, that a risk management 
approach be employed to guide security decision making. \1\ A risk 
management approach entails a continuous process of managing risks 
through a series of actions, including setting strategic goals and 
objectives, assessing and quantifying risks, evaluating alternative 
security measures, selecting which measures to undertake, and 
implementing and monitoring those measures. In July 2005, in announcing 
his proposal for the reorganization of DHS, the Secretary of DHS 
declared that as a core principle of the reorganization, the Department 
must base its work on priorities driven by risk.
    My testimony today focuses on the progress Federal agencies and 
domestic passenger rail operators have made in setting and implementing 
security priorities in the wake of September 11 and terrorist attacks 
on rail systems, and the security practices implemented by foreign 
passenger rail operators. In particular, my testimony highlights three 
key areas: (1) the actions that DHS and its component agencies have 
taken to assess the risks posed by terrorism to the U.S. passenger rail 
system in the context of prevailing risk management principles; (2) the 
actions that Federal agencies have taken to enhance the security of the 
U.S. passenger rail system; and (3) the security practices that 
domestic and selected foreign passenger rail operators have implemented 
to mitigate risks and enhance security, and any differences in these 
practices. My comments today are based upon our recently issued report 
to Senators Snowe and Boxer of this Committee, the Chairman of the 
House Transportation and Infrastructure Subcommittee on Railroads, and 
Representative Castle. \2\
    In summary:

  <bullet> Within DHS, ODP has completed numerous risk assessments of 
        passenger rail systems around the country, and TSA has begun to 
        conduct risk assessments as well as establish a methodology for 
        determining how to analyze and characterize risks that have 
        been identified. Until TSA completes these efforts, however, or 
        sets timelines for doing so, the agency will not be able to 
        prioritize passenger rail assets and help guide security 
        investment decisions. At the department level, DHS has begun 
        developing, but has not yet completed a framework to help 
        agencies and the private sector develop a consistent approach 
        for analyzing and comparing risks to transportation and other 
        sectors. Until this framework is finalized and shared with 
        stakeholders, it may not be possible to compare risks across 
        different sectors, prioritize them, and allocate resources 
        accordingly.

  <bullet> In addition to the ongoing initiatives to enhance passenger 
        rail conducted by the FTA and FRA, in 2004, TSA issued 
        emergency security directives to domestic rail operators after 
        terrorist attacks on the rail system in Madrid and piloted a 
        test of explosive detection technology for use in passenger 
        rail systems. However, Federal and rail industry officials 
        raised questions about the feasibility of implementing and 
        complying with these directives, citing limited opportunities 
        to collaborate with TSA to ensure that industry best practices 
        were incorporated. In September 2004, DHS and DOT signed a 
        memorandum of understanding to improve coordination between the 
        two agencies, and are developing agreements to delineate 
        specific security-related roles and responsibilities, among 
        other things, for the different modes. An agreement for transit 
        security was signed in September 2005.

  <bullet> Domestic and foreign passenger rail operators we contacted 
        have taken a range of actions to help secure their systems. 
        Most, for example, had implemented customer awareness programs 
        to encourage passengers to remain vigilant and report 
        suspicious activities, increased the number and visibility of 
        their security personnel, increased the use of canine teams to 
        detect explosives, enhanced employee training programs, 
        upgraded security technology, tightened access controls, and 
        made rail system design improvements to enhance security. We 
        also observed security practices among certain foreign 
        passenger rail systems or their governments that are not 
        currently used by the domestic rail operators we contacted, or 
        by the U.S. Government, which could be considered for use in 
        the United States. For example, some foreign rail operators 
        randomly screen passengers or utilize covert testing to help 
        keep employees alert to security threats, and some foreign 
        governments maintain centralized clearinghouses on rail 
        security technologies and best practices. While introducing any 
        of these security practices into the U.S. rail system may pose 
        political, legal, fiscal, and cultural challenges, they may 
        nevertheless warrant further examination.

    In our September 2005 report on passenger rail security, we 
recommended, among other things, that to help ensure that the Federal 
Government has the information it needs to prioritize passenger rail 
assets based on risk, and in order to evaluate, select, and implement 
commensurate measures to help the Nation's passenger rail operators 
protect their systems against acts of terrorism, TSA should establish a 
plan with timelines for completing its methodology for conducting risk 
assessments and develop security standards that reflect industry best 
practices and can be measured and enforced, by using the Federal rule-
making process. In addition, we recommended that the Secretary of DHS, 
in collaboration with DOT and the passenger rail industry, determine 
the feasibility, in a risk management context, of implementing certain 
security practices used by foreign rail operators. DHS, DOT, and Amtrak 
generally agreed with the report's recommendations.

Background
Overview of the Passenger Rail System
    Each weekday, 11.3 million passengers in 35 metropolitan areas and 
22 states use some form of rail transit (commuter, heavy, or light 
rail). \3\ Commuter rail systems typically operate on railroad tracks 
and provide regional service (e.g., between a central city and adjacent 
suburbs). Commuter rail systems are traditionally associated with older 
industrial cities, such as Boston, New York, Philadelphia, and Chicago. 
Heavy rail systems--subway systems like New York City's transit system 
and Washington, D.C.'s Metro--typically operate on fixed rail lines 
within a metropolitan area and have the capacity for a heavy volume of 
traffic. Amtrak operates the Nation's primary intercity passenger rail 
service over a 22,000-mile network, primarily over leased freight 
railroad tracks. \4\ Amtrak serves more than 500 stations (240 of which 
are staffed) in 46 states and the District of Columbia, and it carried 
more than 25 million passengers in 2004. Figure 1 identifies the 
geographic location of rail transit systems and Amtrak within the 
United States. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Passenger Rail Systems Are Inherently Vulnerable to Terrorist Attacks
    According to passenger rail officials and passenger rail experts, 
certain characteristics of domestic and foreign passenger rail systems 
make them inherently vulnerable to terrorist attacks and therefore 
difficult to secure. By design, passenger rail systems are open (i.e., 
have multiple access points, hubs serving multiple carriers, and, in 
some cases, no barriers) so that they can move large numbers of people 
quickly. In contrast, the U.S. commercial aviation system is housed in 
closed and controlled locations with few entry points. The openness of 
passenger rail systems can leave them vulnerable because operator 
personnel cannot completely monitor or control who enters or leaves the 
systems. In addition, other characteristics of some passenger rail 
systems--high ridership, expensive infrastructure, economic importance, 
and location (e.g., large metropolitan areas or tourist destinations)--
also make them attractive targets for terrorists because of the 
potential for mass casualties and economic damage and disruption. 
Moreover, some of these same characteristics make passenger rail 
systems difficult to secure. For example, the numbers of riders that 
pass through a subway system--especially during peak hours--may make 
the sustained use of some security measures, such as metal detectors, 
difficult because they could result in long lines that could disrupt 
scheduled service. In addition, multiple access points along extended 
routes could make the cost of securing each location prohibitive. 
Balancing the potential economic impacts of security enhancements with 
the benefits of such measures is a difficult challenge.

Multiple Stakeholders Share Responsibility for Security Passenger Rail 
        Systems
    Securing the Nation's passenger rail systems is a shared 
responsibility requiring coordinated action on the part of Federal, 
State, and local governments; the private sector; and rail passengers 
who ride these systems. Since the September 11 attacks, the role of 
Federal Government agencies in securing the Nation's transportation 
systems, including passenger rail, have continued to evolve. Prior to 
September 11, DOT--namely FTA and FRA--was the primary Federal entity 
involved in passenger rail security matters. In response to the attacks 
of September 11, Congress passed the Aviation and Transportation 
Security Act (ATSA), which created TSA within DOT and defined its 
primary responsibility as ensuring security in all modes of 
transportation. \5\ The Act also gave TSA regulatory authority for 
security over all transportation modes. ATSA does not specify TSA's 
roles and responsibilities in securing the maritime and land 
transportation modes at the level of detail it does for aviation 
security. Instead, the Act broadly identifies that TSA is responsible 
for ensuring the security of all modes of transportation. With the 
passage of the Homeland Security Act of 2002, TSA was transferred, 
along with over 20 other agencies, to the Department of Homeland 
Security. \6\
    With the creation of DHS in 2002, one of its components, ODP, 
became primarily responsible for overseeing security funding for 
passenger rail systems. \7\ ODP is the principal component of DHS 
responsible for preparing the United States for acts of terrorism and 
has primary responsibility within the executive branch for assisting 
and supporting DHS, in coordination with other directorates and 
entities outside of the Department, in conducting risk analysis and 
risk management activities of state and local governments. \8\ In 
carrying out its mission, ODP provides training, funds for the purchase 
of equipment, support for the planning and execution of exercises, 
technical assistance, and other support to assist states, local 
jurisdictions, and the private sector to prevent, prepare for, and 
respond to acts of terrorism. Through the Urban Area Security 
Initiative (UASI) grant program, ODP has provided grants to urban areas 
to help enhance their overall security and preparedness level to 
prevent, respond to, and recover from acts of terrorism. The DHS 
Appropriations Act of 2005 appropriated $150 million for rail transit, 
intercity passenger rail, freight rail, and transit agency security 
grants. \9\ With this funding, ODP created and is administering two 
grant programs focused specifically on transportation security, the 
Transit Security Grant Program and the Intercity Passenger Rail 
Security Grant Program. These programs provide financial assistance to 
address security preparedness and enhancements for transit (to include 
commuter, heavy, and light rail systems; intracity bus; and ferry) and 
intercity rail systems.
    While TSA is the lead Federal agency for ensuring the security of 
all transportation modes, FTA conducts nonregulatory safety and 
security activities, including safety and security-related training, 
research, technical assistance, and demonstration projects. In 
addition, FTA promotes safety and security through its grant-making 
authority. FRA has regulatory authority for rail safety over commuter 
rail operators and Amtrak, and employs over 400 rail inspectors that 
periodically monitor the implementation of safety and security plans at 
these systems. \10\
    State and local governments, passenger rail operators, and private 
industry are also important stakeholders in the Nation's rail security 
efforts. State and local governments may own or operate a significant 
portion of the passenger rail system. Even when state and local 
governments are not owners and operators, they are directly affected by 
passenger rail systems that run within and through their jurisdictions. 
Consequently, the responsibility for responding to emergencies 
involving the passenger rail infrastructure often falls to state and 
local governments. Passenger rail operators, which can be public or 
private entities, are responsible for administering and managing 
passenger rail activities and services. Passenger rail operators can 
directly operate the service provided or contract for all or part of 
the total service. Although all levels of government are involved in 
passenger rail security, the primary responsibility for securing 
passenger rail systems rests with the passenger rail operators.

Assessing and Managing Risks to Rail Infrastructure Using a Risk 
        Management Approach
    In recent years, we, along with Congress (most recently through the 
Intelligence Reform and Terrorism Prevention Act of 2004), \11\ the 
executive branch (e.g., in presidential directives), and the 9/11 
Commission have required or advocated that Federal agencies with 
homeland security responsibilities utilize a risk management approach 
to help ensure that finite national resources are dedicated to assets 
or activities considered to have the highest security priority. We have 
concluded that without a risk management approach, there is limited 
assurance that programs designed to combat terrorism are properly 
prioritized and focused. Thus, risk management, as applied in the 
homeland security context, can help to more effectively and efficiently 
prepare defenses against acts of terrorism and other threats.
    A risk management approach entails a continuous process of managing 
risk through a series of actions, including setting strategic goals and 
objectives, performing risk assessments, evaluating alternative actions 
to reduce identified risks by preventing or mitigating their impact, 
management selecting actions to undertake, and implementing and 
monitoring those actions. Figure 2 depicts a risk management cycle that 
is our synthesis of government requirements and prevailing best 
practices previously reported. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Setting strategic goals, objectives, and constraints is a key first 
step in implementing a risk management approach and helps to ensure 
that management decisions are focused on achieving a strategic purpose. 
These decisions should take place in the context of an agency's 
strategic plan that includes goals and objectives that are clear, 
concise, and measurable.
    Risk assessment, a critical element of a risk management approach, 
helps decision makers identify and evaluate potential risks so that 
countermeasures can be designed and implemented to prevent or mitigate 
the effects of the risks. Risk assessment is a qualitative and/or 
quantitative determination of the likelihood of an adverse event 
occurring and the severity, or impact, of its consequences. Risk 
assessment in a homeland security application often involves assessing 
three key elements--threat, criticality, and vulnerability:

  <bullet> A threat assessment identifies and evaluates potential 
        threats on the basis of factors such as capabilities, 
        intentions, and past activities.

  <bullet> A criticality or consequence assessment evaluates and 
        prioritizes assets and functions in terms of specific criteria, 
        such as their importance to public safety and the economy, as a 
        basis for identifying which structures or processes are 
        relatively more important to protect from attack.

  <bullet> A vulnerability assessment identifies weaknesses that may be 
        exploited by identified threats and suggests options to address 
        those weaknesses.

    Information from these three assessments contributes to an overall 
risk assessment that characterizes risks on a scale such as high, 
medium, or low and provides input for evaluating alternatives and 
management prioritization of security initiatives. \12\ The risk 
assessment element in the overall risk management cycle may be the 
largest change from standard management steps and is central to 
informing the remaining steps of the cycle.
    The next step in a risk management approach--alternatives 
evaluation--considers what actions may be needed to address identified 
risks, the associated costs of taking these actions, and any resulting 
benefits. This information is then to be provided to agency management 
to assist in the selection of alternative actions best suited to the 
unique needs of the organization. An additional step in the risk 
management approach is the implementation and monitoring of actions 
taken to address the risks, including evaluating the extent to which 
risk was mitigated by these actions. Once the agency has implemented 
the actions to address risks, it should develop criteria for and 
continually monitor the performance of these actions to ensure that 
they are effective and also reflect evolving risk.

Federal Agencies with Risk Management Responsibilities
    A number of Federal departments and agencies have risk management 
and critical infrastructure protection responsibilities stemming from 
various requirements. The Homeland Security Act of 2002, which created 
DHS, directed the Department's Information Analysis and Infrastructure 
Protection (IAIP) Directorate to utilize a risk management approach in 
coordinating the Nation's critical infrastructure protection efforts. 
This includes using risk assessments to set priorities for protective 
and support measures by the Department, other Federal agencies, State 
and local government agencies and authorities, the private sector, and 
other entities. Homeland Security Presidential Directive 7 (HSPD-7) 
defines critical infrastructure protection responsibilities for DHS, 
sector-specific agencies (those Federal agencies given responsibility 
for transportation, energy, telecommunications, and so forth), and 
other departments and agencies. The President instructs Federal 
departments and agencies to identify, prioritize, and coordinate the 
protection of critical infrastructure to prevent, deter, and mitigate 
the effects of terrorist attacks. The Secretary of DHS is assigned 
several responsibilities by HSPD-7, including establishing uniform 
policies, approaches, guidelines, and methodologies for integrating 
Federal infrastructure protection and risk management activities within 
and across sectors. To ensure the coverage of critical sectors, HSPD-7 
designated sector-specific agencies for 17 critical infrastructure 
sectors. \13\ These agencies are responsible for infrastructure 
protection activities in their assigned sectors, including coordinating 
and collaborating with relevant Federal agencies, state and local 
governments, and the private sector to carry out their responsibilities 
and facilitating the sharing of information about vulnerabilities, 
incidents, potential protective measures, and best practices.
    Pursuant to HSPD-7 and the National Infrastructure Protection Plan 
(NIPP), DHS was designated as the sector-specific agency for the 
transportation sector, a responsibility the Department has delegated to 
TSA. \14\ As the sector-specific agency for transportation, TSA is 
required to develop a transportation sector-specific plan (TSSP) for 
identifying, prioritizing, and protecting critical transportation 
infrastructure and key resources that will provide key input to the 
broader National Infrastructure Protection Plan to be prepared by IAIP. 
DHS issued an interim NIPP in February 2005 that was intended to serve 
as a road map for how DHS and stakeholders--including other Federal 
agencies, the private sector, and state and local governments--should 
use risk management principles for determining how to prioritize 
activities related to protecting critical infrastructure and key 
resources within and among each of the 17 sectors in an integrated, 
coordinated fashion. DHS expects the next iteration of the NIPP to be 
issued in November 2005, with the sector-specific plans, including the 
TSSP, being incorporated into this plan in February 2006. HSPD-7 also 
requires DHS to coordinate with DOT on all transportation security 
matters.

DHS Has Taken Steps to Assess Risk to Passenger Rail Systems, but 
        Additional Work Is Needed to Guide Security Investments
    DHS component agencies have taken various steps to assess the risk 
posed by terrorism to U.S. passenger rail systems. ODP has developed 
and implemented a risk assessment methodology intended to help 
passenger rail operators and others enhance their capacity to respond 
to terrorist incidents and identify and prioritize security 
countermeasures. As of July 2005, ODP had completed 7 risk assessments 
with rail operators and 12 others were under way. Further, TSA 
completed a threat assessment for mass transit and rail and has begun 
to identify critical rail assets, but it has not yet completed an 
overall risk assessment for the passenger rail industry. DHS is 
developing guidance to help these and other sector-specific agencies 
work with stakeholders to identify and analyze risk.

ODP Has Worked with Passenger Rail Operators to Develop Risk 
        Assessments to Help Prioritize Rail Security Needs and 
        Investments
    In 2002, ODP began conducting risk assessments of passenger rail 
operators through its Mass Transit Technical Assistance program. These 
assessments are intended to help passenger rail operators and port 
authorities enhance their capacity and preparedness to respond to 
terrorist incidents involving weapons of mass destruction, and identify 
and prioritize security countermeasures and emergency response 
capabilities. ODP's approach to risk assessment is generally consistent 
with the risk assessment component of our risk management approach. The 
agency has worked with passenger rail operators and others to complete 
several risk assessments. As of July 2005, ODP had completed 7 risk 
assessments in collaboration with passenger rail operators. \15\ Twelve 
additional risk assessments are under way, and an additional 11 
passenger rail operators have requested assistance through this 
program. The results developed in the threat, criticality, 
vulnerability, and impact assessments are then used to develop an 
overall risk assessment in order to evaluate the relative risk among 
various assets, weapons, and modes of attack. This is intended to give 
operators an indication of which asset types and threat scenarios carry 
the highest risk that, accordingly, are likely candidates for early 
risk mitigation action.
    According to rail operators who have used ODP's risk assessment 
methodology and commented about it to DHS or us, the method has been 
successful in helping to devise risk reduction strategies to guide 
security-related investments. For example, between September 2002 and 
March 2003, ODP's technical assistance team worked with the Port 
Authority of New York and New Jersey (PANYNJ) to conduct a risk 
assessment of all of its assets--its Port Authority Trans-Hudson (PATH) 
passenger rail system, as well as airports, ports, interstate highway 
crossings, and commercial properties. \16\ According to PANYNJ 
officials, the authority was able to develop and implement a risk 
reduction strategy that enabled it to identify and set priorities for 
improvements in security and emergency response capability that are 
being used to guide security investments. According to authority 
officials, the risk assessment that was conducted was instrumental in 
obtaining management approval for a 5-year, $500 million security 
capital investment program, as it provided a risk-based justification 
for these investments.
    The six other passenger rail operators that have completed ODP's 
risk assessment process also stated that they valued the process. 
Specifically, operators said that the assessments enabled them to 
prioritize investments based on risk and are already allowing or are 
expected to allow them to effectively target and allocate resources 
toward security measures that will have the greatest impact on reducing 
risk across their system.

ODP Has Sought to Promote Risk-Based Decision Making Among Federal 
        Agencies and Rail Operators
    On the basis of its own experience with conducting risk assessments 
in the field, and in keeping with its mission to develop and implement 
a national program to enhance the capacity of state and local agencies 
to respond to incidents of terrorism, ODP has offered to help other DHS 
components and Federal agencies to develop risk assessment tools, 
according to ODP officials. For example, ODP is partnering with FRA, 
TSA, the American Association of Railroads (AAR), and others to develop 
a risk assessment tool for freight rail corridors. \17\ In a separate 
Federal outreach effort, ODP worked with TSA to establish a Federal 
Risk Assessment Working Group to promote interagency collaboration and 
information sharing. In addition, in keeping with its mission to 
deliver technical assistance and training, ODP has partnered with the 
American Public Transportation Association (APTA) to inform passenger 
rail operators about its risk assessment technical assistance program. 
\18\ Since June 2004, ODP has attended five APTA conferences or 
workshops where it has set up information booths, made the tool kit 
available, and conducted seminars to educate passenger rail operators 
about the risk assessment process and its benefits.
    ODP has leveraged its grant-making authority to promote risk-based 
funding decisions for passenger rail. For example, passenger rail 
operators must have completed a risk assessment to be eligible for 
financial assistance through the Fiscal Year 2005 Transit Security 
Grant Program administered by ODP. To receive these funds, passenger 
rail operators are also required to have a security and emergency 
preparedness plan that identifies how the operator intends to respond 
to security gaps identified by risk assessments. This plan, along with 
a regional transit security strategy prepared by regional transit 
stakeholders, will serve as the basis for determining how the grant 
funds are to be allocated.
    Risk assessments are also a key driver of Federal funds distributed 
through ODP's Fiscal Year 2005 Intercity Passenger Rail Grant Program. 
This $7.1 million program provides financial assistance to Amtrak for 
the protection of critical infrastructure and emergency preparedness 
activities along Amtrak's Northeast Corridor and its hub in Chicago. 
Amtrak is required to conduct a risk assessment of these areas in 
collaboration with ODP, in order to receive the grant funds. \19\ A 
recent review of Amtrak's security posture and programs conducted by 
the RAND Corporation and funded by FRA in 2004 found that no 
comprehensive terrorism risk assessment of Amtrak has been conducted 
that would provide an empirical baseline for investment prioritization 
and decision making for Amtrak's security policies and investment 
plans. As another condition for receiving the grant funds, Amtrak is 
required to develop a security and emergency preparedness plan that, 
along with the risk assessment, is to serve as the basis for proposed 
allocations of grant funding. According to an Amtrak security official, 
it welcomes the risk assessment effort and plans to use the results of 
the assessment to guide its security plans and investments. According 
to ODP officials, as of July 2005, the Amtrak risk assessment was 
nearly 50 percent complete.

TSA Has Begun to Assess Risks to Passenger Rail
    In October 2004, TSA completed an overall threat assessment for 
both mass transit and passenger and freight rail modes. \20\ TSA began 
conducting a second risk assessment element--criticality assessments of 
passenger rail stations--in the spring of 2004, but the effort had not 
been completed at the time of our review. According to TSA, a 
criticality assessment tool was developed that considers multiple 
factors, such as the potential for loss of life or effects on public 
health; the economic impact of the loss of function of the asset and 
the cost of reconstitution; and the local, regional, or national 
symbolic importance of the asset. These factors were to be used to 
arrive at a criticality score that, in turn, would enable the agency to 
rank assets and facilities based on relative importance, according to 
TSA officials.
    To date, TSA has assigned criticality scores to nearly 700 
passenger rail stations. In May 2005, TSA began conducting assessments 
for other passenger rail assets such as bridges and tunnels. TSA 
officials told us that as of July 2005, they had completed 73 
criticality assessments for bridge and tunnel assets and expect to 
conduct approximately 370 additional assessments in these categories. 
Once TSA has completed its criticality assessment, a senior group of 
transportation security experts will review these scores and 
subsequently rank and prioritize them. As of July 2005, TSA had not 
established a time frame for completing criticality assessments for 
passenger rail assets or for ranking assets, and had not identified 
whether it planned to do so.
    In 2003, TSA officials stated that they planned to work with 
transportation stakeholders to rank assets and facilities in terms of 
their criticality. HSPD-7 requires sector-specific agencies such as TSA 
to collaborate with all relevant stakeholders, including Federal 
departments and agencies, state and local governments, and others. In 
addition, DHS's interim NIPP states that sector-specific agencies, such 
as TSA, are expected to work with stakeholders--such as rail 
operators--to determine the most effective means of obtaining and 
analyzing information on assets. While TSA's methodology for conducting 
criticality assessments calls for ``facilitated sessions'' involving 
TSA modal specialists, DOT modal specialists, and trade association 
representatives, these sessions with stakeholders have not been held. 
According to TSA officials, their final methodology for conducting 
criticality assessments did not include DOT modal specialists and trade 
associations. With respect to rail operators, TSA officials explained 
that their risk assessment process does not require operators' 
involvement. TSA analysts said they have access to a great deal of 
information (such as open source records, satellite imagery, and 
insurance industry data) that can facilitate the assessment process. 
However, when asked to comment on TSA's ability to identify critical 
assets in passenger rail systems, APTA officials and 10 rail operators 
we interviewed told us it would be difficult for TSA to complete this 
task without their direct input and rail system expertise.
    TSA plans to rely on asset criticality rankings to prioritize which 
assets it will focus on in conducting vulnerability assessments. That 
is, once an asset, such as a passenger rail station, is deemed to be 
most critical, then TSA would focus on determining the station's 
vulnerability to attacks. TSA plans to conduct on-site vulnerability 
assessments for those assets deemed most critical. For assets that are 
deemed to be less critical, TSA has developed a software tool that it 
has made available to passenger rail and other transportation operators 
for them to use on a voluntary basis to assess the vulnerability of 
their assets. As of July 2005, the tool had not yet been used. 
According to APTA officials, passenger rail operators may be reluctant 
to provide vulnerability information to TSA without knowing how the 
agency intends to use such information. According to TSA, it is 
difficult, if not impossible, to project any timelines regarding 
completion of vulnerability assessments in the transportation sector 
because rail operators are not required to submit them. In this regard, 
while the rail operators are not required to submit this information, 
as the sector-specific agency for transportation, TSA is required by 
HSPD-7 to complete vulnerability assessments for the transportation 
sector. Figure 3 illustrates the overall progress TSA had made in 
conducting risk assessments for passenger rail assets as of July 2005. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We recognize that TSA's risk assessment effort is still evolving 
and TSA has had other pressing priorities, such as meeting the 
legislative requirements related to aviation security. However, until 
all three assessments of rail systems--threat, criticality, and 
vulnerability--have been completed in sequence, and until TSA 
determines how to use the results of these assessments to analyze and 
characterize risk (e.g., whether high, medium, or low), it may not be 
possible to prioritize passenger rail assets and guide investment 
decisions about protecting them.
    Finalizing a methodology for assessing risk to passenger rail and 
other transportation assets and conducting the assessments are key 
steps needed to produce the plans required by HSPD-7 and the 
Intelligence Reform and Terrorism Prevention Act of 2004. DHS and TSA 
have missed both deadlines for producing these plans. Specifically, DHS 
and TSA have not yet produced the TSSP required by HSPD-7 to be issued 
in December of 2004, though a draft was prepared in November 2004. DHS 
and TSA also missed the April 1, 2005, deadline for completing the 
national strategy for transportation security required by the 
Intelligence Reform and Terrorism Prevention Act of 2004. In an April 
2005 letter to Congress addressing the missed deadline, the DHS Deputy 
Secretary identified the need to more aggressively coordinate the 
development of the strategy with other relevant planning work such as 
the TSSP, to include further collaboration with DOT modal 
administrations and DHS components. The Deputy Secretary further stated 
that DHS expected to finish the strategy within 2 to 3 months. However, 
as of July 31, 2005, the strategy had not been completed. In April 
2005, senior DHS and TSA officials told us that in addition to DOT, 
industry groups such as APTA and AAR would also be more involved in 
developing the TSSP and other strategic plans. However, as of July 
2005, TSA had not yet engaged these stakeholders in the development of 
these plans.
    As TSA, other sector-specific agencies, and ODP move forward with 
risk assessment activities, DHS is concurrently developing guidance 
intended to help these agencies work with their stakeholders to assess 
risk. HSPD-7 requires DHS to establish uniform policies, approaches, 
guidelines, and methodologies for integrating Federal infrastructure 
protection and risk management activities within and across sectors. To 
meet this requirement, DHS has, among other things, been working for 
nearly 2 years on a risk assessment framework through IAIP. \21\ This 
framework is intended to help the private sector and state and local 
governments to develop a consistent approach to analyzing risk and 
vulnerability across infrastructure types and across entire economic 
sectors, develop consistent terminology, and foster consistent results. 
The framework is also intended to enable a Federal-level assessment of 
risk in general, and comparisons among risks, for purposes of resource 
allocation and response planning. DHS has informed TSA that this 
framework will provide overarching guidance to sector-specific agencies 
on how various risk assessment methodologies may be used to analyze, 
normalize, and prioritize risk within and among sectors. The interim 
NIPP states that the ability to rationalize, or normalize, results of 
different risk assessments is an important goal for determining risk-
related priorities and guiding investments. One core element of the DHS 
framework--defining concepts, terminology, and metrics for assessing 
risk--had not yet been completed. The completion date for this 
element--initially due in September 2004--has been extended twice, with 
the latest due date in June 2005. However, as of July 31, 2005, this 
element has not been completed.
    Because neither this element nor the framework as a whole has been 
finalized or provided to TSA or other sector-specific agencies, it is 
not clear what impact, if any, DHS's framework may have on ongoing risk 
assessments conducted by, and the methodologies used by, TSA, ODP, and 
others, and whether or how DHS will be able to use these results to 
compare risks and prioritize homeland security investments among 
sectors. Until DHS finalizes this framework, and until TSA completes 
its risk assessment methodology, it may not be possible to determine 
whether different methodologies used by TSA and ODP for conducting 
threat, criticality, and vulnerability assessments generate disparate 
qualitative and quantitative results or how they can best be compared 
and analyzed. In addition, TSA and others will have difficulty taking 
into account whether at some point TSA may be unnecessarily duplicating 
risk management activities already under way at other agencies and 
whether other agencies' risk assessment methodologies, and the data 
generated by these methodologies, can be leveraged to complete the 
assessments required for the transportation sector. In the future, the 
implementation of DHS's department-wide proposed reorganization could 
affect decisions relating to critical infrastructure protection as new 
directorates are established, such as the directorates of policy and 
preparedness, and other preparedness assets are consolidated from 
across the department.

Multiple Federal Agencies Have Taken Actions to Enhance Passenger Rail 
        Security
    FTA and FRA were the primary Federal agencies involved in passenger 
rail security matters prior to the creation of TSA. Before and after 
September 11, these two agencies launched a number of initiatives 
designed to strengthen passenger rail security. TSA also took steps to 
strengthen rail security, including issuing emergency security 
directives to rail operators and testing emerging rail security 
technologies for screening passengers and baggage. Rail industry 
stakeholders and Federal agency officials raised questions about how 
effectively DHS had collaborated with them on rail security issues. DHS 
and DOT have signed a memorandum of understanding intended to identify 
ways that collaboration with Federal and industry stakeholders might be 
improved.

DOT Agencies Led Initial Efforts to Enhance Passenger Rail Security
    Prior to the creation of TSA in November 2001, DOT agencies (i.e., 
modal administrations)--notably FTA and FRA--were primarily responsible 
for the security of passenger rail systems. These agencies undertook a 
number of initiatives to enhance the security of passenger rail systems 
after September 11. FTA, using an $18.7 million appropriation by the 
Department of Defense and Emergency Supplemental Appropriations Act of 
2002, launched a multipart transit security initiative, much of which 
is still in place. The initiative included security readiness 
assessments, technical assistance, grants for emergency response 
drills, and training. For example, in 2003, FTA instituted the Transit 
Watch campaign--a nationwide safety and security awareness program 
designed to encourage the active participation of transit passengers 
and employees in maintaining a safe transit environment. The program 
provides information and instructions to transit passengers and 
employees so that they know what to do and whom to contact in the event 
of an emergency in a transit setting. FTA plans to continue this 
initiative, in partnership with TSA and ODP, and offer additional 
security awareness materials that address unattended bags and emergency 
evacuation procedures for transit agencies. In addition, FTA has issued 
guidance, such as its Top 20 Security Program Action Items for Transit 
Agencies, which recommends measures for passenger rail operators to 
implement into their security programs to improve both security and 
emergency preparedness.
    FTA has also used research and development funds to develop 
guidance for security design strategies to reduce the vulnerability of 
transit systems to acts of terrorism. In November 2004, FTA provided 
rail operators with security considerations for transportation 
infrastructure. This guidance provided recommendations intended to help 
operators deter and minimize attacks against their facilities, riders, 
and employees by incorporating security features into the design of 
rail infrastructure.
    FRA has also taken a number of actions to enhance passenger rail 
security since September 11. For example, it has assisted commuter 
railroads in developing security plans, reviewed Amtrak's security 
plans, and helped fund FTA security readiness assessments for commuter 
railroads. More recently, in the wake of the Madrid terrorist bombings, 
nearly 200 FRA inspectors, in cooperation with DHS, conducted multi-day 
team inspections of each of the 18 commuter railroads and Amtrak to 
determine what additional security measures had been put into place to 
prevent a similar occurrence in the United States. FRA also conducted 
research and development projects related to passenger rail security. 
These projects included rail infrastructure security and trespasser 
monitoring systems and passenger screening and manifest projects, 
including explosives detection.
    Although DOT modal administrations now play a supporting role in 
transportation security matters since the creation of TSA, they remain 
important partners in the Federal Government's efforts to improve rail 
security, given their role in funding and regulating the safety of 
passenger rail systems. Moreover, as TSA moves ahead with its passenger 
rail security initiatives, FTA and FRA are continuing their passenger 
rail security efforts.

TSA Issued Mandatory Security Directives to Rail Operators but Faces 
        Challenges Related to Compliance and Enforcement
    In response to the March 2004 commuter rail attacks in Madrid and 
Federal intelligence on potential threats against U.S. passenger rail 
systems, TSA issued security directives to the passenger rail industry 
in May 2004. TSA issued these security directives to establish a 
consistent baseline standard of protective measures for all passenger 
rail operators, including Amtrak. \22\ The directives were not related 
to, and were issued independent of, TSA's efforts to conduct risk 
assessments to prioritize rail security needs. TSA considered the 
measures required by the directives to constitute mandatory security 
standards that were required to be implemented within 72 hours of 
issuance by all passenger rail operators nationwide. In an effort to 
provide some flexibility to the industry, the directives allowed rail 
operators to propose alternative measures to TSA in order to meet the 
required measures. Table 1 contains examples of security measures 
required by these directives.
-----------------------------------------------------------------------
        ------------------------------------------------
   Table 1: Examples of Measures Required by TSA Security Directives 
             Issued to Passenger Rail Operators and Amtrak
    TSA directives require passenger rail operators to:

  <bullet> designate coordinators to enhance security-related 
        communications with TSA;

  <bullet> provide TSA with access to the latest security assessments 
        and security plans;

  <bullet> reinforce employee watch programs;

  <bullet> ask passengers and employees to report unattended property 
        or suspicious behavior;

  <bullet> remove trash receptacles at stations determined by a 
        vulnerability assessment to be at significant risk and only to 
        the extent practical, except for clear plastic or bomb-
        resistant containers;

  <bullet> install bomb-resistant trash cans to the extent resources 
        allow;

  <bullet> utilize canine explosive detection teams, if available, to 
        screen passenger baggage, terminals, and trains;

  <bullet> utilize surveillance systems to monitor for suspicious 
        activity, to the extent resources allow;

  <bullet> allow TSA-designated canine teams at any time or place to 
        conduct canine operations;

  <bullet> conduct frequent inspections of key facilities, stations, 
        terminals, or other critical assets for persons and items that 
        do not belong;

  <bullet> inspect each passenger rail car for suspicious or unattended 
        items, at regular periodic intervals;

  <bullet> ensure that appropriate levels of policing and security are 
        provided that correlate to DHS threat levels and threat 
        advisories;

  <bullet> lock all doors that allow access to train operators' cab or 
        compartment, if equipped with locking mechanisms;

  <bullet> require Amtrak to request that adult passengers provide 
        identification at the initial point where tickets are checked.
-----------------------------------------------------------------------
        ------------------------------------------------
        Source: TSA.

    Although TSA issued these directives, it is unclear how TSA 
developed the required measures contained in the directives, how TSA 
plans to monitor and ensure compliance with the measures, how rail 
operators are to implement the measures, and which entities are 
responsible for their implementation. According to the former DHS 
Undersecretary for Border and Transportation Security, the directives 
were developed based upon consultation with the industry and a review 
of best practices in passenger rail and mass transit systems across the 
country and were intended to provide a Federal baseline standard for 
security. TSA officials stated to us that the directives were based 
upon FTA and APTA best practices for rail security. Specifically, TSA 
stated that it consulted a list of the top 20 actions FTA identified 
that rail operators can take to strengthen security, FTA-recommended 
protective measures and activities for transit agencies that may be 
followed based on current threat levels, and an APTA member survey. 
While some of the directives correlate to information contained in the 
FTA guidance, such as advocating that rail personnel watch for 
abandoned parcels, vehicles, and the like, the source for many of the 
directives is unclear. For example, the source material TSA consulted 
does not support the requirement that train cabs or compartment doors 
should be kept locked. Furthermore, the sources do not necessarily 
reflect industry best practices, according to FTA and APTA officials. 
FTA's list of recommended protective measures and the practices 
identified in the APTA survey are not necessarily viewed as industry 
best practices. For example, the APTA member survey that TSA used 
reports rail security practices that are in use by operators but which 
are not best practices endorsed by the group or other industry 
stakeholders.
    TSA officials have stated that they understood the importance of 
partnering with the rail industry on security matters, and that they 
would draw on the expertise and knowledge of the transportation 
industry and other DHS agencies, as well as all stakeholders, in 
developing security standards for all modes of transportation, 
including rail. TSA officials held an initial meeting with APTA, AAR, 
and Amtrak officials to discuss the draft directives prior to their 
issuance and told them that they would continue to be consulted prior 
to their final issuance. However, these stakeholders were not given an 
opportunity to comment on a final draft of the directives before their 
release because, according to TSA, DHS determined that it was important 
to release the directives as soon as possible to address a current 
threat to passenger rail. In addition, TSA stated that because the 
directives needed to be issued quickly, there was no public comment as 
part of the rule-making process. Shortly after the directives were 
issued, TSA's Deputy Assistant Administrator for Maritime and Land 
Security told rail operators at an APTA conference we attended in June 
2004 that if TSA determined that there is a need for the directives to 
become permanent, they would undergo a notice-and-comment period as 
part of the regulatory process. As of July 2005, TSA had not yet 
determined whether it intends to pursue the rule-making process with a 
notice and comment period.
    APTA and AAR officials stated that because they were not consulted 
throughout the development of the directives, the directives did not, 
in their view, reflect a complete understanding of the passenger rail 
environment or necessarily incorporate industry best practices. For 
example, APTA, AAR, and some rail operators raised concerns about the 
feasibility of installing bomb-resistant trash cans in rail stations 
because they could direct the force of a bomb blast upward, possibly 
causing structural damage in underground or enclosed stations. DHS's 
Office for State and Local Government Coordination and Preparedness 
recently conducted tests to determine the safety and effectiveness of 
13 models of commercially available bomb-resistant trash receptacles. 
At the time of our review, the results of these tests were not yet 
available.
    Amtrak and FRA officials raised concerns about some of the 
directives, as well, and told us they questioned whether the 
requirements reflected industry best practices. For example, before the 
directives were issued, Amtrak expressed concerns to TSA about the 
feasibility of the requirement to check the identification of all adult 
passengers boarding its trains because it did not have enough staff to 
perform these checks. However, the final directive included this 
requirement, and after they were released, Amtrak told TSA it could not 
comply with this requirement ``without incurring substantial additional 
costs and significant detrimental impacts to its operations and 
revenues.'' Amtrak officials told us that since passenger names would 
not be compared against any criminal or terrorist watch list or 
database, the benefits of requiring such identification checks were 
open to debate. To resolve its concern, and as allowed by the 
directive, Amtrak proposed, and TSA accepted, random identification 
checks of passengers as an alternative measure. FRA officials further 
stated that current FRA safety regulations requiring engineer 
compartment doors be kept unlocked to facilitate emergency escapes \23\ 
conflicts with the security directive requirement that doors equipped 
with locking mechanisms be kept locked. This requirement was not 
included in the draft directives provided to stakeholders. TSA did call 
one commuter rail operator prior to issuing the directives to discuss 
this potential proposed measure, and the operator raised a concern 
about the safety of the locked door requirement. TSA nevertheless 
included this requirement in the directives.
    With respect to how the directives were to be enforced, rail 
operators were required to allow TSA and DHS to perform inspections, 
evaluations, or tests based on execution of the directives at any time 
or location. Upon learning of any instance of noncompliance with TSA 
security measures, rail operators were to immediately initiate 
corrective action. Monitoring and ensuring compliance with the 
directives has posed challenges for TSA. In the year after the 
directives were issued, TSA did not have dedicated field staff to 
conduct on-site inspections. When the rail security directives were 
issued, the former DHS Undersecretary for Border and Transportation 
Security stated that TSA planned to form security partnership teams 
with DOT, including FRA rail inspectors, to help ensure that industry 
stakeholders complied with the directives. These teams were to be 
established in order to tap into existing capabilities and avoid 
duplication of effort across agencies. As of July 2005, these teams had 
not yet been utilized to perform inspections. TSA has, however, hired 
rail compliance inspectors to, among other things, monitor and enforce 
compliance with the security directives. As of July 2005, TSA had hired 
57 of up to 100 inspector positions authorized by Congress. \24\ 
However, TSA has not yet established processes or criteria for 
determining and enforcing compliance, including determining how rail 
inspectors or DOT partnership teams will be used in this regard.
    Establishing criteria for monitoring compliance with the directives 
may be challenging because the language describing the required 
measures allows for flexibility and does not define parameters. In an 
effort to acknowledge the variable conditions that existed in passenger 
rail environments, TSA designed the directives to allow flexibility in 
implementation through the use of such phrases as ``to the extent 
resources allow,'' ``to the extent practicable,'' and ``if available.'' 
The directives also include nonspecific instructions that may be 
difficult to measure or monitor, telling operators to, for example, 
perform inspections of key facilities at ``regular periodic intervals'' 
or to conduct ``frequent inspections'' of passenger rail cars. When the 
directives were issued, TSA stated that it would provide rail operators 
with performance-based guidance and examples of announcements and signs 
that could be used to meet the requirements of the directives, 
including guidance on the appropriate frequency and method for 
inspecting rail cars and facilities. However, as of July 2005, this 
information had not been provided.
    Industry stakeholders we interviewed raised questions about how 
they were to comply with the measures contained in the directives and 
which entities were responsible for implementing the measures. 
According to an AAR official, in June 2004, AAR officials and rail 
operators held a conference call with TSA to obtain clarification on 
these issues. According to AAR officials, in response to an inquiry 
about what would constitute compliance for some of the measures, the 
then-TSA Assistant Administrator for Maritime and Land Security told 
participants that the directives were not intended to be overly 
prescriptive but were guidelines, and that operators would have the 
flexibility to implement the directives as they saw fit. The officials 
also asked for clarification on who was legally responsible for 
ensuring compliance for measures where assets, such as rail stations, 
were owned by freight railroads or private real estate companies. 
According to AAR officials, TSA told them it was the responsibility of 
the rail operators and asset owners to work together to determine these 
responsibilities. However, according to AAR and rail operators, given 
that TSA has hired rail inspectors and indicated its intention to 
enforce compliance with the directives, it is critical that TSA clarify 
what compliance entails for measures required by the directives and 
which entities are responsible for compliance with measures when rail 
assets are owned by one party but operated by another--such as when 
private companies that own terminals or stations provide services for 
commuter rail operations.
    The challenges TSA has faced in developing security directives as 
standards that reflect industry best practices--and that can be 
measured and enforced--stem from the original emergency nature of the 
directives, which were issued with limited input and review. TSA told 
rail industry stakeholders when the directives were issued 15 months 
ago that the agency would consider using the Federal rule-making 
process as a means of making the standards permanent. Doing so would 
require TSA to hold a notice-and-comment period, resulting in a public 
record that reflects stakeholders' input on the applicability and 
feasibility of implementing the directives, along with TSA's rationale 
for accepting or rejecting this input. While there is no guarantee that 
this process would produce more effective security directives, it would 
be more transparent and could help TSA in developing standards that are 
most appropriate for the industry and can be measured, monitored, and 
enforced.

TSA Has Begun Testing Rail Security Technologies
    In addition to issuing security directives, TSA also sought to 
enhance passenger rail security by conducting research on technologies 
related to screening passengers and checked baggage in the passenger 
rail environment. Beginning in May 2004, TSA conducted a Transit and 
Rail Inspection Pilot (TRIP) study, in partnership with DOT, Amtrak, 
the Connecticut Department of Transportation, the Maryland Transit 
Administration, and the Washington Metropolitan Area Transit Authority 
(WMATA). TRIP was a $1.5 million, three-phase effort to test the 
feasibility of using existing and emerging technologies to screen 
passengers, carry-on items, checked baggage, cargo, and parcels for 
explosives. Figure 4 summarizes TRIP's three-phased approach. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    According to TSA, all three phases of the TRIP program were 
completed by July 2004. However, TSA has not yet issued a planned 
report analyzing whether the technologies could be used effectively to 
screen rail passengers and their baggage. According to TSA officials, a 
report on results and lessons learned from TRIP is under review by DHS. 
TSA officials told us that based upon preliminary analyses, the 
screening technologies and processes tested would be very difficult to 
implement on more heavily used passenger rail systems because these 
systems carry high volumes of passengers and have multiple points of 
entry. However, TSA officials stated to us that the screening processes 
used in TRIP may be useful on certain long-distance intercity train 
routes, which make fewer stops. Further, officials stated that 
screening could be used either randomly or for all passengers during 
certain high-risk events or in areas where a particular terrorist 
threat is known to exist. For example, screening technology similar to 
that used in TRIP was used by TSA to screen certain passengers and 
belongings in Boston and New York during the Democratic and Republican 
national conventions, respectively, in 2004.
    APTA officials and the 28 passenger rail operators we interviewed--
all who are not directly involved in the pilot--agreed with TSA's 
preliminary assessment. They told us they believed that the TRIP 
screening procedures could not work in most passenger rail systems, 
given the number of passengers using these systems and the open nature 
(e.g., multiple entry points) of the systems. For example, as one 
operator noted, over 1,600 people pass through dozens of access points 
in New York's Penn Station per minute during a typical rush hour, 
making screening of all passengers very challenging, if not impossible. 
Passenger rail operators were also concerned that screening delays 
could result in passengers opting to use other modes of transportation. 
APTA officials and some rail operators we interviewed said that had 
they been consulted by TSA, they would have recommended alternative 
technologies to explore and indicated that they hoped to be consulted 
on security technology pilot programs in the future. FRA officials 
further stated that TSA could have benefited from earlier and more 
frequent collaboration with them during the TRIP pilot than occurred, 
and could have tapped their expertise to analyze TRIP results and 
develop the final report. TSA research and development officials told 
us that the agency has begun to consider and test security technologies 
other than those used in TRIP, which may be more applicable to the 
passenger rail environment. For example, TSA's and DHS's Science and 
Technology Directorate are currently evaluating infrared cameras and 
electronic metal detectors, among other things.

DHS and DOT Are Taking Steps to Improve Coordination and Collaboration 
        With Federal Agencies and Industry Stakeholders
    In response to a previous recommendation we made in a June 2003 
report on transportation security, DHS and DOT signed a memorandum of 
understanding (MOU) to develop procedures by which the two departments 
could improve their cooperation and coordination for promoting the 
safe, secure, and efficient movement of people and goods throughout the 
transportation system. The MOU defines broad areas of responsibility 
for each department. For example, it states that DHS, in consultation 
with DOT and affected stakeholders, will identify, prioritize, and 
coordinate the protection of critical infrastructure. The MOU between 
DHS and DOT represents an overall framework for cooperation that is to 
be supplemented by additional signed agreements, or annexes, between 
the departments. These annexes are to delineate the specific security-
related roles, responsibilities, resources, and commitments for mass 
transit, rail, research and development, and other matters. The annex 
for mass transit security was signed in September 2005. \25\ According 
to DHS and DOT officials, this annex is intended to ensure that the 
programs and protocols for incorporating stakeholder feedback and 
making enhancements to security measures are coordinated. For example, 
the annex requires that DHS and DOT consult on such matters as 
regulations and security directives that affect security and identifies 
points of contact for coordinating this consultation.
    In addition to their work on the MOU and related annexes, DHS and 
TSA have taken other steps in an attempt to improve collaboration with 
DOT and industry stakeholders. In April 2005, DHS officials stated that 
better collaboration with DOT and industry stakeholders was needed to 
develop strategic security plans associated with various homeland 
security presidential directives and statutory mandates, such as the 
Intelligence Reform and Terrorism Prevention Act of 2004, which 
required DHS to develop a national strategy for transportation security 
in conjunction with DOT. Responding to the need for better 
collaboration, DHS established a senior-level steering committee in 
conjunction with DOT to coordinate development of this national 
strategy. In addition, senior DHS and TSA officials stated that 
industry groups will also be involved in developing the national 
strategy for transportation security and other strategic plans. 
Moreover, according to TSA's assistant administrator for intermodal 
programs, TSA intends to work with APTA and other industry stakeholders 
in developing security standards for the passenger rail industry. \26\

U.S. and Foreign Rail Operators Have Taken Similar Actions to Secure 
        Rail Systems, and Opportunities for Additional Domestic 
        Security Actions May Exist
    U.S. passenger rail operators have taken numerous actions to secure 
their rail systems since the terrorist attacks of September 11 in the 
United States, and the March 11, 2004, attacks in Madrid. These actions 
included both improvements to system operations and capital 
enhancements to a system's facilities, such as track, buildings, and 
train cars. All of the U.S. passenger rail operators we contacted have 
implemented some types of security measures--such as increased numbers 
and visibility of security personnel and customer awareness programs--
that were generally consistent with those we observed in select 
countries in Europe and Asia. We also identified three rail security 
practices--covert testing, random screening of passengers and their 
baggage, and centralized research and testing--utilized by foreign 
operators or their governments that are not currently utilized by 
domestic rail operators or the U.S. government. \27\

Actions Taken by U.S. and Foreign Passenger Rail Operators to 
        Strengthen Security Reflect Security Assessments, Budgetary 
        Constraints, and Other Factors
    All 32 of the U.S. rail operators we interviewed or visited 
reported taking specific actions to improve the security and safety of 
their rail systems by, among other things, investing in new security 
equipment, utilizing more law enforcement personnel, and establishing 
public awareness campaigns. Passenger rail operators we spoke with 
cited the 1995 sarin gas attacks on the Tokyo subway system and the 
September 11 terrorist attacks as catalysts for their security actions. 
After the attacks, many passenger rail operators used FTA's security 
readiness assessments of heavy and passenger rail systems as a guide to 
determine how to prioritize their security efforts, as well as their 
own understanding of their system's vulnerabilities, to determine what 
actions to take to enhance security. Similarly, as previously 
mentioned, the rail systems that underwent ODP risk assessments are 
currently using or plan to use these assessments to guide their 
security actions. In addition, 20 of the 32 U.S. operators we contacted 
or visited had conducted some type of security assessment internally or 
through a contractor, separate from the federally funded assessments. 
For example, some assessments evaluated vulnerabilities of physical 
assets, such as tunnels and bridges, throughout the passenger rail 
system. Passenger rail operators stated that security-related spending 
by rail operators was also based, in part, on budgetary considerations, 
as well as other practices used by other rail operators that were 
identified through direct contact or during industry association 
meetings. \28\ Passenger rail operators frequently made capital 
investments to improve security, and these investments often are not 
part of Federal funding packages for new construction unless they are 
part of new facilities being constructed. According to APTA, 54 percent 
of transit agencies are facing increasing deficits, and no operator 
covers expenses with fare revenue; thus, balancing operational and 
capital improvements with security-related investments has been an 
ongoing challenge for these operators. Several foreign rail operators 
we interviewed also stated that funding for security enhancements was 
limited in light of other funding priorities within the rail system, 
such as personnel costs and infrastructure and equipment maintenance.
    Foreign rail operators we visited also told us that risk 
assessments played an important role in guiding security-related 
spending for rail. For example, one foreign rail operator with a daily 
ridership of 2.3 million passengers used a risk management methodology 
to assess risks, threats, and vulnerabilities to rail in order to guide 
security spending. The methodology is part of the rail operator's 
corporate focus on overall safety and security and is intended to help 
protect the operator's various rail systems against, among other 
things, terrorist attacks, as well as other forms of corporate loss, 
such as service disruption and loss of business viability.
U.S. and Foreign Rail Operators Employ Similar Security Practices
    Both U.S. and foreign passenger rail operators we contacted have 
implemented similar improvements to enhance the security of their 
systems. \29\ A summary of these efforts follows.
    Customer awareness: Customer awareness programs we observed used 
signage and announcements to encourage riders to alert train staff if 
they observed suspicious packages, persons, or behavior. Of the 32 
domestic rail operators we interviewed, 30 had implemented a customer 
awareness program or made enhancements to an existing program. Foreign 
rail operators we visited also attempt to enhance customer awareness. 
For example, 11 of the 13 operators we interviewed had implemented a 
customer awareness program. Similar to programs of U.S. operators, 
these programs used signage, announcements, and brochures to inform 
passengers and employees about the need to remain vigilant and report 
any suspicious activities. Only one of the European passenger rail 
operators that we interviewed has not implemented a customer security 
awareness program, citing the fear or panic that it might cause among 
the public.
    Increased number and visibility of security personnel: Of the 32 
U.S. rail operators we interviewed, 23 had increased the number of 
security personnel they utilized since September 11 to provide security 
throughout their system or had taken steps to increase the visibility 
of their security personnel. In addition to adding security personnel, 
many operators stated that increasing the visibility of security was as 
important as increasing the number of personnel. For example, several 
U.S. and foreign rail operators we spoke with had instituted policies 
such as requiring their security staff, in brightly colored vests, to 
patrol trains or stations more frequently, so they are more visible to 
customers and potential terrorists or criminals. These policies make it 
easier for customers to contact security personnel in the event of an 
emergency, or if they have spotted a suspicious item or person. At 
foreign sites we visited, 10 of the 13 operators had increased the 
number of their security officers throughout their systems in recent 
years because of the perceived increase in risk of a terrorist attack.
    Increased use of canine teams: Of the 32 U.S. passenger rail 
operators we contacted, 21 had begun to use canine units, which include 
both dogs and human handlers, to patrol their facilities or trains or 
had increased their existing utilization of such teams. Often, these 
units are used to detect the presence of explosives, and may be called 
in when a suspicious package is detected. Some operators that did not 
maintain their own canine units stated that it was prohibitively 
expensive to do so and that they could call in local police canine 
units if necessary. In foreign countries we visited, passenger rail 
operators' use of canines varied. In some Asian countries, canines were 
not culturally accepted by the public and thus were not used for rail 
security purposes. As in the United States, and in contrast to Asia, 
most European passenger rail operators used canines for explosive 
detection or as deterrents.
    Employee training: All of the domestic and foreign rail operators 
we interviewed had provided some type of security training to their 
staff, either through in-house personnel or an external provider. In 
many cases, this training consisted of ways to identify suspicious 
items and persons and how to respond to events once they occur. For 
example, the London Underground and the British Transport Police 
developed the ``HOT'' method for its employees to identify suspicious 
items in the rail system. In the HOT method, employees are trained to 
look for packages or items that are Hidden, Obviously suspicious, and 
not Typical of the environment. Items that do not meet these criteria 
would likely receive a lower security response than an item meeting all 
of the criteria. However, if items meet all of these criteria, 
employees are to notify station managers, who would call in the 
authorities and potentially shut down the station or take other action. 
According to London Underground officials, the HOT method has 
significantly reduced the number of system disruptions caused when a 
suspicious item was identified. Several passenger rail operators in the 
United States and abroad have trained their employees in the HOT 
method. Several domestic operators had also trained their employees in 
how to respond to terrorist attacks and provided them with wallet-size 
cards highlighting actions they should take in response to various 
forms of attack. It is important to note that training such as the HOT 
method is not designed to prevent acts of terrorism like the July 2005 
London attacks, where suicide bombers killed themselves rather than 
leaving bombs behind.
    Passenger and baggage screening practices: Some domestic and 
foreign rail operators have trained employees to recognize suspicious 
behavior as a means of screening passengers. Eight U.S. passenger rail 
operators we contacted were utilizing some form of behavioral 
screening. For example, the Massachusetts Bay Transportation Authority 
(MBTA), which operates Boston's T system, has utilized a behavioral 
screening system to identify passengers exhibiting suspicious behavior. 
The Massachusetts State Police train all MBTA personnel to be on the 
lookout for behavior that may indicate someone has criminal intent, and 
to approach and search such persons and their baggage when appropriate. 
Massachusetts State Police officers have been training rail operators 
on this behavior profiling system, and WMATA and New Jersey Transit 
were among the first additional operators to implement the system. 
According to MBTA personnel, several other operators have expressed 
interest in this system. Abroad, we found that 4 of 13 operators we 
interviewed had implemented forms of behavioral screening similar to 
MBTA's system.
    All of the domestic and foreign rail operators we contacted have 
ruled out an airport-style screening system for daily use in heavy 
traffic, where each passenger and the passenger's baggage are screened 
by a magnetometer or X-ray machine, based on cost, staffing, and 
customer convenience factors, among others. For example, although the 
Spanish National Railway screens passenger baggage using an X-ray 
machine on certain long-distance trains that it believes could be at 
risk, all of the operators we contacted stated that the cost, staffing 
requirements, delay of service, and inconvenience to passengers would 
make such a system unworkable in highly trafficked, inherently open 
systems like U.S. and foreign passenger rail operations. In addition, 
one Asian rail official stated that his organization was developing a 
contingency plan for implementing an airport-style screening system, 
but that such a system would be used only in the event of intelligence 
information indicating suicide bomb attacks were imminent, or if 
several attacks had already occurred during a short period of time. 
According to this official, the plan was in the initial stages of 
development, and the organization did not know how quickly such a 
system could be implemented.
    Upgrading technology: Many rail operators we interviewed had 
embarked on programs designed to upgrade their existing security 
technology. For example, we found that 29 of the 32 U.S. operators had 
implemented a form of CCTV to monitor their stations, yards, or trains. 
While these cameras cannot be monitored closely at all times, because 
of the large number of staff they said this would require, many rail 
operators felt the cameras acted as a deterrent, assisted security 
personnel in determining how to respond to incidents that have already 
occurred, and could be monitored if an operator has received 
information that an incident may occur at a certain time or place in 
their system. One rail operator, New Jersey Transit, had installed 
``smart'' cameras, which were programmed to alert security personnel 
when suspicious activity occurred, such as if a passenger left a bag in 
a certain location or if a boat were to dock under a bridge. According 
to the New Jersey Transit officials, this technology was relatively 
inexpensive and not difficult to implement. Several other operators 
stated they were interested in exploring this technology. Abroad, all 
13 of the foreign rail operators we visited had CCTV systems in place. 
As in the United States, foreign rail operators use these cameras 
primarily as a crime deterrent and to respond to incidents after they 
occur, because they do not have enough staff to continuously monitor 
all of these cameras.
    In addition, 18 of the 32 U.S. rail operators we interviewed had 
installed new emergency phones or enhanced the visibility of the 
intercom systems they already had. Passengers can use these systems to 
contact train operators or security personnel to report suspicious 
activity, crimes in progress, or other problems. Furthermore, while 
most rail operators we spoke with had not installed chemical or 
biological agent detection equipment because of the costs involved, a 
few operators had this equipment or were exploring purchasing it. For 
example, WMATA, in Washington, D.C., has installed these sensors in 
some of its stations, thanks to a program jointly sponsored by DOT and 
the Department of Energy that provided this equipment to WMATA because 
of the high perceived likelihood of an attack in Washington, D.C. Also, 
at least three other domestic rail operators we spoke with are 
exploring the possibility of partnering with Federal agencies to 
install such equipment in their facilities on an experimental basis.
    Also, as in the United States, a few foreign operators had 
implemented chemical or biological detection devices at these rail 
stations, but their use was not widespread. Two of the 13 foreign 
operators we interviewed had implemented these sensors, and both were 
doing so on an experimental basis. In addition, police officers from 
the British Transport Police--responsible for policing the rail system 
in the United Kingdom--were equipped with pagers to detect chemical, 
biological, or radiological elements in the air, allowing them to 
respond quickly in case of a terrorist attack using one of these 
methods. The British Transit Police also has three vehicles carrying 
devices to determine if unattended baggage contains explosives--these 
vehicles patrol the system 24 hours per day.
    Access control: Tightening access procedures at key facilities or 
rights-of-way is another way many rail operators have attempted to 
enhance security. A majority of domestic and selected foreign passenger 
rail operators had invested in enhanced systems to control unauthorized 
access at employee facilities and stations. Specifically, 23 of the 32 
U.S. operators had installed a form of access control at key facilities 
and stations. This often involved installing a system where employees 
had to swipe an access card to gain access to control rooms, repair 
facilities, and other key locations. All 13 foreign operators had 
implemented some form of access control to their critical facilities or 
rights-of-way. These measures varied from simple alarms on doors at 
electrical substations on one subway system we visited to infrared 
sensors monitoring every inch of right-of-way along the track on three 
of the high-speed interurban rail systems.
    Rail system design and configuration: In an effort to reduce 
vulnerabilities to terrorist attack and increase overall security, 
passenger rail operators in the United States and abroad have been, or 
are now beginning to, incorporate security features into the design of 
new and existing rail infrastructure, primarily rail stations. For 
example, of the 32 domestic rail operators we contacted, 22 of them had 
removed their conventional trash bins entirely, or replaced them with 
transparent or bomb-resistant trash bins, as TSA instructed in its May 
2004 security directives. Foreign rail operators had taken steps to 
remove traditional trash bins from their systems. Of the 13 operators 
we visited, 8 had either removed their trash bins entirely or replaced 
them with blast-resistant cans or transparent receptacles.
    Many foreign rail operators are also incorporating aspects of 
security into the design of their rail infrastructure. Of the 13 
operators we visited, 11 have attempted to design new facilities with 
security in mind and have attempted to retrofit older facilities to 
incorporate security-related modifications. For example, one foreign 
operator we visited is retrofitting its train cars with windows that 
passengers could open in the event of a chemical attack. In addition, 
the London Underground, one of the oldest rail systems in the world, 
incorporates security into the design of all its new stations as well 
as when existing stations are modified. We observed several security 
features in the design of Underground stations, such as using vending 
machines that have no holes that someone could use to hide a bomb, and 
sloped tops to reduce the likelihood that a bomb can be placed on top 
of the machine. In addition, stations are designed to provide staff 
with clear lines of sight to all areas of the station, such as 
underneath benches or ticket machines, and station designers try to 
eliminate or restrict access to any recessed areas where a bomb could 
be hidden.
    In one London station, we observed the use of netting throughout 
the station to help prevent objects, such as bombs, from being placed 
in a recessed area, such as beneath a stairwell or escalator. In this 
station and other stations we visited, Underground officials have 
installed ``help posts'' at which customers can call for help if an 
incident occurs. When these posts are activated, CCTV cameras display a 
video image of the help post and surrounding area to staff at a central 
command center. This allows the staff to directly observe the situation 
and respond appropriately. See figure 5 for a photograph of a help 
post. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Underground officials stated that the incorporation of security 
features in station design is an effective measure in deterring some 
terrorists from attacking the system. For example, officials told us 
that CCTV video recorded the efforts by Irish Republican Army 
terrorists attempting to place an explosive device inside a station--
and when they could not find a suitable location to hide the device, 
they placed it outside in a trash can instead, thereby mitigating the 
impact of the explosion.
    In the United States, several passenger rail operators stated that 
they were taking security into account when designing new facilities or 
remodeling older ones. Twenty-two of 32 rail operators we interviewed 
told us that they were incorporating security into the design of new or 
existing rail infrastructure. For example, New York City Transit and 
PATH officials told us they are incorporating security into the design 
of its new stations, including the redesigned Fulton Street station and 
the World Trade Center Hub that were damaged or destroyed during the 
September 11 attacks. In addition, in June 2005, FTA issued guidelines 
for use by the transit industry encouraging the incorporation of 
particular security features into the design of transit infrastructure. 
These guidelines include, for example, increasing visibility for 
onboard staff, reducing the areas where someone could hide an explosive 
device on a transit vehicle, and enhancing emergency exits in transit 
stations.
    Figure 6 shows a diagram of several security measures that we 
observed in passenger rail stations both in the United States and 
abroad. It should be noted that this represents an amalgam of stations 
we visited, not any particular station. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Amtrak Faces Challenges Specific to Intercity Passenger Rail in 
        Securing Its System
    In securing its extensive system, Amtrak faces its own set of 
security-related challenges, some of which are different from those 
facing a commuter rail or transit operator. First, Amtrak operates over 
thousands of miles, often far from large population centers. This makes 
its route system much more difficult to patrol and monitor than one 
contained in a particular metropolitan region, and it causes delays in 
responding to incidents when they occur in remote areas. Also, outside 
the Northeast Corridor, Amtrak operates almost exclusively on tracks 
owned by freight rail companies. Amtrak also utilizes stations owned by 
freight rail companies, transit and commuter rail authorities, private 
corporations, and municipal governments. This means that Amtrak often 
cannot unilaterally make security improvements to others' rights-of-way 
or station facilities and that it is reliant on the staff of other 
organizations to patrol their facilities and respond to incidents that 
may occur. Furthermore, with over 500 stations, only half of which are 
staffed, screening even a small portion of the passengers and baggage 
boarding Amtrak trains is difficult. Last, Amtrak's financial condition 
has never been strong--Amtrak has been on the edge of bankruptcy 
several times.
    Amid the ongoing challenges of securing its coast-to-coast railway, 
Amtrak has taken some actions to enhance security throughout its 
intercity passenger rail system. For example, Amtrak has initiated a 
passenger awareness campaign, similar to those described elsewhere in 
this report. Also, Amtrak has begun enforcing existing restrictions on 
carry-on luggage that limit passengers to two carry-on bags, not 
exceeding 50 pounds. All bags also must have identification tags on 
them. Furthermore, Amtrak has begun requiring passengers to show 
positive identification after boarding trains when asked by staff to 
ensure that tickets have not been transferred or stolen, although 
Amtrak officials acknowledge their onboard staffs only sporadically 
enforce this requirement because of the numerous tasks these staff 
members must perform before a train departs. However, in November 2004, 
Amtrak implemented the Tactical Intensive Patrols (TIPS) program, under 
which its security staff flood selected platforms to ensure Amtrak 
baggage and identification requirements are met by passengers boarding 
trains. In addition, Amtrak increased the number of canine units 
patrolling its system, most of which are located in the Northeast 
Corridor, looking for explosives or narcotics and assigned some of its 
police to ride trains in the Northeast Corridor. Also, Amtrak has 
instituted a policy of randomly inspecting checked luggage on its 
trains. Finally, Amtrak is making improvements to the emergency exits 
in certain tunnels to make evacuating trains in the tunnels easier in 
the event of a crash or terrorist attack.
    To ensure that security measures are applied consistently 
throughout Amtrak's system, Amtrak has established a series of Security 
Coordinating Committees, which include representatives of all Amtrak 
departments. These committees are to review and establish security 
policies, in coordination with Amtrak's police department, and have 
worked to develop countermeasures to specific threats. According to 
Amtrak, in the aftermath of the July 2005 London bombings, these 
committees met with Amtrak police and security staff to ensure 
additional security measures were implemented. Also in the wake of the 
London attacks, Amtrak began working with the police forces of several 
large east coast cities, allowing them to patrol Amtrak stations to 
provide extra security. In addition, all Amtrak employees now receive a 
``Daily Security Awareness Tip'' and are receiving computer-based 
security training. Amtrak police officers are also now receiving 
specialized counter-terrorism training.
    While Amtrak has taken the actions outlined above, it is difficult 
to determine if these actions appropriately or sufficiently addressed 
pressing security needs. As discussed earlier, Amtrak has not performed 
a comprehensive terrorism risk assessment that would provide an 
empirical baseline for investment prioritization and decision making 
for Amtrak's security policies and investment plans. However, as part 
of the 2005 Intercity Passenger Rail Grant Program, Amtrak is required 
to produce a security and emergency preparedness plan, which is to 
include a risk assessment that Amtrak currently expects to finish by 
December 31, 2005. Upon completing this plan, Amtrak management should 
have a more informed basis regarding which security enhancements should 
receive the highest priority for implementation.

Three Foreign Rail Security Practices Are Not Currently Used in the 
        United States
    While many of the security practices we observed in foreign rail 
systems are similar to those U.S. passenger rail operators are 
implementing, we encountered three practices in other countries that 
were not currently in use among the domestic passenger rail operators 
we contacted as of June 2005, nor were they performed by the U.S. 
Government. These practices are discussed below.
    Covert testing: Two of the 13 foreign rail systems we visited 
utilize covert testing to keep employees alert about their security 
responsibilities. Covert testing involves security staff staging 
unannounced events to test the response of railroad staff to incidents 
such as suspicious packages or setting off alarms. In one European 
system, this covert testing involves security staff placing suspicious 
items throughout their system to see how long it takes operating staff 
to respond to the item. Similarly, one Asian rail operator's security 
staff will break security seals on fire extinguishers and open alarmed 
emergency doors randomly to see how long it takes staff to respond. 
Officials of these operators stated that these tests are carried out on 
a daily basis and are beneficial because their staff know they could be 
tested at any moment, and they, therefore, are more likely to be 
vigilant with respect to security.
    Random screening: Of the 13 foreign operators we interviewed, 2 
have some form of random screening of passengers and their baggage in 
place. In the systems where this is in place, security personnel can 
approach passengers either in stations or on the trains and ask them to 
submit their persons or their baggage to a search. Passengers declining 
to cooperate must leave the system. For example, in Singapore, rail 
agency officials rotate the stations where they conduct random searches 
so that the searches are carried out at a different station each day. 
Prior to the July 2005 London bombings, no passenger rail operators in 
the United States were practicing a form of random passenger or baggage 
screening on a continuing daily basis. However, during the Democratic 
National Convention in 2004, MBTA instituted a system of random 
screening of passengers, where every 11th passenger at certain stations 
and times of the day was asked to provide his or her bags to be 
screened. Those who refused were not allowed to ride the system. MBTA 
officials recognized that it is impossible to implement such a system 
comprehensively throughout the rail network without massive amounts of 
additional staff, and that even doing random screening on a regular 
basis would be a drain on resources. However, officials stated that 
such a system is workable during special events and times of heightened 
security but would have to be designed very carefully to ensure that 
passengers' civil liberties were not violated. After the July 2005 
London bombings, four passenger rail operators--PATH, New York 
Metropolitan Transportation Authority, New Jersey Transit, and Utah 
Transit Authority in Salt Lake City--implemented limited forms of 
random bag screening in their system. In addition, APTA, FTA, and the 
National Academy of Science's Transportation Research Board are 
currently conducting a study on the benefits and challenges that 
passenger rail operators would face in implementing a randomized 
passenger screening system. The study is examining such issues as the 
legal basis for conducting passenger screening or search, the 
precedence for such measures in the transportation environment, the 
human resources required, and the financial implications and cost 
considerations involved.
    National government maintains clearinghouse on technologies and 
best practices: According to passenger rail operators in five countries 
we visited, their national governments have centralized the process for 
performing research and developing passenger rail security technologies 
and maintaining a clearinghouse on these technologies and security best 
practices. According to these officials, this allows rail operators to 
have one central source for information on the merits of a particular 
passenger rail security technology, such as chemical sensors, CCTVs, 
and intrusion detection devices. Some U.S. rail operators we 
interviewed expressed interest in there being a more active centralized 
Federal research and development authority in the United States to 
evaluate and certify passenger rail security technologies and make that 
information available to rail operators. Although TSA is the primary 
Federal agency responsible for conducting transportation security 
research and development, and has conducted the TRIP as previously 
mentioned, most of the agency's research and development efforts to 
date have focused on aviation security technologies. As a result, 
domestic rail operators told us that they rely on consultations with 
industry trade associations, such as APTA, to learn about best 
practices for passenger rail security technologies and related 
investments. Several rail operators stated that they were often unsure 
of where to turn when seeking information on security-related products, 
such as CCTV cameras or intrusion detection systems. Currently, many 
operators said they informally ask other rail operators about their 
experiences with a certain technology, perform their own research via 
the Internet or trade publications, or perform their own testing.
    No Federal agency has compiled or disseminated best practices to 
rail operators to aid in this process. We have previously reported that 
stakeholders have stated that the Federal Government should play a 
greater role in testing transportation security technology and making 
this information available to industry stakeholders. \30\ TSA and DOT 
agree that making the results of research testing available to industry 
stakeholders could be a valuable use of Federal resources by reducing 
the need for multiple rail operators to perform the same research and 
development efforts, but they have not taken action to address this. 
\31\
    Implementing these three practices--covert testing, random 
screening, and a government-sponsored clearinghouse for technologies 
and best practices--in the United States could pose political, legal, 
fiscal, and cultural challenges because of the differences between the 
United States and these foreign nations. For instance, many foreign 
nations have dealt with terrorist attacks on their public 
transportation systems for decades, compared with the United States, 
where rail transportation has not been specifically targeted during 
terrorist attacks. According to foreign rail operators, these 
experiences have resulted in greater acceptance of certain security 
practices, such as random searches, which the U.S. public may view as a 
violation of their civil liberties or which may discourage them from 
using public transportation. The impact of security measures on 
passengers is an important consideration for domestic rail transit 
operators, since most passengers could choose another means of 
transportation, such as a personal automobile. As such, security 
measures that limit accessibility, cause delays, increase fares, or 
otherwise cause inconvenience could push people away from transit and 
into their cars. In contrast, the citizens of the European and Asian 
countries we visited are more dependent on public transportation than 
most U.S. residents and therefore, according to the rail operators we 
spoke with, may be more willing to accept more intrusive security 
measures, simply because they have no other choice for getting from 
place to place. Nevertheless, in order to identify innovative security 
measures that could help further mitigate terrorism-related risk to 
rail assets--especially as part of a broader risk management approach 
discussed earlier--it is important to at least consider assessing the 
feasibility and costs and benefits of implementing the three rail 
security practices we identified in foreign countries in the United 
States. Officials from DHS, DOT, passenger rail industry associations, 
and rail systems we interviewed told us that operators would benefit 
from such an evaluation. Furthermore, the passenger rail association 
officials told us that such an evaluation should include practices used 
by foreign rail operators that integrate security into infrastructure 
design.
    Differences in the business models and financial status of some 
foreign rail operators could also affect the feasibility of adopting 
certain security practices in the United States. Several foreign 
countries we visited have privatized their passenger rail operations. 
Although most of the foreign rail operators we visited--even the 
privatized systems--rely on their governments for some type of 
financial assistance, two foreign rail operators generated significant 
revenue and profits in other business endeavors, which they said 
allowed them to invest heavily in security measures for their rail 
systems. In particular, the Paris Metro system is operated by the RATP 
Corporation (Regie Autonome des Transports Parisiens), which also 
contracts with other cities in France and throughout the world to 
provide consulting and project management services. RATP 's ability to 
make a profit, according to its officials, through its consulting 
services allows the agency to supplement government funding in order to 
support expensive security measures for the Paris mass transit system. 
For example, RATP recently installed a computer-assisted security 
control system that uses CCTV, radio, and global positioning technology 
that it says has significantly reduced the amount of time it takes for 
security or emergency personnel to respond to an incident or emergency, 
such as a terrorist attack. Because of RATP 's available funding for 
security, the corporation also purchased an identical system for the 
Metropolitan Paris Police, so the RATP and the police system would be 
compatible. In contrast, domestic rail operators do not generate a 
profit and therefore are dependent on financial assistance from the 
Federal, State, and local levels of government to maintain and enhance 
services, including funding security improvements.
    Another important difference between domestic and foreign rail 
operators is the structure of their police forces. In particular, 
England, France, Belgium, and Spain all have national police forces 
patrolling rail systems in these countries. The use of a national 
police force is a reflection that these foreign countries often have 
one nationalized rail system, rather than over 30 rail transit systems 
owned and operated by numerous state and local governments, as is the 
case in the United States. For example, in France, the French National 
Railway operates all intercity passenger rail services in the country 
and utilizes the French Railway police to provide security. According 
to foreign rail operators, the use of one national rail police force 
allows for consistent policing and security measures throughout the 
country. In the United States, in contrast, there is not a national 
police force for the rail transit systems. \32\ Rather, some transit 
agencies maintain individual police forces, while others rely on their 
city or county police forces for security.

Conclusions
    In conclusion, Mr. Chairman, we are encouraged by the steps DHS 
components have taken to use elements of a risk management approach to 
guide critical infrastructure protection decisions for the passenger 
rail industry. However, enhanced Federal leadership is needed to help 
ensure that actions and investments designed to enhance security are 
properly focused and prioritized, so that finite resources may be 
allocated appropriately to help protect all modes of transportation and 
secure other national critical infrastructure sectors. Leadership on 
this issue should reflect the shared responsibilities required to 
coordinate actions on the part of Federal, State, and local 
governments; the private sector; and rail passengers who ride these 
systems.
    Specifically, both DHS and TSA could take additional steps to help 
ensure that the risk management efforts under way clearly and 
effectively identify priority areas for security-related investments in 
rail and other sectors. We recognize that TSA has had many aviation 
security-related responsibilities and has implemented many security 
initiatives to meet legislative requirements. Notwithstanding, TSA has 
not yet completed its methodology for determining how the results of 
threat, criticality, and vulnerability assessments will be used to 
identify and prioritize risks to passenger rail and other 
transportation sectors. In order to complete and apply its methodology 
as part of the forthcoming transportation sector-specific plan, TSA 
needs to more consistently involve industry stakeholders in the overall 
risk assessment process and collaborate with them on collecting and 
analyzing information on critical infrastructure and key resources in 
the passenger rail industry. Without consistent and substantive 
stakeholder input, TSA may not be able to fully capture critical 
information on rail assets--information that is needed to properly 
assess risk. In addition, as part of the process to complete its risk 
assessment methodology, TSA needs to consider whether other proven 
approaches, such as ODP's risk assessment methodology, could be 
leveraged for rail and other transportation modes, such as aviation. 
Until the overall risk to the entire transportation sector is 
identified, TSA will not be able to fully benefit from the outcome of 
risk management analysis--including determining where and how to target 
the Nation's limited resources to achieve the greatest security gains.
    Once risk assessments for the passenger rail industry have been 
completed, it will be critical to be able to compare assessment results 
across all transportation modes as well as other critical sectors and 
make informed, risk-based investment trade-offs. The framework that DHS 
is developing to help ensure that risks to all sectors can be analyzed 
and compared in a consistent way needs to be completed and shared with 
TSA and other sector-specific agencies. The delay in completing the 
element of the framework that defines concepts, terminology, and 
metrics for assessing risk limits DHS's ability to compare risk across 
sectors as sector-specific agencies are concurrently conducting risk 
assessment activities without this guidance. Until this framework is 
complete, it will not be possible for information from different 
sectors to be reconciled to allow for a meaningful comparison of risk--
a goal outlined in DHS's interim NIPP.
    Apart from its efforts to formally identify risks, TSA has taken 
steps to enhance the security of the overall passenger rail system. The 
issuance of security directives in the wake of the Madrid bombings was 
a well-intentioned effort to take swift action in response to a current 
threat. However, because these directives were issued under emergency 
circumstances, with limited input and review by rail industry and 
Federal stakeholders--and no public comment period--they may not 
provide the industry with baseline security standards based on industry 
best practices. Nor is it clear how these directives are to be measured 
and enforced. Consequently, neither the Federal Government nor rail 
operators can be sure they are requiring and implementing security 
practices proven to help prevent or mitigate disasters. Collaborating 
with rail industry stakeholders to develop security standards is an 
important starting point for strengthening the security of passenger 
rail systems.
    While foreign passenger rail operators face similar challenges to 
securing their systems and have generally implemented similar security 
practices as U.S. rail operators, there are some practices that are 
utilized abroad that U.S. rail operators or the Federal Government have 
not studied in terms of the feasibility, costs, and benefits. For 
example, an information clearinghouse for new passenger rail 
technologies that are available and have been tested might allow rail 
operators to efficiently implement technologies that had already 
received approval. In addition, while FTA plans to require rail 
operators to consider its security infrastructure design guidelines 
when renovating or constructing rail systems or facilities, 
opportunities may still exist to further research and evaluate ways of 
integrating security into design, as some foreign rail operators have 
done. Another rail security practice--covert testing of rail security 
procedures--is being used in two foreign rail systems we visited and is 
considered by them as an effective means of keeping rail employees 
alert to their surroundings and potential security threats. And 
finally, random searches of passengers and baggage are being used by 
two foreign rail operators and this practice has recently been adopted 
by four domestic rail operators in the wake of the London attacks.
    Introducing these security practices into the United States may 
involve cultural, financial, and political challenges, owing to 
differences between the United States and foreign nations. Nonetheless, 
as part of the overall risk management approach, there may be 
compelling reasons for exploring the feasibility, costs, and benefits 
of implementing any of these practices in the United States. Doing so 
could enable the United States to leverage the experiences and 
knowledge of foreign passenger rail operators and help identify 
additional innovative measures to secure rail systems against terrorist 
attack in this country.
    In our recently issued report on passenger rail security, we 
recommended, among other things, that to help ensure that the Federal 
Government has the information it needs to prioritize passenger rail 
assets based on risk, and in order to evaluate, select, and implement 
commensurate measures to help the Nation's passenger rail operators 
protect their systems against acts of terrorism, TSA should establish a 
plan with timelines for completing its methodology for conducting risk 
assessments and develop security standards that reflect industry best 
practices and can be measured and enforced, by using the Federal rule-
making process. In addition, we recommended that the Secretary of DHS, 
in collaboration with DOT and the passenger rail industry, determine 
the feasibility, in a risk management context, of implementing certain 
security practices used by foreign rail operators. DHS, DOT, and Amtrak 
generally agreed with the report's recommendations.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions that you or other Members of the Committee may 
have at this time.

ENDNOTES
    \1\ Pub. L. No. 108-458, 118 Stat. 3638.
    \2\ GAO, Passenger Rail Security: Enhanced Federal Leadership 
Needed to Prioritize and Guide Security Efforts, GAO-05-851 
(Washington, D.C.: Sept. 9, 2005).
    \3\ The American Public Transportation Association compiled this 
Fiscal Year 2003 ridership data from FTA's National Transit Database. 
These are the most current data available. Rail transit systems in the 
District of Columbia and Puerto Rico are included in these statistics.
    \4\ The Alaska Railroad Corporation also operates intercity 
passenger rail service.
    \5\ Pub. L. No. 107-71, 115 Stat. 597 (2001).
    \6\ Pub. L. No. 107-296, 116 Stat. 2135 (2002).
    \7\ The Department of Justice established ODP in 1998 within the 
Office of Justice Programs. ODP was subsequently transferred to DHS's 
Directorate of Border and Transportation Security upon DHS's creation 
in March 2003 (Homeland Security Act of 2002, section 403(5), 6 U.S.C. 
203(5)). In March 2004, the Secretary of Homeland Security consolidated 
ODP with the Office of State and Local Government Coordination to form 
the Office of State and Local Government Coordination and Preparedness 
(SLGCP). SLGCP, which reports directly to the DHS Secretary, was 
created to provide a ``one-stop shop'' for the numerous Federal 
preparedness initiatives applicable to state and local governments.
    \8\ At the time of our review, DHS was undertaking a department-
wide reorganization that will affect both the structure and the 
functions of DHS directorates and component agencies.
    \9\ Pub. L. No. 108-334, 118 Stat. 1298 (2004).
    \10\ FRA administers and enforces the Federal laws and related 
regulations that are designed to promote safety on railroads, such as 
track maintenance, inspection standards, equipment standards, and 
operating practices. FRA exercises jurisdiction over all areas of 
railroad safety under 49 U.S.C. 20103.
    \11\ Pub. L. No. 108-458, 118 Stat. 3638.
    \12\ GAO, Transportation Security: Systematic Planning Needed to 
Optimize Resources, GAO-05-357T (Washington, D.C.: Feb. 15, 2005); 
Homeland Security: A Risk Management Approach Can Guide Preparedness 
Efforts, GAO-02-208T (Washington, D.C.: Oct. 31, 2001); and Combating 
Terrorism: Threat and Risk Assessments Can Help Prioritize and Target 
Program Investments, GAO/NSIAD-98-74 (Washington, D.C.: April 9, 1998).
    \13\ Sector-specific agencies have been designated for the 
following sectors: transportation; agriculture and food; public health 
and health care; drinking water and wastewater treatment; energy; 
banking and finance; national monuments and icons; defense industrial 
base; information technology; telecommunications; chemical; emergency 
services; postal and package shipping; dams; government facilities; 
commercial facilities; and nuclear reactors, materials, and waste.
    \14\ The transportation sector includes mass transit; aviation; 
maritime; ground/surface; and rail and pipeline systems.
    \15\ ODP has completed risk assessments with the Port Authority of 
New York and New Jersey, New Jersey Transit, Massachusetts Bay 
Transportation Authority, Washington Metropolitan Area Transit 
Authority, Southeastern Pennsylvania Transportation Authority, Tri-
County Metropolitan Transportation District of Oregon, and the Delaware 
River Port Authority.
    \16\ PANYNJ is a bi-state public agency that manages and maintains 
bridges, tunnels, bus terminals, airports, the PATH passenger rail 
system, and seaports in the greater New York/New Jersey metropolitan 
area. PANYNJ was also the property owner and operator of the World 
Trade Center site and the PATH passenger rail station underneath the 
site that was destroyed by the September 11 terrorist attacks. At the 
request of PANYNJ, ODP's technical assistance team worked with 
authority personnel to conduct the first risk assessment using ODP's 
model. This collaborative effort provided the means for ODP to test and 
refine its methodology and develop the tool kit now in use.
    \17\ The Association of American Railroads is an association 
representing the interests of the rail industry, focused mostly at the 
Federal level. Its members are primarily freight rail operators in the 
United States, Canada, and Mexico. However, it also represents some 
passenger rail interests, including Amtrak.
    \18\ The American Public Transportation Association is a nonprofit 
trade association representing over 1,500 public and private member 
organizations, including transit systems and commuter rail operators; 
planning, design, construction, and finance firms; product and service 
providers; academic institutions; transit associations; and state 
departments of transportation.
    \19\ Up to 30 percent of the available funds will be available to 
assist Amtrak in meeting its most pressing security needs in the 
Northeast Corridor and Chicago (as identified through previously 
conducted site-specific assessments) prior to completion of the risk 
assessment. However, the remainder of the grant funds will not be 
released until Amtrak has completed the risk assessment and also 
submitted a security and emergency preparedness plan. Amtrak is also 
required to demonstrate that its planning process and allocations of 
funds are fully coordinated with regional planning efforts in the 
National Capitol Region, Philadelphia, New York, Boston, and Chicago. 
Amtrak is using approximately $700,000 of the grant funds for the ODP 
risk assessment.
    \20\ The results of TSA's passenger and freight rail threat 
assessments contain information that is security sensitive or 
classified and therefore cannot be disclosed in this testimony.
    \21\ DHS refers to this framework as a Risk Analysis and Management 
for Critical Asset Protection.
    \22\ According to TSA, in issuing the passenger rail and mass 
transit security directives, TSA exercised its authorities under 49 
U.S.C. 114. We are currently examining whether TSA met all relevant 
legal requirements in the promulgation of the directives.
    \23\ 49 CFR 238.235.
    \24\ These positions were funded through the DHS Appropriations Act 
of 2005 and its accompanying conference report, which provided TSA with 
$12 million in funding for rail security activities.
    \25\ Congress required that an annex to the MOU be signed that 
would, among other things, define and clarify the respective transit 
security roles and responsibilities of each department. Pub. L. 109-59, 
Sec. 3028 (2005).
    \26\ APTA is a standards development organization recognized by DOT 
that has set standards for commuter rail, mass transit, and bus safety 
and operations.
    \27\ At the time we completed our work in June 2005, these three 
practices were not utilized. However, as discussed later in this 
report, some rail operators began using random screening in the 
aftermath of the July bomb attacks on the London subway system.
    \28\ As we have previously reported, since the mid-1990s, Federal 
funding for transit and commuter rail operators has generally been 
limited to assistance with capital projects involving building new 
transit service, extensions of existing lines, or rehabilitation of 
existing transit infrastructure, such as tracks, rolling stock, or 
stations. See GAO-03-263.
    \29\ Actions taken by Amtrak to enhance security are discussed 
later in this testimony.
    \30\ GAO-03-843.
    \31\ See GAO-03-843.
    \32\ Unlike domestic rail transit agencies, Amtrak maintains a 342-
member police force for its national network.

    The Chairman. Thank you very much. Senator McCain, do you 
have an opening statement or questions?
    Senator McCain. I follow you, Mr. Chairman. After you, sir.
    The Chairman. All right, let me just put it this way to all 
of you. We sought to assure that we would have jurisdiction 
over TSA, rail security and other aspects in this Committee 
because of the existence of the authorities that Mr. Boardman 
has just mentioned concerning FRA and existing systems prior to 
the reorganizations that brought about TSA. But it appears that 
we are still going along two roads. You talk about 
coordination, but what about consolidation? It seems to me that 
this is going to be extremely confusing to everybody in the 
railroad industry if we don't find one way to deal with this. 
Now, the solution of the 9/11 Commission was to just wipe out 
FRA as far as security is concerned and our solution was to try 
and bring it together so that we'd have a comprehensive system 
for improving rail security but not have duplicated functions 
that require coordination.
    Now, how are we going to get it together? And Mr. Hawley, 
notwithstanding what Ms. Berrick said--I thought that was kind 
of complimentary that you are trying to work on risk assessment 
but you haven't accomplished anything yet. When can we expect 
that risk assessment and when can we expect a plan to put 
together the system so that there's one coherent system for 
safety on our railroads?
    Mr. Hawley. Yes, sir. On the risk management approach, we 
use that today. I think what we are referring to there, are 
specific major models that are very complex that are useful but 
are not really the operational drivers in terms of a flexible 
risk and a flexible network. So we use absolutely the risk-
based approach on a daily basis on operational matters as well 
as we devote our investment resources.
    The Chairman. If you are doing that every day what's Mr. 
Boardman doing? He says they're in charge.
    Mr. Hawley. Well, Mr. Boardman is in charge of safety and 
we have a very good working relationship that I think, that the 
report that Ms. Berrick referred to is highly instructive, 
highly useful, and as I was preparing for my confirmation 
before this Committee, I had the opportunity to review it and 
the comments there about single point of contact, being 
connected, one voice from the Federal Government to the 
industry or the transit community is one that we whole-
heartedly adopt. And, in fact, Secretary Chertoff recently 
approved a reorganization of the entire agency to enable us to 
speak with one voice to these communities.
    The Chairman. What agency? Your agency?
    Mr. Hawley. Yes, sir, TSA. And to plug into FRA on a daily 
basis and build institutional connections among us so it 
doesn't depend on a good relationship among administrators, but 
the actual work process of the two agencies take advantage, 
certainly from our point of view, of the expertise that the FRA 
has and expect that the good working relationship that we've 
had to this point will continue to evolve to be even better 
coordinated and reflected in the work process.
    The Chairman. Mr. Boardman, what do you say?
    Mr. Boardman. I think that, Mr. Chairman, I do think FRA 
and TSA, especially since Mr. Hawley has come onboard, have 
been able to work in a very hand-in-glove fashion, especially 
with their inspectors out in the field today. I think there is 
a difference between safety and security in a couple of ways. 
Safety in terms of thinking about it, it's really being certain 
that adverse effects will not be caused by some agent under 
defined conditions. In other words, when the FRA puts its 
standards and its activity together there are some risks, and 
terrorism against the passenger train is beyond the conditions 
that FRA really considered when it set those standards in the 
past. One of the difficulties, I think, with security has been 
that it's not only being free from danger and injury, it's also 
being free from anxiety and fear. And, I think that there is a 
need for us to work together as a Federal Government to find a 
way to find those conditions, those adverse effects that we 
can't establish in terms of a process or effective conditions 
that, as I think Mr. Hawley talked about, that keep terrorists 
off balance in terms of how we look at this thing for the 
future. I think that we have an important role in the FRA in 
security because we benefit security because we don't 
differentiate what that agent is that causes a catastrophic 
event. It could be a broken rail from a joint fracture, it 
could be vandals, it could be something more sinister, but 
there are those risks that are beyond that and we want to work 
with DHS to resolve that.
    The Chairman. John?

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman. Along the lines of 
what the Chairman was just asking, tell me Mr. Hawley and Mr. 
Boardman, who is in charge?
    Mr. Hawley. For security, TSA is in charge and for safety 
it's FRA. It is very similar with FAA and TSA. So, it's a 
similar pattern that we have throughout the transportation 
sector.
    Senator McCain. Ms. Berrick, does that seem workable to 
you?
    Ms. Berrick. I think it is today. About a year ago we did 
some work and talked to rail operators. They felt that the role 
between FRA and TSA wasn't always very clear to them. One of 
the recommendations we made coming out of that work was that 
the Department of Transportation and the Department of Homeland 
Security establish a Memorandum of Understanding, clearly 
delineating roles and responsibilities and they did that about 
a year ago. And recently, last month they signed a Transit 
Security Annex to that MOU which I think further delineates 
roles and responsibilities.
    So I think they've gone a long way and are being more clear 
on who's responsible for rail security.
    Senator McCain. Well, apparently, it's not clear to the 
Association of American Railroads because they submit testimony 
that they will present that says TSA and FRA should clarify 
which agency has ultimate responsibility for which aspects of 
rail safety and security. Today, the allocation of 
responsibilities is not always clear, so the people that they 
are serving are not that clear, at least according to Mr. 
Hamberger's testimony.
    Ms. Berrick, are we devoting sufficient funds to rail 
security today? My information is, this year's Homeland 
Security Appropriations bill appropriated $150 million for 
intercity passenger rail transportation, freight rail and 
transit security grants. Senator Lieberman, recently noted that 
while the government has spent about $15 billion in aviation 
securities since September 11th, about $300 million has been 
spent on mass transit security. Does this seem a little unequal 
particularly in light of the Madrid attacks and other threats 
to rail security both in America and overseas?
    Ms. Berrick. I think if you look at TSA's budget which is 
about $3.9 billion and within TSA, in addition to the $150 
million at the DHS level, within TSA there is $8 million that's 
devoted to higher additional rail inspectors this year. So I 
think, if you just look at the budget, that certainly raises 
questions about whether or not that's an appropriate amount. I 
don't think that anybody can really answer the question right 
now, What is the appropriate amount to devote to rail security? 
Just because the risk assessment----
    Senator McCain. I'm not asking for an appropriate amount, 
I'm asking if whether we are spending enough?
    Ms. Berrick. Yes, I would say that you can't answer that 
question right now. I don't know the answer because DHS hasn't 
completed these risk assessment efforts to identify where the 
vulnerabilities are that need to be fixed. And I think, until 
they do that in any systematic way, it really can't be 
estimated what they need.
    Senator McCain. Well, in all due respect, Mr. Hawley, the 
year is 2005 and we still haven't made an assessment yet?
    Mr. Hawley. No, sir, we have and it gets to the question of 
protecting infrastructure which is different. Which is a solid 
definable place geographically with defining a flexible 
transportation network where in the New York City Transit 
System alone, I'm sure if you know this, four and a half 
million passengers a day going in and out of 400 and some----
    Senator McCain. And it still remains a question of the 
security of the tunnels as well.
    Mr. Hawley. Well, it's almost certainly a piece of that but 
we have taken the whole network of transportation and all the 
modes because it is an open system. It is vulnerable and as you 
know, the targeting can be flexible and adaptive. So, if we 
were publishing a list of the top 100 things in priority that 
we're allocating our resources to, that is too simple a guide 
to give to somebody else and I think we go back to the person 
connecting the dots on CBP, and ICE, and FBI to find the 
person, before the attack is in progress against a particular 
transit system or aviation target.
    Senator McCain. What are your priorities without comprising 
security?
    Mr. Hawley. Sure, it is absolutely to do what is possible 
to identify the terrorist in advance which can be done and how 
you do that specifically is with connecting the information 
systems that we have within DHS, the Customs and Border 
Protection as well as us and ICE and FBI and the reporting we 
get from industries, suspicious incidents.
    Senator McCain. I need to rephrase my question, without 
compromising security, what are your highest priorities for 
defending?
    Mr. Hawley. For the, essentially aviation would be the 
highest priority.
    Senator McCain. As far as rail security is concerned.
    Mr. Hawley. For rail security it gets to first, 
establishing that unlike aviation which is operated by the 
Federal Government, rail is operated by either transit systems 
or railroads and to first establish what they are doing. Then, 
if what they are doing makes sense and then are they doing what 
they say they are doing? All of those things have----
    Senator McCain. I'm still asking what your priorities are. 
Is it the tunnels, is it New York City, is it New Mexico? I'm 
asking which areas need to be addressed first. You have to 
prioritize. I remember right after 2001, one of the highest 
priorities that was given to this Committee were the tunnels 
that connect on the eastern corridors.
    Mr. Hawley. Yes.
    Senator McCain. So.
    Mr. Hawley. We are very focused on tunnels in New York and 
elsewhere and look at things that would be effective against 
tunnels wherever they are but clearly, the New York City area 
is very visible as is the D.C. Metro area in the northeast 
corridor there. There are priorities within that but the----
    Senator McCain. I'm sorry to interrupt, Mr. Hawley. But, 
it's hard for us to recommend authorization and appropriations 
in a prioritized fashion since clearly, we can't fund 
everything until we get your priorities.
    Mr. Hawley. Yes.
    Senator McCain. Do you see my point?
    Mr. Hawley. Yes, yes, sir, and the way the President's 
budget is put together, puts a lot of, now the decisionmaking 
at the state and local level where they can make the operation 
tradeoffs as to----
    Senator McCain. And that assumes then that they don't want 
any Federal money. I'm saying is, if it's Federal dollars we 
have to know what the Federal priority is.
    Mr. Hawley. Yes.
    Senator McCain. If they, if local authorities want to set 
their priorities and fund them, that's fine with us. OK? I'm 
still having trouble getting your priorities which would then 
help us, as we go through the authorizing and appropriating 
process.
    Mr. Hawley. Sure, OK, information, communication, training, 
drilling, preparedness----
    Senator McCain. I'm talking about areas that need specific 
priorities. I understand that education and training and 
communication are very important. That's why we are about to 
have a big fight over allocation of spectrum.
    Mr. Hawley. Yes, sir, so you want the geography or the part 
of the train system or----
    Senator McCain. Is it New York tunnels? Is it the West 
Coast rail network? Is it the Union Station here? I just think 
we need to know some priorities if we are going to earmark 
specific funds for specific purposes.
    Mr. Hawley. Yes, sir.
    Senator McCain. We're just going to give you a whole bunch 
of money and say spend it however you want, then it doesn't 
matter. But I don't think we are going to do that.
    Mr. Hawley. No, sir. But the flexibility and adaptability 
of the resources we have is critical. So, for instance, we have 
resources like canine teams, that we have on a mobile basis so 
that in a situation where----
    Senator McCain. Is that your highest priority?
    Mr. Hawley. It's not my highest priority.
    Senator McCain. Well, that's what I keep asking, Mr. 
Hawley.
    Mr. Hawley. OK, it is, it's the flexible resources to be 
able to----
    Senator McCain. All right, Mr. Hawley then I will submit on 
the floor an amendment for flexible resources. I'm sorry that 
you aren't more forthcoming. Mr. Chairman, I know there are 
other witnesses. You are very unforthcoming, Mr. Hawley and I 
am very disappointed.
    The Chairman. Well, let me follow on to what Senator McCain 
has discussed, we also oversee airline transportation and 
airline transportation has been funded as far as security 
concepts are concerned primarily by increased taxes on 
passengers. I have not seen any recommendation from anyone that 
the people who use rail transportation should pay a portion of 
the cost of providing their own security. Have you examined 
this? Any one of you examine why it is that we can't ask the 
rail passenger to pay as the airline passenger pays for at 
least part of the security we are trying to provide?
    Mr. Hawley. Yes, it's done. That's where the money comes 
out of the local level and part of the fare box goes to 
programs from the local level that affect security.
    The Chairman. Have you recommended any increase in cost to 
the passengers for rail security?
    Mr. Hawley. No, sir.
    The Chairman. Have you, Mr. Boardman?
    Mr. Boardman. No, Mr. Chairman. I wouldn't recommend that.
    The Chairman. Why?
    Mr. Boardman. Most transit systems in operation today don't 
cover their operating costs. Most of them in rural areas cover 
as much as maybe 30 or 40 percent of their costs. When you're 
in New York City itself, you might be as high as 70 percent of 
its costs. So today----
    The Chairman. That's looking at it the wrong way. Do you 
know what gasoline costs today post-9/11?
    Mr. Boardman. Yes, sir.
    The Chairman. The people who are driving cars, the people 
who are flying are all paying increased costs. Why is it that 
railroad passengers are such preferred characters that they 
can't pay a portion of these costs? Everyone seems to be 
turning to the Federal Government for the total support of the 
security system for rail.
    Mr. Boardman. I understand sir.
    The Chairman. Why?
    Mr. Boardman. I think that all transit systems today 
receive Federal assistance and they do that because they lose 
money.
    The Chairman. Well, almost every airline in the country is 
in bankruptcy now and has been since 9/11 because of the 
increased costs put on airlines themselves in addition to the 
increased cost to the passengers. But, we haven't seen any 
increased burden put on the passengers for rail transportation. 
Ms. Berrick, have you looked at that?
    Ms. Berrick. Well, we did look at who pays for rail 
security and found that it is really shared between the Federal 
Government, State and locals who own a lot of the transit and 
then also the private sector. The American public----
    The Chairman. Wait, back up. The allocation to them is 
still based upon pre-9/11 fares, isn't it? Have you seen any 
increase in the cost of rail transportation?
    Ms. Berrick. We didn't look at the actual fares and the 
increases over time.
    The Chairman. Why not?
    Ms. Berrick. The objective of our study was to see what was 
being done first of all within the U.S. to secure passenger 
rail and whether or not there were any practices in foreign 
countries that we could apply here to secure the rail system. 
We also looked in a general sense of what's been spent on rail 
security on the Federal level, not a whole lot of money last 
year, about $150 million in grants. The American Public 
Transportation Association estimated that since 9/11 the 
private sector, the private rail operators, spent about $1.7 
billion on security. So I think the rail operators themselves 
through fees are devoting a lot to security.
    The Chairman. It seems like just a simple matter of 
economics to me that with the increase in price of gasoline 
people who would otherwise drive from here to New York are 
going to go by train. Right? There's not been any increase in 
cost to go by train. So you have to plan for increased burdens 
on the rail transportation system because the increased cost of 
alternative means of transportation, both air and auto or bus 
has increased substantially. Rail has not. And yet we are 
hearing we have to have more money to protect those people who 
are riding the rails.
    Ms. Berrick. I think what the highest priority should be, 
in my opinion, for the Department is to complete their risk 
assessment efforts. It's right, TSA has started these efforts. 
They haven't yet completed them. The Department level, they 
also have risk assessments. They need to be coordinated to 
determine, first of all, what's the requirement----
    The Chairman. I would accept your concept of risk 
assessment. I think we all do. That should be the number one 
priority. But, the question of who's going to pay for the 
changes that are necessary ought to be primary too, shouldn't 
it?
    Ms. Berrick. I think it should and I think the first step 
is the risk assessment to determine how much do we actually 
need and where we need to focus our money.
    The Chairman. Well, meanwhile you are just attracting more 
and more people to the rail transportation system, aren't you? 
If airline costs are going up and transportation by bus or by 
automobile is going up, isn't it natural that people are going 
to go where prices are not going up?
    Ms. Berrick. That's possible and we did not study the 
pricing.
    The Chairman. Would you study that just to see if I'm 
right?
    Ms. Berrick. OK, we'll look at that and get back with you. 
Thank you.
    Senator McCain. Mr. Chairman, could I just make one 
addition?
    The Chairman. Yes, sir.
    Senator McCain. Mr. Hawley, I understand you have a very 
tough job and I don't mean to be too hard on you but we really 
need to have a sense of your priorities. If that has to be done 
in a classified fashion so that the Members of this Committee 
can know what you want, I'd be glad to understand that aspect 
of national security, but I think it would help us, because we 
are going to engage in some prioritization ourselves, and I 
think it is important for us that you provide that information.
    Mr. Hawley. Yes sir.
    Senator McCain. I thank you, Mr. Chairman.
    The Chairman. I join in that request. I'd also like to know 
if you can tell us, I admire the way New York City handled the 
crisis after the London catastrophe in rails but they really 
started a system of really improving inspection, for anyone who 
went onboard those subways or their trains. But, I also 
understand that there is an increased allocation to pay for 
that service and I wonder why? I come from a state where 90 
percent of travel is by plane and our people are paying--
although we are a very small state, our people are paying a 
substantial increase in costs every month it seems.
    The people that are using these massive transportation 
systems down here, they are not paying any increased costs for 
security at all and I think that's not only unfair but it's not 
wise. That means that unless, as Senator McCain says, we 
outline some more money to allocate to these systems, they are 
not going to get the securities required to maintain the 
securities necessary for that mode of transportation. Senator 
Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you. I am so sorry that I was late, I 
was at a meeting about Hurricane Katrina aftermath relief, I am 
really sorry. Mr. Chairman, thank you very much for holding 
this hearing.
    A new GAO report, which Senator Snowe and I requested, 
shows that the Transportation Security Administration has not 
adequately secured America's passenger railways and it's not 
for lack of warning. We've seen what's happened in Madrid, we 
saw what happened in London, we know because we've had access 
to documents that show that the trains are definitely on the 
al-Qaeda lists. So, it seems to me, Mr. Chairman, we've ignored 
warning after warning and I say ``we'', I don't really mean 
this Committee, Mr. Chairman. I'd like to show you a chart that 
I made up here if I could.
    Mr. Chairman, I just wanted to share with you a chart 
because I think that this Committee under Senator McCain's 
leadership before has acted on this issue a couple of times and 
I just wanted to note it. In 2001, the Commerce Committee 
approved the Rail Security Act of 2001. No action was taken by 
the full Senate, and then in 2004 the Commerce Committee 
approved the Rail Security Act of 2004. The full Senate 
approved that Rail Security Act but then the House didn't act. 
So, I think this Committee has tried very hard to do something 
but we haven't had the entire Congress going.
    So, I think what we need to do is get on with it. I want to 
talk about my state which has the second-highest Amtrak 
ridership in the country and I see Senator Lautenberg here, but 
people don't recognize that California has a very large Amtrak 
ridership. Almost nine million passenger trips began or ended 
in California during 2004. Amtrak operates an average of 70 
intercity and 200 commuter trains per day in California. So, 
when people think Amtrak, they think East Coast, they've got to 
say West Coast because we are the second largest ridership.
    In addition, the freight rail system is extremely important 
for goods movement throughout the country. California ports 
receive over 40 percent of all the goods that are shipped into 
the U.S.; the ports of L.A. and Long Beach comprise the largest 
port complex in the U.S. and they are crucial for our Nation's 
economy.
    Now, here's what happens, Mr. Chairman. The goods arrive 
and then they are taken by train throughout the country, and 
once these trains emerge through the Alameda Corridor, which is 
in the Los Angeles area, they often cross a road where there is 
no grade separation. So, grade separation is another critical 
issue because if there were to be a terrorist attack and those 
grades are blocked, we cannot get the emergency vehicles 
through.
    So, Mr. Chairman, I once again thank you for having this 
hearing. I understand it was pretty contentious before I got 
here but I just want to say we expect more from this 
Administration; we have to. It's not that we are being 
argumentative. It's that we've been warned. How many times do 
we have to be warned? We've seen al-Qaeda documents, we saw 
what happened in Madrid, we saw what happened in London, we saw 
what happened recently and rumors spread in New York and 
there's lots more we can do. We can't 100 percent protect 
anything, any asset. But we can surely do better. GAO makes 
that point and I'm just hopeful that you will read that report 
and you will move to finally secure our Nation's rail system 
because we've been warned and how many times could we get away 
with this? Not too many more times. Thank you.
    Senator Lautenberg. Mr. Chairman, may I?
    The Chairman. Senator Boxer, are you finished?
    Senator Boxer. I'm finished with my statement.
    The Chairman. Thanks. Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Yes, thanks, Mr. Chairman, and thanks 
to you and Senator McCain, we're moving legislation, trying 
arduously to move legislation. We look back and I don't want to 
be repetitive if things have been said before that have taken 
care of some of the issues. But when we look forward at the 
vulnerability that we have as a result of possible hazardous 
cargo being transported or materials being carried and not 
really facing up to the reality of what we've got to do to 
protect ourselves. Particularly obvious is the railroad track 
that sits right here at the Capitol. We in New Jersey are so 
dependent on transit and passenger rail service and I'm just 
wondering why it is that when we've seen these incidents pass 
before in London, Madrid? Why is it that we are still waiting 
here for a plan by our government to do something about it, to 
make the investment that is necessary?
    What we saw in Graniteville, South Carolina, hazmat 
releases can have the same effect as a weapon of mass 
destruction. Now what's TSA doing to track the thousands of 
hazmat rail cars each day? Secretary Hawley, does the 
Administration believe that active monitoring of the movement 
of these cars in necessary?
    Mr. Hawley. Yes sir, and that is done in the current setup 
by the companies themselves and in the circumstance where we 
would require access to the specific location of individual 
trains or cars or shipments, that is something we can get from 
them.
    Senator Lautenberg. How do we monitor the quality of their 
security? Years ago the screening at aviation destinations was 
done by airlines and we found that they were quite inadequate. 
So, the government stepped in and said, ``OK, private sectors 
had its end, they haven't done a good job. We are going to come 
in here and we're going to do it.'' What's the difference, Mr. 
Hawley, between that situation and the current need?
    Mr. Hawley. In regards to freight rail? As regard to 
freight rail, the consequences of a safety problem or a 
terrorist act against--involving hazardous material can be the 
financial death penalty for a freight railroad and so they are 
highly motivated for a lot of reasons to do what is necessary 
to prevent that happening and what we do to monitor that, we do 
the trust/verify approach to have security reviews to 
understand what it is they do and then verify in fact, that 
they are doing it.
    Senator Lautenberg. Well, if we looked at Texarkana, the 
train derailment there is an example, it's quite recent, about 
a week ago. Hundreds of homes were evacuated after seven empty 
train cars and a tanker containing propylene, derailed in a 
switch yard, exploding in a ball of fire. Initially, the police 
thought that the chemical involved was vinyl acetate which 
releases poisonous fumes and officers went door to door urging 
thousands of people in a two by five mile area to move to the 
north side of town and I think it once again, does say we've 
got to make certain if we are going to rely entirely on the 
private sector that things are done in a fashion that protects 
the people in the areas.
    So, I think that is something that has to be looked at and 
I would appreciate getting some data about what it is precisely 
that the government does to check to see if these things are 
done.
    Mr. Chairman, I'm anxious to hear the next panel and I'm 
finished with mine.
    The Chairman. Thank you. Senator Boxer, you have an 
additional question?
    Senator Boxer. I just have one question to ask to Mr. 
Hawley and Mr. Boardman, whoever feels comfortable doing it. 
One of the ways that I am told back home we can really help the 
situation is to have enough canine patrols because they're 
pretty effective. What do you think the needs are in terms of 
dollars to provide for canine patrols?
    Mr. Hawley. Yes, ma'am, I believe that the canine patrol is 
an excellent flexible and adaptive security measure that can be 
used in a transit environment, aviation environment, and we 
recently did a test with the inter-city bus environment. So, 
that is an important aspect of our program. We've recently 
increased from the 340 range up to--we're now going to be close 
to about 450 dog teams and we, in addition----
    Senator Boxer. How many dogs in a team?
    Mr. Hawley. Three.
    Senator Boxer. And we have 450 operational now, teams?
    Mr. Hawley. Yes, 420 now. We have added through a program 
that people are in training now, 30 additional dogs or 10 teams 
for specifically transit including four in California.
    Senator Boxer. Are these all for Amtrak?
    Mr. Hawley. These are for transit agencies and for Amtrak, 
we are working with Amtrak to make it operationally smooth for 
us to deploy dog teams from either other locations or from 
airports, other cities.
    Senator Boxer. Do you know what Amtrak says it needs for 
dog teams?
    Mr. Hawley. I don't know the dollar number, no.
    Senator Boxer. OK, well they need $156 million additional 
to secure their largest stations, so I would appreciate if you 
would talk with them so that you know what it is that they need 
because they are telling us. They should be telling you or you 
should be asking them.
    Mr. Hawley. We do have conversations about it at all 
levels.
    Senator Boxer. OK. Well, Mr. Chairman, I just think--I just 
say that Amtrak is saying and they will tell us, they need $156 
million in additional funds to secure the largest stations with 
canine teams and I'm just saying $156 million, given the 
tragedies that could befall us, it's a small investment. Every 
time a car comes in here, Senators or otherwise, they bring out 
a canine team and it seems that the officers feel very 
confident and comfortable with that and it seems with all the 
high tech equipment we have, as you say Mr. Hawley, using 
canine teams works for a relatively small amount of money. So, 
I'm done with my questions but I hope that you'll get with the 
Amtrak people.
    Senator Lautenberg. Mr. Chairman, my colleague elicits a 
question for me, if you don't mind, about the same subject. Mr. 
Hawley, the Secretary of Transportation or his designee sits on 
the Amtrak Board. In April, the Board approved Amtrak's funding 
request for its security and needs up to $254 million a year. 
If this funding was needed to help secure Amtrak and the 25 
million people who ride it annually, why didn't the President 
ask for that in the budget?
    Mr. Hawley. TSA, I'll speak for TSA, has the multi-modal 
responsibility and as such, we view--I view and our team views 
that Amtrak is very much within the zone that we worry about 
and without regard to whether we have specific Amtrak programs 
that we use programs we have for other modes including Federal 
Air Marshals to be available for opportunities that may be 
required for Amtrak. As well, as we mentioned the canine teams 
and even more broadly than that is the whole area of 
information sharing and intelligence sharing that I think, as 
far as TSA is concerned, Amtrak is very, very high on the 
priority list on an operational level and we work on that on a 
very intensive basis.
    The Chairman. Thank you, Senator, we are going to have to 
move on.
    Mr. Hawley. Yes, OK.
    The Chairman. I wish you the best, I would ask that you 
provide us with a list of the cost of passengers on the major 
rail systems which you are talking about, what Amtrak and other 
passenger systems throughout the country on a basis of--let's 
go back about 4 years and bring it forward. To what extent have 
any of those people been asked to pay any portion of increased 
cost to safety and security. Thank you all very much but we 
will have to turn to the next witness list.
    Ms. Berrick. Thank you.
    Mr. Hawley. Thank you.

STATEMENT OF EDWARD R. HAMBERGER, PRESIDENT/CEO, ASSOCIATION OF 
                       AMERICAN RAILROADS

    Mr. Hamberger. I appreciate the opportunity to be here to 
discuss freight railroad security with the Committee. The 
safety and security of hazardous materials transportation, of 
course, is of the utmost concern to the Nation's industry and 
perhaps to this Committee as well so, let me move right into 
that issue.
    As common carriers, let me emphasize that railroads are 
required by Federal law to move hazardous material and we move 
it in the safest, most efficient way possible. In fact, we have 
a very good safety record notwithstanding the fact that 
accidents do occur. In 2003, we moved 1.7 million carloads of 
hazardous materials--99.998 percent of those shipments arrived 
at destination without any release from an accident along the 
way.
    Railroads are sensitive to the concerns of those who live 
along rail lines and we take very seriously our obligation to 
move hazardous materials safely and securely. We assist 
communities in developing and evaluating emergency response 
plans and help train more than 20,000 emergency responders each 
year. We provide local emergency responders with a list of the 
most dangerous chemicals likely to be moved through their 
communities and work with the chemical manufacturers, shippers 
and tank car suppliers to improve operating procedures and tank 
car safety.
    As you are aware, Washington D.C. has enacted legislation 
to ban hazmat shipments over certain routes. Other cities, 
Baltimore and others, are considering such bans. Legislation 
has been proposed in Congress to force rerouting of hazardous 
materials. We believe that is the wrong approach to take. Local 
transit bans would not eliminate the risk inherent in moving 
hazmat, instead they would shift the risk from one jurisdiction 
to another. Rerouting can actually reduce safety because it 
involves increased mileage, additional yard handling and dwell 
time, and may involve use of lines that for a variety of 
reasons, are less suited to hazardous materials movement. 
Banning certain hazmat movements by rail over specified routes 
would put the government in a position of assigning the risk of 
hazmat-related incidents and then shifting hazardous material 
transport from one location to another.
    An alternative approach which railroads support, is to 
increase efforts aimed at finding and utilizing safer 
substitutes for the most toxic hazardous materials. These 
constitute a fraction of the hazardous materials moved by rail 
but, are responsible for approximately half of the overall cost 
of railroad insurance rates. The railroad industry is acutely 
aware of the magnitude of this challenge and that is why we 
reacted swiftly to the events of September 11th, hiring outside 
experts to work with us to develop a comprehensive security 
plan.
    The plan includes an inventory of critical assets and has 
as its foundation a risk-based analysis of potential 
vulnerabilities. It includes a variety of countermeasures that 
are keyed to specific threat levels. The security processes and 
analysis detailed in the plan are periodically evaluated for 
effectiveness and modified as appropriate.
    Because the U.S. rail network is vast, more that 140,000 
route miles and open, our plan relies very heavily on access to 
intelligence information and we are in constant communication 
with intelligence and security personnel. I've testified here 
in the past about our plan so, I will not repeat anything 
further here. Let me just move quickly to what we believe 
should be included in any new rail security legislation.
    We believe it is appropriate for the AAR Security Plan to 
serve as the basis for a government rail security plan because 
we have already identified the most important rail assets and 
the biggest threats to those assets. Any new legislation should 
also include adequate funding to implement anti-terrorism 
programs including funds to safeguard tunnels used by Amtrak 
and commuter railroads in the Northeast. We believe that funds 
should be appropriated to research and deploy rail security 
technologies including automated security inspections, 
infrastructure integrity monitoring, communication-based 
training control systems and reductions in tank car 
vulnerability.
    Railroad police officers should be authorized to exercise 
law enforcement powers on any railroad, not just their own. To 
date, railroads have underwritten the cost of security measures 
to benefit the general public and national defense. But, 
protective measures required at the highest alert levels cannot 
be sustained by railroads alone. The industry security plan 
calls for use of the National Guard and local police to augment 
protection of critical infrastructure. States should be 
reimbursed by the Federal Government in those instances. 
Congress should also extend the Terrorism Risk Insurance Act to 
provide stability and certainty. Freight railroads are proud of 
the efforts we have taken to keep our Nation's vital rail 
transportation link open and secure since the terrorist attacks 
of September 11. We will continue to work with this Committee, 
others in Congress, the various Federal agencies and relevant 
parties to further enhance the safety and security of the 
Nation's railroads.
    [The prepared statement of Mr. Hamberger follows:]

 Prepared Statement of Edward R. Hamberger, President/CEO, Association 
                         of American Railroads

    On behalf of the members of the Association of American Railroads 
(AAR), thank you for the opportunity to meet with you today to discuss 
railroad security. AAR members account for the vast majority of rail 
mileage, employees, and revenue in Canada, Mexico, and the United 
States.
    Our Nation's freight railroad industry, which has developed a 
comprehensive approach to protecting our rail network against terrorist 
threats, is keenly aware of the tension between the need for 
transportation efficiency and the assurance that our transportation 
systems are adequately protected from terrorist and other threats. We 
urge Congress to strike a proper balance between protecting our 
country's transportation assets and its citizens, and providing for the 
free flow of goods and promoting our international competitiveness. As 
Secretary Mineta has remarked, ``What we don't want is for our 
checkpoints to become chokepoints.
    Below I will discuss the many ways that U.S. freight railroads have 
addressed security in the post 9/11 era and how security efforts can be 
improved. I will also discuss pending proposals regarding railroad 
security from the perspective of freight railroads.

The Immediate Aftermath of September 11
    The rail industry reacted swiftly to the events of September 11, 
2001. In the immediate aftermath of the attacks, railroads tightened 
security and intensified inspections across their systems. Major 
railroads--which maintain their own police forces to help ensure the 
security of employees, property, and freight--put into place more than 
50 permanent security-related countermeasures.
    In late September 2001, the AAR Board of Directors established a 
Railroad Security Task Force. The task force had the full participation 
of AAR members, including our Canadian and Mexican members and the 
American Short Line and Regional Railroad Association. The overarching 
goals of this task force were (1) to ensure the safety of rail 
employees and the communities in which railroads operate; (2) to 
protect the viability of national and regional economic activity; and 
(3) to make certain that railroads can continue to play their vital 
role in support of our Nation's military.
    Over the next several months, the task force conducted a 
comprehensive risk analysis of the freight railroad industry. Using CIA 
and national intelligence community ``best practices,'' five critical 
action teams (consisting of more than 150 experienced railroad, 
customer, and intelligence personnel) examined and prioritized railroad 
assets, vulnerabilities, and threats. The critical action teams were:

        1. Information Technology and Communications: This team 
        examined the security of railroad communications, control 
        systems, and information systems, including an evaluation of 
        procedures regarding system redundancy, data confidentiality, 
        emergency incident handling, and reconstitution of service.

        2. Physical Infrastructure: This team assessed the physical 
        security of essential bridges, buildings, dispatch centers, 
        tunnels, storage facilities, and other structures, and created 
        a database of critical assets. The team also addressed cross-
        border and port ``gateway'' physical security issues.

        3. Operational Security: This team documented the ``life cycle 
        of a train and determined ways to minimize exposure to 
        unplanned occurrences while trains are in operation. It also 
        addressed fuel supply.

        4. Hazardous Materials: This team examined the transport of 
        hazardous materials by rail, with emphasis on materials that 
        pose the greatest potential safety risk, such as poisonous 
        gases.

        5. Military Liaison: This team worked with the Department of 
        Defense and its Military Traffic Management Command (MTMC) to 
        determine immediate and ongoing military traffic needs. The 
        MTMC, which has since been renamed the ``Surface Deployment and 
        Distribution Command, has designated 30,000 miles of rail 
        corridors known as the Strategic Rail Corridor Network 
        (STRACNET)--as essential to national defense.

    In addition to the above activities, freight railroads cooperated 
fully with a separate team that covered passenger railroad security and 
involved the Federal Railroad Administration (FRA), commuter railroads, 
and Amtrak.

The Terrorism Risk Analysis and Security Management Plan
    The end result of the work of the critical action teams was the 
development of a Terrorism Risk Analysis and Security Management Plan ( 
``Plan'' ), a comprehensive, priority-based blueprint of actions 
designed to enhance the security of our Nation's freight rail network 
and its ability to support our economy, national defense, and public 
health.
    The AAR Board of Directors adopted the Plan on December 6, 2001, 
and it remains in effect today. The security processes and analyses 
detailed in the Plan, including actions and countermeasures, are 
periodically evaluated for effectiveness and modified as appropriate--
to ensure maximum efficiencies from advances in security technology and 
procedures.
    The Plan defines four security alert levels and details the actions 
to be taken at each level as the terrorist threat increases.
    Alert Level 1 is ``New Normal Day-to-Day Operations'' and exists 
when a general threat of possible terrorist activity exists but 
warrants only a routine security posture. Actions in effect at this 
level include conducting security training and awareness activities; 
restricting certain information to a need-to-know basis; restricting 
the ability of unauthenticated persons to trace certain sensitive 
materials; and periodically testing that security systems are operating 
as intended.
    Alert Level 2 is ``Heightened Security Awareness.'' It applies when 
there is a general non-specific threat of possible terrorist activity 
involving railroad personnel and facilities. Additional actions in 
effect at this level include security and awareness briefings as part 
of daily job briefings; conducting content inspections of cars and 
containers for cause; conducting spot content inspections of motor 
vehicles on railroad property; and increasing security at designated 
facilities.
    Alert Level 3 means there is ``a credible threat of an attack on 
the United States or railroad industry.'' A decision to declare Level 3 
will be evaluated in light of the specificity of threat against 
railroad personnel and facilities. Examples of Level 3 actions include 
further restricting physical access and increasing security vigilance 
at control centers, communications hubs, and other designated 
facilities, and requesting National Guard security for critical assets.
    Alert Level 4 applies when a confirmed threat against the rail 
industry exists, an attack against a railroad has occurred, an attack 
in the United States causing mass casualties has occurred, or other 
imminent actions create grave concerns about the safety of rail 
operations. Security actions taken at this level include stopping non-
mission-essential contract services with access to critical facilities 
and systems; increasing vigilance and scrutiny of railcars and 
equipment during mechanical inspections to look for unusual items; and 
continuous guard presence at designated facilities and structures.
    Alert Levels 3 and 4 can be declared industry-wide for a short 
period of time or can be declared in a particular geographic or 
operational area (e.g., the Midwest or hazardous materials) where or 
when intelligence has identified that terrorist action against a 
specific location or operation is imminent.

The Railway Alert Network and ST-ISAC
    To help ensure that the parties involved have access to pertinent 
intelligence and other information, the rail industry is in constant 
communication with intelligence and security personnel at the 
Transportation Security Administration (TSA) and elsewhere in the 
Department of Homeland Security (DHS), the Department of Defense, the 
Department of Transportation (DOT), the FBI's National Joint Terrorism 
Task Force (NJTTF), state and local law enforcement, and others. A 
railroad police officer and knowledgeable railroad analysts work 
literally side-by-side with government intelligence analysts at NJTTF 
and within DHS to help evaluate intelligence at the Top Secret level.
    The heart of this communication system is the Railway Alert Network 
(RAN). The major purpose of the RAN is to monitor the level of threat 
to the rail industry and to alert the industry if it changes. The hub 
of the RAN is AAR's Operations Center, which operates at the Secret 
level and is staffed with mobile communications around the clock at 
Alert Level 2 and is physically staffed at Alert Levels 3 and 4.
    The RAN is linked to the Surface Transportation Information Sharing 
and Analysis Center (ST-ISAC). The ST-ISAC, which was created by the 
AAR at the request of the U.S. DOT, provides a robust capability for 
collecting, analyzing, and distributing security information from 
worldwide resources to protect vital physical assets and information 
technology systems. AAR-member freight railroads and Amtrak are members 
of the ST-ISAC. Cleared at the Top Secret level, the ST-ISAC also 
operates 24-hours-a-day, 7-days-a-week.
    In addition, approximately 75 transit and commuter rail authorities 
(through APTA, the American Public Transit Association) have been 
members of the ST-ISAC. However, Federal funding for ST-ISAC membership 
for public transit agencies was discontinued by DHS. APTA recently 
asked TSA to consider restoring those funds. AAR supports APTA's 
request and, at the same time, asks that TSA also consider providing 
funds necessary to expand the reach of the ST-ISAC to all freight and 
commuter railroads that are not members of AAR.
    As all of these efforts make clear, the rail industry strongly 
concurs with the July 2004 Final Report of the National Commission on 
Terrorist Attacks Upon the United States which called for ``a different 
way of organizing government'' that emphasizes a unity of effort as 
reflected in the phrase ``one fight, one team.'' The Commission called 
for ``unifying the many participants in the counterterrorism effort and 
their knowledge in a network-based information sharing system that 
transcends traditional government boundaries.'' Toward this end, we are 
working cooperatively with TSA leadership on operational and policy 
issues that will further enhance rail security.
    Obviously, rail security efforts depend a great deal on the efforts 
of railroads' dedicated and highly professional employees--including 
engineers and conductors aboard trains, maintenance of way crews and 
inspectors working along the tracks, railroad police officers, and 
others. They are the ``eyes and ears'' in the industry's security 
effort, and we should all be grateful for their vigilance and care.
    In recognition of the thoroughness of the railroad security plan 
and the dedication with which it has been put into effect, in June 2003 
the Association of American Railroads was named a recipient of the U.S. 
Department of Defense's James S. Cogswell Award for Industrial 
Security. The Cogswell Award is the most prestigious award in the 
industrial security field. Of nearly 11,000 cleared contractors, only 
15 were selected to receive the award in 2003. The railroad industry is 
also one of the few private sector industries to receive an ``A'' for 
its security efforts in an independent analysis by The Washington Post.
    Notwithstanding all of these rail industry efforts, there can be no 
100 percent guarantee against terrorist assaults. If such an assault 
involving freight railroads occurs, railroads have established programs 
and procedures that can and will be invoked that are designed to 
respond to, mitigate, and minimize the impact of such incidents. The 
programs and procedures include the establishment of emergency response 
plans for hazardous materials incidents, business continuity plans, and 
the training of rail employees and public emergency response personnel.
    As previously mentioned, the freight rail industry works 
cooperatively with the Federal Government in efforts to enhance 
security. However, there are some areas where better coordination is 
needed. These improvements should focus on unifying government policy 
regarding freight rail security and more effectively coordinating the 
many governmental projects that affect rail security. In addition, the 
current system of dissemination of counter-terrorism information could 
be improved. The railroads' security plan is risk-based--the industry 
cannot protect everything all the time. Therefore, the government must 
provide timely and actionable threat information to enable efficient 
and effective deployment of limited resources.

Hazardous Materials Movements by Rail
    Approximately 1.7 million carloads of hazardous materials (hazmat) 
are transported by rail throughout the United States each year--meaning 
that thousands of hazmat carloads are in transit by rail every day--and 
99.998 percent of these shipments reach their destination without a 
release caused by an accident. Moreover, railroads have reduced overall 
hazmat accident rates by 90 percent since 1980 and by 49 percent since 
1990.
    In 2003 (the most recent year available), hazardous materials of 
all types accounted for 4.9 percent of total U.S. freight rail 
carloads, 5.4 percent of tonnage, and 6.3 percent of ton-miles. Tank 
cars transport approximately 68 percent of rail hazmat, 28 percent 
travel on intermodal flat cars, and the remainder moves in covered 
hoppers, gondolas, and other car types. The most potentially hazardous 
materials, termed toxic inhalation hazards (TIH), are a subset of these 
and nearly all are transported in tank cars.
    No one disputes that efforts should be made to increase hazmat 
safety and security where practical. Railroads understand this better 
than anyone: because of their common carrier obligation, railroads are 
required by law to transport these shipments, even though this 
transportation involves extraordinary risks for the industry. This is 
one reason why railroads support the extension of the Terrorism Risk 
Insurance Act (TRIA) before it expires at the end of 2005. Even with 
TRIA, insurance has become more expensive and difficult for railroads 
to obtain, and it is not possible to fully insure against a truly 
catastrophic incident. Even though TIH accounts for a fraction of rail 
carloads, it contributes approximately 50 percent to the overall cost 
of railroad insurance rates. Insurance rates for AAR members have 
doubled this year alone. For these reasons, the transport of certain 
hazardous materials has the potential to be a ``bet the business'' 
activity for railroads. This leads to our recommendation that Congress 
should consider limiting railroads' liability for carrying out this 
public service, perhaps modeled after the Price-Anderson Act.
    Freight railroads are constantly working to ensure the continued 
safety of hazmat transport.

  <bullet> The industry operates under its comprehensive Terrorism Risk 
        Analysis and Security Management Plan, as described earlier.

  <bullet> Railroads assist communities in developing and evaluating 
        emergency response plans; through their own efforts and the 
        Transportation Community Awareness and Emergency Response 
        Program (TRANSCAER) provide training for more than 20,000 
        emergency responders per year; and support Operation Respond, a 
        nonprofit institute that develops technological tools and 
        training for emergency response professionals.

  <bullet> Trains containing specific amounts of the most hazardous 
        materials are subject to special speed limits, passing 
        restrictions, and inspections. Railroads increase track 
        inspections, training, and installations of wheel defect 
        detectors on routes over which these trains operate.

  <bullet> Railroads work closely with chemical manufacturers in the 
        Chemical Transportation Emergency Center (Chemtrec), a 24/7 
        resource that coordinates and communicates a broad range of 
        critical information that may be needed by emergency responders 
        in mitigating a hazardous material related incident.

  <bullet> Upon request, railroads provide local emergency response 
        agencies with, at a minimum, a list of the top 25 hazardous 
        materials transported through their communities. The list 
        assists local emergency responders in prioritizing their 
        emergency response plans to what is most likely to be 
        transported through their areas.

  <bullet> Railroads participate in a variety of R&D efforts to enhance 
        tank car and hazmat safety. For example, railroads, tank car 
        builders, and car owners jointly fund the Tank Car Safety 
        Research and Test Project (Project), which carefully analyzes 
        accidents involving tank cars and continually updates a 
        comprehensive database on the precise nature of damage to tank 
        cars. Analysis of these data improves safety by improving 
        researchers' ability to identify the causes of tank car 
        releases and help prevent future occurrences. The database is 
        often cited by the DOT as a role model for other modes of 
        transportation.

        In addition to data gathering and analysis, the Project is 
        engaged in numerous ongoing research efforts, including 
        developing better steels for tank cars; measuring the railroad 
        operating environment to refine tank car design requirements; 
        investigating the forces generated in accidents to better 
        understand ways to further improve tank car damage resistance; 
        determining the effects of thermal protection degradation of 
        rail tank cars in service; and providing validation and input 
        data for a model used to evaluate the effects of fire on tank 
        cars.

  <bullet> Beyond the Project, the rail industry and rail suppliers are 
        constantly investigating other ways to enhance tank car safety. 
        For example, the AAR's Tank Car Committee (a group of technical 
        representatives from railroads, shippers, and tank car 
        builders/lessors that works closely with the FRA to, among 
        other things, establish detailed tank car design standards and 
        review individual tank car design drawings) recently supported 
        a proposed new design for a chlorine tank car that would reduce 
        the risk of a rupture while also reducing the number of 
        shipments. Railroads are also working to determine what 
        standards should apply to the next generation of tank cars that 
        handle TIH.

  <bullet> Freight railroads support the tank car vulnerability studies 
        contained in the recently-passed SAFETEA-LU legislation and the 
        requirement that the FRA initiate a rulemaking on tank car 
        design, and we urge the FRA to meet the deadlines for these 
        important projects.

  <bullet> Railroads are working with TSA and independently to identify 
        opportunities to reduce exposure to terrorism in high threat 
        rail corridors and terminals.

  <bullet> Railroads comply with DOT rule HM-232.

    Despite rail efforts to ensure the safety of hazmat transport, a 
number of local and Federal proposals have been offered that would 
restrict rail movements of hazardous materials in one way or another. 
One such proposal would give state or local authorities the ability to 
ban the movement of hazmat through their jurisdictions. Another 
proposal would order railroads to provide local authorities advance 
notification of hazmat movements through their jurisdictions. Still 
another proposal mandates that hazmat routing decisions must be made by 
the Federal Government, rather than by railroads themselves.
    The stated rationale for these types of proposals is often 
``protection'' against terrorist attack (especially in perceived ``high 
threat'' areas) or a desire to be able to react more quickly to hazmat-
related incidents, should they occur. The proposals may be well 
intended, but the end result of their enactment would likely be an 
increase in exposure to hazmat release and reduced safety and security.

Banning Hazmat Movements by Rail
    Banning hazmat movements in particular jurisdictions would not 
eliminate risks, but instead would simply shift them from one place to 
another. In shifting that risk, it could foreclose transportation 
routes that are optimal in terms of overall safety, security, and 
efficiency. For example, the rail network is not similar to the highway 
network where there are myriad alternate routes. In the rail industry, 
rerouting could add hundreds of miles and several days to a hazmat 
shipment, and those additional miles and days could be on rail 
infrastructure that is less suitable (for a variety of reasons) to 
handling hazmat. (In fact, CSX has determined that rerouting hazmat 
traffic away from Washington, D.C., as proposed by the D.C. City 
Council, would result in some 2 million additional car-miles per year 
the hazmat would have to travel.) Emergency responders along alternate 
routes may lack requisite expertise in handling the most dangerous 
commodities. Additional switching and handling of cars carrying hazmat 
could be needed, as could additional dwell time in yards. As the 
Department of Justice and the DHS noted in a joint brief opposing the 
D.C. hazmat ban, the increase in the total miles over which hazmat 
travels and the increase in total time the materials are in transit 
would ``increase their exposure to possible terrorist action,'' and 
therefore potentially reduce safety and security. The U.S. DOT also 
submitted a statement recognizing that banning hazmat shipments through 
certain areas reduces both safety and security. Moreover, the costs to 
manufacturers and consumers of products that incorporate hazardous 
materials in their production would rise commensurate with the 
additional costs to transport these commodities.
    If hazmat transport were restricted in one jurisdiction (either by 
Federal or local action), other jurisdictions would undoubtedly want to 
follow suit. In fact, that is already happening. In the wake of action 
(so far unsuccessful) by the D.C. City Council to ban hazmat movements 
through Washington, similar efforts are being discussed in Atlanta, 
Baltimore, Boston, Cleveland, Chicago, Philadelphia, Pittsburgh, and 
probably other cities too, as well as the entire State of California. 
Banning hazmat shipments in even one city would be problematic; banning 
them in cities throughout the country would cause immense confusion and 
economic disruption nationwide--and would virtually shut down hazmat 
shipments by rail in this country.
    Moreover, banning hazmat movements by rail would likely lead to 
many more movements by truck, but there is a much greater chance of 
release due to an accident when hazmat is carried by truck than when it 
is carried by rail. Railroads and trucks generate roughly equal hazmat 
ton-mileage, but trucks have 16 times more hazmat releases than 
railroads.
    An integrated, effective national rail network requires uniform 
standards that apply nationwide. This uniformity, and the clarity and 
efficiency it brings, would be lost if different localities and routes 
were subject to widely different rules and standards or if local and/or 
state governments could dictate what types of freight could pass 
through their jurisdictions. The problem is especially acute for 
railroads, whose network characteristics and limited routing options 
mean that disruptions in one area can have profound impacts hundreds or 
even thousands of miles away. These disruptions negatively affect all 
rail traffic, not just hazmat traffic.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Banning certain hazmat movements by rail over specified routes 
would put the government in the position of assigning the risk of 
hazmat-related incidents, and then shifting hazmat transport from 
locations with higher assigned risk to locations with lower assigned 
risks. An alternative approach, which railroads support, is to increase 
efforts aimed at finding and utilizing safer substitutes for TIH 
hazardous shipments.

Hazmat Prenotification
    Hazmat pre-notification to local authorities is problematic for 
several reasons and may not accomplish the goals of those seeking it.
    First, the rail industry already notifies communities, upon 
request, of the top 25 hazardous commodities likely to be transported 
through their area.
    Second, at any one time, thousands of carloads of hazardous 
materials are moving by rail throughout the country, constantly leaving 
one jurisdiction and entering another. The vast majority of these 
carloads do not--and due to the nature of rail operations, cannot be 
made to--follow a rigid, predetermined schedule. The sheer quantity and 
transitory nature of these movements would make a workable pre-
notification system extremely difficult and costly to implement, for 
railroads and local officials alike. That's why the Fire Chief of 
Rialto, California, commented, ``You'd have to have an army of people 
to stay current on what's coming through. I think it wouldn't be almost 
overwhelming. It would be overwhelming.'' The greater the number of 
persons to be notified, the greater the difficulty and cost would be.
    Third, by definition, prenotification would vastly increase the 
accessibility of hazmat location information. Making this information 
far more accessible than it currently is could actually increase 
vulnerability to terrorist attack, not decrease it, because it would 
magnify the possibility that the information could fall into the wrong 
hands.
    Fourth, railroads provide comprehensive training for hazmat 
emergency responders in many of the communities they serve, and they 
already have well-established, effective procedures in place to assist 
local authorities in the event of hazmat incidents. In fact, through 
the Transportation Community Awareness and Emergency Response Program, 
railroads help train more than 20,000 local emergency responders per 
year.
    Finally, since railroads already make communities aware of what 
types of hazardous materials are likely to be transported through their 
area and since they already provide 24/7 assistance for emergency 
responders (many of whom railroads have trained), it is not at all 
clear that information obtained by local authorities through a 
prenotification system would actually improve their ability to respond 
to hazmat incidents in any meaningful way.

Railroad Security Legislation
    A number of proposals have been offered in the Senate and House of 
Representatives regarding railroad security. Freight railroads are 
always ready and willing to discuss how security can be enhanced more 
effectively. To that end, we support the following provisions of rail 
security legislation:

  <bullet> A comprehensive security plan should be developed that 
        includes the identification of the most important rail assets 
        and the identification of the biggest threats to those assets. 
        In developing this plan, the government should use the AAR's 
        Security Plan as the basis. Certain provisions of S. 1052, the 
        ``Transportation Security Improvement Act of 2005'' and S. 
        1379, the ``Rail Security Act of 2005,'' are consistent with 
        this approach.

  <bullet> Adequate funding to implement antiterrorism programs for 
        passenger and freight railroads should be appropriated, 
        including funding to safeguard tunnels used by Amtrak and 
        commuter railroads in the Northeast. S. 1052 and S. 1379 each 
        authorize more than $1 billion for grants for these purposes. 
        Freight railroads should be able to apply for the grants 
        directly rather than have to go through the states.

  <bullet> Funds should also be granted to research and deploy rail 
        security technologies, including automated security 
        inspections, infrastructure integrity monitoring systems, 
        emergency bridge repair and replacement, communication-based 
        train control systems, and tank car vulnerability reductions. 
        S. 1052 and S. 1379 authorize funds for these purposes.

  <bullet> Railroad police officers should be authorized to exercise 
        law enforcement powers on any railroad. This provision is in S. 
        1052 and S. 1379.

    Railroads respectfully suggest that additional provisions would 
enhance rail security legislation:

  <bullet> To date, railroads have been underwriting the cost of 
        security measures for the benefit of the general public and for 
        national defense. However, protective measures required at the 
        highest alert levels cannot be sustained by the rail industry 
        alone. This is reflected in the railroads' Terrorism Risk 
        Analysis and Security Management Plan, which, at the highest 
        alert levels, calls for the use of National Guard and local law 
        enforcement support to augment industry protection of critical 
        infrastructure. States should be reimbursed by the Federal 
        Government for expenses associated with helping to guard 
        critical rail assets at high levels of alert.

  <bullet> The TSA and the FRA should clarify which agency has ultimate 
        responsibility for which aspects of rail safety and security. 
        Today, the allocation of responsibility is not always clear.

  <bullet> A Federal grant program should be established to reimburse 
        railroads for expenses mandated by the TSA or by other 
        government entities, including mandates that result from high-
        risk corridor assessments.

  <bullet> As noted previously, Congress should extend TRIA before it 
        expires at the end of 2005. The need for a Federal backstop 
        that provides stability and certainty remains.

  <bullet> Congress should endorse the rail and chemical industries' 
        request for a narrowly-tailored relaxation of antitrust 
        prohibitions that would allow chemical companies and railroads 
        to work together to reduce the public's exposure to IH 
        shipments.

    Finally, railroads believe that certain provisions of rail security 
legislation, including the following, are not necessary or appropriate.

  <bullet> Banning hazmat transport by rail through certain 
        jurisdictions or requiring prenotification (as called for, for 
        example, by S. 1256, the ``Hazardous Materials Vulnerability 
        Reduction Act of 2005'' ) should be opposed. Earlier in this 
        testimony I explained why railroads oppose this legislation.

        On a somewhat related note, S. 1052 calls for DHS to approve 
        railroads' ``high hazard security threat mitigation'' plans, 
        ``including alternative routing and temporary shipment 
        suspension options.'' Routing of hazmat by railroad dispatchers 
        is based on dynamic factors such as the condition of track, 
        weather, and traffic congestion so as to ensure the selection 
        of the safest possible route at any given moment. As the rail 
        industry's response to Hurricane Katrina and Hurricane Rita 
        makes clear, the industry is capable of quickly detouring 
        traffic as conditions warrant. The Federal Government is ill-
        suited to perform this task, so the requirement for DHS 
        approval of these plans should be dropped.

  <bullet> Mandating that freight railroads submit employee security 
        plans to DHS or DOT for approval, as called for in S. 1052 and 
        S. 1379, is unnecessary.

        Since the terrorist attacks on September 11, 2001, freight 
        railroads have provided ongoing general security awareness 
        training to all employees, and some railroads have gone so far 
        as to include security training as part of the annual FRA-
        mandated employee certification process. In an effort to 
        further increase the level of security awareness for their 
        employees, AAR member railroads are working with the National 
        Transit Institute (NTI) at Rutgers University to develop a 
        uniform security awareness curriculum that will significantly 
        enhance the level of employee security training. The curriculum 
        is modeled after the program NTI and the Federal Transit 
        Administration developed for public transit agency employees.

        The goal of the training is to provide rail employees with an 
        understanding of their role and responsibility in system 
        security, and how to implement their companies' procedures upon 
        detection of suspicious objects or activities. Course modules 
        include instructions on reacting to threats, identifying 
        suspicious activity, identifying suspicious objects, and 
        responding to incidents.

  <bullet> Mandates regarding the use of wireless terrestrial or 
        satellite communication technology to track and locate rail 
        cars carrying hazmat or to identify actual or imminent 
        hazardous material release are premature. While railroads agree 
        that there is benefit to the ability to detect hazmat breaches 
        from rail cars and to communicate breach events to train crews 
        and dispatchers, this technology must be carefully developed to 
        ensure full functionality, appropriate design, reliability, and 
        security. AAR is working with DHS and FRA to that end.

Passenger Railroads
    As Members of this Committee are aware, more than 90 percent of the 
route mileage over which Amtrak operates, as well as a significant 
portion of the trackage over which many commuter railroads operate, is 
actually owned and maintained by freight railroads. Therefore, actions 
taken by freight railroads to enhance security also benefit passenger 
rail. Freight railroad police coordinate with and support Amtrak police 
to, among other things, increase uniformed police presence in rail 
passenger stations. Amtrak, commuter rail and transit authorities, and 
the freight railroads receive and share threat and incident information 
through the RAN and the ST-ISAC.
    That said, freight railroad security-related plans and procedures 
are not specifically designed to protect passengers or to be a 
substitute for actions that Amtrak or other passenger railroad 
operators might choose or be requested to take.

Port and Border Security
    The issue of port and border security extends far beyond the issue 
of rail security, although railroads, by virtue of the fact that they 
carry millions of containers unloaded from or loaded on to steamships 
each year and move hundreds of thousands of railcars and intermodal 
units across the Canadian or Mexican borders each year, are certainly 
impacted.
    Ports have spent hundreds of millions of dollars enhancing their 
security, much of it funded by Federal grants. Railroads work closely 
with the Captains of Ports to ensure compliance with Coast Guard 
regulations regarding port facility security.
    U.S. freight railroads also work diligently with the U.S. Bureau of 
Customs and Border Protection (CBP) and others to enhance border 
security. For example, a couple of years ago the U.S. and Canadian 
customs agencies and Canada's two major railways signed a declaration 
of principles to enhance security at the Canada-U.S. border and to 
ensure secure rail access to the United States. The declaration--signed 
by the CBP, the Canada Customs and Revenue Agency (CCRA), Canadian 
National Railway (CN), and Canadian Pacific Railway (CP)--outlines 
principles for targeting, screening, and examining rail shipments 
transported by the Canadian carriers into the United States. The 
declaration includes guidelines for the electronic transmission of 
cargo information by the railroads to customs officials in advance of 
each train's arrival at the border and installation of Vehicle and 
Cargo Inspection System (VACIS) and radiation detection equipment at CN 
and CP border crossings.
    Rail VACIS systems, which are also in use at rail border crossings 
with Mexico, use gamma ray technology to scan entire trains one railcar 
at a time. The gamma ray source and detectors are stationary as the 
train moves through the system. Inspectors examine scanned images of 
rail cars for contraband, potential terrorists, or terrorist weapons 
without opening them and potentially endangering lives. Suspicious rail 
cars are segregated for inspection, with minimal disruption to the flow 
of legitimate commerce. Today, where CBP has installed this equipment 
on the borders with both Canada and Mexico, 100 percent of rail cars 
are screened.
    U.S. freight railroads are also active participants in the Customs-
Trade Partnership Against Terrorism (C-TPAT), a joint government-
business initiative within the CBP to build cooperative relationships 
that strengthen overall supply chain and border security. Through this 
initiative, CBP is asking businesses--including railroads--to ensure 
the integrity of their security practices and communicate their 
security guidelines to their business partners within the supply chain. 
I am happy to report that all U.S. Class I railroads are currently C-
TPAT certified. The certification process involves a comprehensive 
review of a railroad's procedural security, physical security, 
personnel security, education and training, access controls, manifest 
procedures, and conveyance security.
    Railroads have also been active participants in the significant 
expansion of Integrated Border Enforcement Teams (IBET) across the 
U.S./Canada border. The mandate of these teams is to enhance border 
integrity and security by ``identifying, investigating and interdicting 
persons and organizations that pose a threat to national security or 
engage in other organized crime activity.''
    Finally, on January 5, 2004, CBP regulations requiring all 
transportation modes to submit cargo information electronically before 
arriving at the U.S. border came into effect. The rail industry was an 
active participant in developing these regulations, and railroads are 
complying with this requirement.

Conclusion
    U.S. freight railroads are proud of the success they achieved in 
keeping our Nation's vital rail transport link open following the 
September 11, 2001 terrorist attacks. Since then, railroads have taken 
many steps to increase the security of our Nation's rail network, 
including the development of a comprehensive security management plan 
that incorporates four progressively severe alert levels. We will 
continue to work with this Committee, others in Congress, Federal 
agencies, and all other relevant parties to further enhance the safety 
and security of our Nation's railroads and the communities they serve.

    STATEMENT OF WILLIAM L. CROSBIE, SENIOR VICE PRESIDENT, 
                       OPERATIONS, AMTRAK

    Mr. Crosbie. Thank you Mr. Chairman and Members. I would 
like to thank this Committee for the opportunity to testify on 
passenger rail security and the steps Amtrak has taken to 
enhance security and safety for our passengers.
    You are to be commended for organizing this hearing and for 
advancing legislation to increase funding for rail security. I 
applaud your efforts and leadership on this matter and the 
attention given to rail security in S. 1052. I say this because 
time is of the essence. None of us can afford to wait until 
another catastrophe occurs. Those who use our trains should 
have the confidence that every reasonable action to protect and 
secure their well-being and safety has been taken.
    Despite the openness of our Nation's rail system and the 
challenges it brings, I believe we have taken long strides in 
making our facilities and trains more secure. For us, security 
has become one of the costs of doing business because we know 
the nature of the threats our Nation faces will be with us for 
a long time.
    Today, let me briefly outline for you what we have learned 
from previous terrorist events both here and abroad, the steps 
we have taken to address the knowledge learned from these 
events, and what we have planned to do in the near future. As 
part of the testimony I have submitted for the record, I have 
explained what steps Amtrak has already taken in the wake of 
the terrorist attacks in Madrid and London.
    What I would like to do today in the short time I have 
allotted is explain what additional measures we have identified 
in our Security Investment Plan and what we at Amtrak could do 
to enhance the safety of our passengers and employees if we had 
additional resources.
    For us, one of the more significant recent occurrences has 
been our ability to receive Federal funding for rail security 
improvements through the Fiscal 2005 Homeland Security 
Appropriations bill under the Intercity Passenger Rail Security 
Grant Program. Prior to Fiscal 2005, the Corporation did not 
qualify for such grant programs because it did not meet the 
eligibility requirements of being a state or local transit 
agency. In addition to having a risk assessment of Amtrak's 
Northeast Corridor and Chicago hub area performed by Homeland 
Security through their contracted corporation, Amtrak will use 
$6.1 million in funds for a number of security priorities, 
including but not limited to: increasing the number of 
explosive detection canine teams. Purchasing new explosive-
resistant trash cans, adding radiological detection and 
verification pagers, and implementing a new passenger awareness 
program.
    The funding provided as part of the Homeland Security grant 
will go a long way and will be put to good use. In addition to 
hardening our assets and improving our technology, we are 
relying more and more on the improved intelligence-sharing 
initiatives among key domestic agencies that are geared toward 
improving security within the rail industry.
    Coordination with Federal agencies and national law 
enforcement organizations is essential to thwarting future 
potential terrorist attacks. We also worked with international 
partners, particularly those in Spain and England who have 
direct experience in dealing with rail-related terrorism. From 
a planning perspective, Amtrak has recently modified its 
security investment plan and has identified $156 million in 
critical funding needs. This is a detailed plan that 
prioritizes and itemizes our most urgent projects.
    Amtrak maintains several control centers that need to have 
redundancy and to have a secure location for these vital 
communication and control operations. This project would 
consolidate these activities into one building. I cannot 
emphasize enough how crucial this element of our plan is to the 
entire package of security proposals. Amtrak needs to upgrade 
security at our largest stations which typically handle 
hundreds of thousands of people per day. In addition to closed 
circuit television and physical security improvements, 
explosive detection devices and additional radiological pagers 
would be disseminated to our sworn personnel for use in major 
stations and other strategic stations along the Northeast 
Corridor.
    Amtrak effectively tracks train movement over the tracks 
that the Corporation owns, mainly over the electrified 
Northeast Corridor. Throughout the rest of the country, 
however, the chief means of communications with trains is 
through radio and cell phone telecommunication systems. Such 
systems do not adequately address reliable train tracking, 
emergency response efforts and have failed during critical 
incidents.
    Amtrak has identified the need to significantly upgrade its 
existing, antiquated GPS system and would like to have it 
integrated with Amtrak's central computer system to provide the 
exact location for each train. Thus, additional funding in this 
area is critical and badly needed.
    Last, with regard to our ongoing fire/life safety program, 
there are numerous infrastructure projects funded by the 
existing $100 million tunnel life safety grant provided in the 
Fiscal 2002 Department of Defense and Emergency Supplemental 
Appropriations for Recovery and Response to the terrorist 
attacks on the United States of which $71 million has been 
expended. This work is ongoing and significant progress has 
been made.
    Funding is being used to improve radio coverage, wayside 
communication and tunnel portal security to secure all tunnel 
access points and improve security for trains traveling through 
the major tunnels on the Northeast Corridor. The nature of 
improvements consists of physical and technology-based security 
improvements, such as closed circuit television, event 
activated alarm systems, high-security fencing and lighting, 
the strategic placement of vehicle barriers. In addition, this 
tunnel security portion of the plan would also include similar 
upgrades at the Washington, D.C. First Street Tunnel and the 
Baltimore tunnels. Fencing improvements in the area of the 
Baltimore tunnels has already begun and fencing improvements 
are scheduled throughout Amtrak's 5-year capital plan.
    The bottom line is this, we have learned much through the 
recent tragedies and terrorist attacks against public 
transportation. We have done our best to identify and 
prioritize our needs and use of the scarce funds where they 
will have the most impact. As you and this Committee are all 
too aware, as much as we would like to, Amtrak is not in a 
position financially to allocate huge amounts of additional 
resources to security. We are engaged in a very costly but long 
over due capital reinvestment program to rebuild our plant and 
equipment and to bring infrastructure to a state of good 
repair.
    At the same time, we have also allocated additional 
resources where feasible for security as well as the 
operational----
    The Chairman. We limit people to 5 minutes. I would 
appreciate it if you could find a way to end your testimony.
    Mr. Crosbie. I'm just about finished, sir. These dollars 
only go so far and we need additional resources to enhance the 
security of our national system. I'd be happy to answer a few 
questions.
    [The prepared statement of Mr. Crosbie follows:]

   Prepared Statement of William L. Crosbie, Senior Vice President, 
                           Operations, Amtrak

    Mr. Chairman and Members of the Senate Commerce, Science and 
Transportation Committee, I would like to thank this Committee for the 
opportunity to testify on passenger rail security and the steps Amtrak 
has taken to enhance security and safety for our passengers.
    You are to be commended for organizing this hearing and for 
advancing legislation to increase funding for rail security. I applaud 
your efforts and leadership on this matter and the attention given to 
rail security in S. 1052. I say this because time is of the essence. 
None of us can afford to wait until another catastrophe occurs. Those 
who use our trains should have the confidence that every reasonable 
action to protect and secure their well-being and safety has been 
taken.
    Despite the openness of our Nation's rail system and the challenges 
it brings, I believe we have taken long strides in making our 
facilities and trains more secure. For us, security has become one of 
the costs of doing business because we know the nature of the threats 
our Nation faces will be with us for a long time.
    Today, let me briefly outline for you what we have learned from 
previous terrorist events both here and abroad, the steps we have taken 
to address the knowledge learned from these events, and what we have 
planned to do in the near future.

Amtrak Reactions to Events at Home and Abroad
    After the terrorist attacks of September 11, 2001, followed by the 
Moscow, Madrid, and London tragedies, the landscape of Amtrak's law 
enforcement responsibilities and duties changed markedly. Amtrak Police 
now have to ensure that thorough terrorism-based vulnerability and 
threat assessments are conducted, that emergency response and 
evacuation plans have been formulated, implemented and tested, and that 
Amtrak develops security measures that address not only vandalism and 
other forms of street crime, but the potential for Madrid and London 
type attacks on our passengers and on our property.
    Since September 11, the Amtrak Police and Security Department has 
established and reinforced the following security improvements:

  <bullet> Instituted Passenger ID procedure for purchase of most 
        tickets.

  <bullet> Improved baggage weight restriction policies for carry-on 
        and checked baggage.

  <bullet> Created a baggage tagging requirement.

  <bullet> Developed and instituted a Security Threat Level Response 
        Plan that is tied to the Homeland Security Advisory System and 
        requires a series of security measures be undertaken at each 
        alert level.

  <bullet> Added 12 explosive detection canine teams.

  <bullet> Created a Security Information Center in which bulletins, 
        updates and security messages are disseminated to employees.

  <bullet> Purchased and deployed radiological gamma/neutron pagers at 
        Amtrak's major stations to address radiological threats and 
        coordinated alerts with local police agencies.

  <bullet> Coordinated security counter-measure issues with transit and 
        freight railroad counterparts.

  <bullet> Commissioned blast vulnerability studies of the New York 
        tunnels and major stations.

  <bullet> Revised the five-year Capital Plan to include numerous 
        security upgrades, including high security fencing, yard 
        security improvements, and access control upgrades.

    After the Madrid bombings, Amtrak again increased uniform patrols 
at stations and on platforms and checked baggage rooms in greater 
frequency as well as critical infrastructure. It also:

  <bullet> Issued Security Handbooks to all employees.

  <bullet> Made technological improvements to the Railphone system on 
        trains so that 911 could be dialed and individuals directly 
        connected to a 911 Operator.

  <bullet> Created security focus groups made up of employees and 
        passengers to ascertain if security measures and objectives 
        were being properly performed.

  <bullet> Obtained assistance from freight law enforcement agencies 
        who patrolled some Amtrak stations.

  <bullet> Held system-wide security conference calls for managers and 
        directed them to engage employees on their role in security 
        matters.

    As Amtrak continued to review its security needs and 
vulnerabilities, it recognized the need to create a security 
consciousness for all employees at all levels and to have a clear chain 
of command. Last year the corporation created an executive-level 
position, the Vice President of Security. Alfred J. Broadbent, a former 
Metropolitan Police Department Assistant Chief, was appointed to this 
position on August 2, 2004. All police and security functions now 
report to Mr. Broadbent, who reports to me. An Executive Security 
Committee was also established and meets weekly with him to discuss 
security policy, procedures, operational and capital security planning 
as well as terrorist threat and intelligence information.
    One of the first efforts undertaken by the Vice President of 
Security was the re-engineering of Amtrak's primary terrorist security 
plan, the Security Threat Level Response Plan. This plan now contains 
more meaningful and measurable countermeasures and it is closely 
coordinated with recently created Security Coordinating Committees that 
consist of management level officials across Amtrak's operating 
departments. Each Amtrak operating division has a Security Coordinating 
Committee that meets regularly with Police and Security Managers to 
ensure that basic security practices and steps are undertaken and 
completed. The countermeasures contained in the Threat Level Response 
Plan provide a coordination of efforts directed to specific threats and 
attempt to create some basis for a layered security system that would 
improve deterrence capabilities. Some of the countermeasures that would 
be drilled down and enforced by Amtrak Police personnel and the 
Security Coordinating Committees would be assurance that only necessary 
access points are kept open, that gates, doors and other barriers are 
locked and secured, and that rolling stock and locomotives are locked 
and secured while this equipment is in a yard and/or standing at a 
station. Since August of 2004, the Amtrak Police and Security 
Department has also developed and implemented the following programs:

  <bullet> Tactical Intensive Patrols (TIPS)--Sworn Amtrak personnel 
        patrol specific station areas and conduct checks of baggage 
        with passengers, provide security tip information and establish 
        uniform presence.

  <bullet> Train Riding Patrols--Sworn Amtrak personnel have been 
        riding trains in a greater degree of frequency, mostly on the 
        busy NEC.

  <bullet> Counter-terrorism training conducted by the Federal Law 
        Enforcement Training Center (FLETC) has been scheduled for all 
        sworn personnel and was completed in FY05.

  <bullet> Amtrak Management, DHS and the National Transit Institute 
        developed a Security Awareness Training Program for all 
        employees. This training is underway and is scheduled for 
        completion in December 2005.

  <bullet> Amtrak Police and Security coordinate its security concerns 
        and initiatives with its Federal partners: DHS, TSA, DOT, and 
        FRA.

Access to Resources
    For Amtrak, one of the more significant recent occurrences has been 
our ability to receive Federal funding for rail security improvements 
through the FY05 DHS Appropriations bill under the Intercity Passenger 
Rail Security Grant Program. Prior to FY05, the Corporation did not 
qualify for such grant programs because it did not meet the eligibility 
requirements of being a state or local transit agency. In addition to 
having a Risk Assessment of Amtrak's NEC and Chicago hub area performed 
by a DHS contracted corporation, Amtrak will use $6.3 million in funds 
to increase security at Amtrak by:

  <bullet> Adding explosive detection canine teams.

  <bullet> Purchasing new explosive resistant trash cans.

  <bullet> Deploying PROTECT (chemical detection equipment) systems at 
        major stations.

  <bullet> Conducting a Pilot Program with the Transportation Security 
        Working Group and DHS on next generation CCTV systems.

  <bullet> Adding radiological detection and verification pagers and 
        portals.

  <bullet> Increasing tunnel protection.

  <bullet> Implementing a new passenger awareness program.

  <bullet> Conducting a major exercise in Washington, D.C.

    We have also been involved in numerous initiatives with the 
agencies that are geared toward improving security within the rail 
industry. Highlighted below are some of these interactions:

  <bullet> Improved intelligence gathering capabilities by working 
        closely with Federal and State agencies and industry partners. 
        Agencies include: DHS, TSA (Transportation Security Operations 
        Center--TSOC), DOT (Office of Intelligence and Security--OIS), 
        FRA (Surface Transportation-Information Sharing and Analysis 
        Center--ST/ISAC), and the industry AAR (Railway Alert Network--
        RAN).

  <bullet> Continued assignment of an Amtrak investigator to work with 
        the FBI in the New York Joint Terrorism Task Force. Other 
        investigators will be assigned to the National Capital Region, 
        Chicago, and Long Beach, CA JTTFs in the near future.

  <bullet> DHS/TSA sponsored two emergency response drills in which 
        multiple Federal, State and local agencies participated. Drills 
        were based on terrorist act scenarios.

  <bullet> DHS/TSA has worked with Amtrak as a venue location for the 
        Transportation Workers Identification Card (TWIC) program.

  <bullet> DHS/TSA and ICE has worked with Amtrak and upgraded the 
        delivery of international traveler information for border 
        inspection travel improvements and counter-terrorism purposes.

  <bullet> FRA/TSA has partnered with Amtrak and used ``airport type'' 
        screening at Amtrak stations during National Security Sensitive 
        Events (RNC and Inaugural Event).

  <bullet> TSA is also doing clearances and working closely with Amtrak 
        in improving passenger manifest information and in coordinating 
        Amtrak's industrial security clearance program.

    In addition to Amtrak's security programs with the above agencies, 
Amtrak has also received the expertise and help of the State of New 
York's National Guard. It has provided additional resources in the form 
of National Guard personnel to support uniform forces at Penn Station, 
New York.

Next Steps
    Today, Amtrak Police and Security continue its efforts to improve 
the safety and security of Amtrak passengers, employees and patrons. In 
February of this year, it participated in a special meeting and 
debriefing with leaders of Spain's law enforcement and military 
agencies and Renfre, the Spanish Commuter line involved in the Madrid 
bombings. Police and Security managers attended a special briefing last 
week in relation to the London bombings and plan to have a meeting with 
British Transport Police later this year to receive a similar briefing 
and ``lessons learned'' update on these terrorist tragedies. The 
department is also in the midst of a reorganization that will channel 
and deploy resources in a more effective manner to address the security 
realities of today's rail systems.
    From a planning perspective, Amtrak has recently modified its 
Security Investment Plan and has identified $156 million in critical 
funding needs.

  <bullet> Dispatch and Control Centers--Amtrak maintains several 
        control centers that need to have redundancy and to have a 
        secure location for these vital communication and control 
        operations. This project would consolidate Amtrak's CETC 
        (Centralized Electrified Traffic Control Center), CNOC 
        (Consolidated National Operations Center) and the NCC (Police 
        Department Radio Center) into one building. This location would 
        be constructed so that access is restricted and basic CPTED 
        (Crime Prevention Through Environmental Design) concepts 
        employed. I cannot emphasize enough how crucial this element of 
        our plan is to the entire package of security proposals.

  <bullet> Securing Amtrak's Largest Stations--Amtrak needs to upgrade 
        security at the largest stations which typically handle 
        hundreds of thousands of people per day. In addition to CCTV 
        and physical security improvements, explosive detection devices 
        and additional radiological devices/pagers would be 
        disseminated to sworn personnel for use in major stations and 
        other strategic stations along the NEC.

  <bullet> Amtrak Train Tracking, Communications and Critical Incident 
        Response--Amtrak effectively tracks train movement over the 
        tracks that the Corporation owns, mainly over the electrified 
        NEC. Throughout the rest of the country, however, the chief 
        means of communications with trains is through radio and cell 
        phone telecommunication systems. Such systems do not adequately 
        address reliable train tracking, emergency response efforts and 
        have failed during critical incidents. For example, Amtrak's 
        radio system cannot be used where it does not own track and, 
        therefore, Amtrak radio train communications is dependent upon 
        the host railroad network. Cell phone technology can be 
        limiting and is often dependent upon the footprint of the cell 
        phone provider. Amtrak has also identified the need to 
        significantly upgrade its existing, antiquated GPS system (over 
        8 years old). The GPS system needs to be integrated with 
        Amtrak's central computer system and CNOC to provide the exact 
        location for each train on a minute-by-minute basis. Thus, 
        additional funding in this area is critical and badly needed. 
        Such upgrades and the introduction of satellite telephone 
        communication systems would provide uninterrupted 
        communications.

Fire/Life Safety
    Last, with regard to our ongoing fire/life safety program, there 
are numerous infrastructure projects funded by the existing $100 
million tunnel life safety grant provided in the FY02 Department of 
Defense and Emergency Supplemental Appropriations for Recovery and 
Response to terrorists attacks on the United States (Pub. L. 107-117) 
of which $71 million has been expended. This work is ongoing and 
significant progress has been made.
    Funding is being used to improve radio coverage, wayside 
communication and tunnel portal security. Other components of this 
element are to secure all tunnel access points and improve security for 
trains traveling through this area of the NEC. The nature of 
improvements consists of physical and technology based security 
improvements, such as CCTV, event activated alarm systems, high 
security fencing and lighting, and the strategic placement of vehicle 
barriers. In addition, this tunnel security portion of the plan would 
also include similar upgrades at the Washington, D.C. First Street 
Tunnel and the Baltimore tunnels. Fencing improvements in the area of 
the Baltimore tunnels have already begun through the capital plan and 
fencing improvements are scheduled throughout Amtrak's five-year 
capital plan.
    I hope that this overview has provided you with a better 
understanding of what Amtrak has done, and continues to do, to enhance 
safety for our employees and passengers. I will gladly respond to any 
follow up questions that you may have on rail security.

 STATEMENT OF EDWARD WYTKIND, PRESIDENT, TRANSPORTATION TRADES 
                      DEPARTMENT, AFL-CIO

    Mr. Wytkind. Thank you Mr. Chairman for having this 
hearing. At the outset, I just want to say that we believe, on 
behalf of the employees in the rail industry, that rail 
security in this country and the actions of the Department of 
Homeland Security or I guess, inaction, have been sorely 
lacking. We've heard a lot from the railroads over the years 
and including this morning about action teams, task forces, 
countermeasures and a lot of good sounding initiatives. But, I 
must report that the workers in this industry and their unions 
haven't been enlisted as partners in these efforts.
    Access control at key facilities and infrastructure is 
lacking and security training is basically non-existent. 
Workers are still being discouraged, if not intimidated, from 
reporting safety and security risks and Federal funding in our 
judgment hasn't kept pace with the needs of rail security in 
this country.
    The workers that I have spoken to, inform me that they feel 
no safer or more prepared then they were before 9/11. They feel 
as if too many railroads are getting away with showing videos 
as a substitute for real training and they feel as if the rail 
network hasn't been adequately secured. These are the workers 
that work on the front lines. They don't just talk about 
working, they actually go to work every day and make the system 
as safe and secure as possible.
    I want to thank you, Mr. Chairman and the Members of this 
Committee for your introduction of S. 1052. The rail title is 
especially comprehensive and will address a number of serious 
security issues in the rail system. We've heard from Mr. 
Hamberger about our workers being the eyes and the ears of the 
system but the railroad companies are failing to give these 
workers the tools they need to be those eyes and ears. Let me 
be clear, the workers are not receiving the training that you 
are hearing about today. I'm still puzzled by the TSA's 
testimony about all these front line workers being trained 
because they, themselves have been slow in moving security 
training initiatives. Our members at one of the freight 
carriers told us just a few days ago that they get a 14-minute 
video at best, maybe once a year. I've seen one of the videos 
and it does little to prepare workers. It offers vague and 
often very conflicting guidance and one video actually told the 
workers not to overreact but not to under-react. I'm just kind 
of wondering what that means. They don't know what a security 
risk is, they are being told to be vigilant but they have no 
idea what these so called ``countermeasures'' the railroads are 
putting into place mean and how they apply to their lives as 
workers.
    Perhaps worst of all, the initiatives that the industry has 
instituted since 9/11 have had no involvement by the unions and 
their members in the rail industry. Front line workers are in a 
position to spot security risks. Every witness will tell you 
that, including those in the government. They are the first on 
the scene along with firefighters and police. We have come to 
the conclusion that the only way that the workers will be 
trained is for the government to be told that they will 
institute regulations and for the carriers to have to abide by 
those regulations. It's not enough for the railroads to pay 
experts to provide very nice Power Point presentations. If the 
workers are not getting the training done at the rank and file 
level then it doesn't make a difference. I'm here to tell you 
that four years after 9/11 it's not happening and we believe 
it's a disgrace.
    I want to commend you Chairman Stevens, Senator Inouye and 
others for including Section 310 in the legislation which will 
bring real training to the workers. But, I must caution that 
oversight will be badly needed because the Department of 
Homeland Security has been badly delinquent in fulfilling 
Congressional mandates that this Committee instituted to force 
flight attendants training on the air carriers. The railroads 
have told you this morning that the training is unnecessary, 
they claim that they are working with the National Transit 
Institute to develop a program. They are missing the point. It 
doesn't matter how good the program is, we know NTI does a lot 
of good work in public transportation but the training 
curriculum is useless if it doesn't get down to the local 
level. My rail union leadership told me that they didn't even 
know about the NTI program that's being peddled this morning, 
until it arrived in the mail coincidentally this week, right 
before today's hearing.
    I know that my comments conflict with Mr. Hamberger's, but 
they are based on personal assessments by workers and their 
union reps that know what the vulnerabilities are in the rail 
system. And we hope that the Committee will reject the 
industry's pleas to water down or eliminate these worker 
training requirements because the provisions in your bill will 
really make a huge down payment in that effort.
    I'll summarize by saying that we think the system itself 
needs to be better secured as well. I've heard too many stories 
from too many local workers and union reps about locomotives 
being left with no one around, about the ability to waltz in 
and out of rail facilities and about the ability to trespass 
with really very little resistance from the railroads. And in 
regards to Amtrak, that's also a problem but I believe that 
Amtrak has a resource problem, I believe that Amtrak wants to 
try to deal with the security concerns but the workers are 
being left untrained. A lot of them aren't even credentialed 
and the resources that Amtrak is dedicating to security is just 
this tiny down payment for what the railroad actually needs.
    So, I'm happy to work with this Committee to try to get a 
strong rail security bill passed but I think something needs to 
be understood. The railroads are not providing the training 
that is so urgently needed. The resources Amtrak is getting are 
not enough to deal with security and it's very important in my 
judgment that the Department of Homeland Security has to be 
held accountable for the lack of action and attention rail 
security has recorded. Thank you and I'm happy to answer any 
questions you have.
    [The prepared statement of Mr. Wytkind follows:]

Prepared Statement of Edward Wytkind, President, Transportation Trades 
                          Department, AFL-CIO

    Chairman Stevens, Co-Chairman Inouye, and Members of the Committee, 
on behalf of the 29 affiliated unions of the Transportation Trades 
Department, AFL-CIO (TTD), I want to thank you for giving 
transportation labor an opportunity to testify today on our priorities 
and strategies for enhancing rail security. \1\
---------------------------------------------------------------------------
    \1\ Attached at 1 is a complete list of TTD's affiliated unions.
---------------------------------------------------------------------------
    This hearing occurs at an auspicious time. Having just observed the 
fourth anniversary of the September 11, 2001, terrorist attacks on 
America, we are reminded again that rail security measures--both in the 
transport of passengers and freight--have been sorely lacking. The 
brutal attacks in the passenger rail systems of London and Madrid 
served as the most recent wake-up call, but in reality we have long 
known that rail transportation is a tempting target for those that wish 
this Nation harm. Unfortunately, beyond vague warnings by the 
Administration, and promises of action by the rail industry, little has 
actually been done. Vulnerable rail targets have not been hardened, 
access control at key facilities is lacking, security training is 
basically non-existent, workers are still being discouraged from 
reporting safety and security concerns, and Federal funding has not 
kept up with the immediate security needs of this vital sector of our 
transportation system.
    Last month, the new head of the Transportation Security 
Administration told a Senate committee that the state of transit 
security was, and I quote, ``outstanding.'' Echoing this assessment, I 
am sure that freight rail industry representatives will trot out fancy 
reports and charts supporting their claims that much has been done to 
secure our rail transportation system. We will hear about ``action 
teams,'' task forces, ``countermeasures,'' daily security briefings, 
worker training and a whole host of wonderful initiatives. And we will 
hear about the industry's partnering activities with others in the 
private sector and government. Unfortunately, I must sadly report that 
workers and their unions have been left in the dark about these 
activities and the railroads have not enlisted their employees as 
partners in this endeavor. In fact, the workers I have spoken to inform 
me that they feel no safer or more prepared than they were before the 
September 11 attacks. This situation has gone on for too long and is 
simply unacceptable. We need to get serious about rail security and we 
need leadership from Congress to address the critical areas of concern 
that workers and other stakeholders have so readily identified.
    On this point, I want to thank you Chairman Stevens, Senator 
Inouye, the Co-Chairman of the Committee, and the other Senators who 
have joined with you in introducing the Transportation Security 
Improvements Act of 2005 (S. 1052). While there are some changes we 
would like to see to this bill, the product you have offered is 
comprehensive and would address a number of security vulnerabilities 
across the various modes of transportation, including of course the 
rail sector.
    When you remember the size and scope of our rail system and 
infrastructure, the lack of attention and focus on security is hard to 
understand or accept. \2\ In addition, we must recognize that given the 
open nature of our rail transportation network, we are never going to 
be able to secure it entirely, since, unlike aviation, it simply is not 
housed in a relatively closed or contained infrastructure. Indeed, 
inter-city and commuter rail is designed to be accessible and at least 
part of its appeal is this relative ease of use.
---------------------------------------------------------------------------
    \2\ There are over 100,000 miles of rail in the U.S.--22,000 of 
miles of it used by Amtrak in 46 states and the District of Columbia. 
In 2004, Amtrak served 25 million passengers, or approximately 68,000 a 
day. Commuter rail operations add approximately 978,000 passenger trips 
each weekday. The freight rail carriers carry 42 percent of our 
Nation's domestic intercity freight and in 2002 alone over 109 million 
tons of hazardous material.
---------------------------------------------------------------------------
    Given these facts, it is absolutely imperative that we take the 
steps that can be implemented and that are compatible with a system 
that is so critical to our national economy. I will concede that we 
can't build a fence around every train track in America. But we can 
train workers and leverage technology to better monitor and control 
this vast infrastructure. We may not be able to screen every passenger 
at every station, but there is simply no reason, not one, that workers 
should be discouraged, or discriminated against, for speaking out on 
security.

Treating Employees as Partners
    We need to start treating front-line employees as true partners in 
the effort to protect our rail system. These workers greet passengers, 
sell tickets, operate and staff the trains, maintain and inspect track 
and equipment, dispatch trains and fix cars. In short, they are in an 
excellent position to spot security risks and terrorist threats. And in 
the event that an attack does occur, our members will be on the scene 
and the first to respond along with firefighters and police.

Security Training
    Let me be extremely clear about this point--despite the claims of 
some in industry, workers are not receiving meaningful security 
training. Our members at one freight carrier have told us that at best 
they get a 14 minute video--maybe once a year, but maybe not. And one 
local leader reported that new hires don't even get to see the movie. 
Mr. Chairman, I have seen this so-called training video and there's 
only one problem--it does virtually nothing to prepare a worker on how 
to address security problems. It offers vague and often conflicting 
guidance. My personal favorite is when it instructs workers, in dealing 
with a person on the property who is not supposed to be there, to not 
overreact, but also not to underreact. What does that mean? Workers 
still do not know what constitutes a security risk, though they are 
told to be ``vigilant.'' They do not know how to respond when they do 
see someone or something suspicious and they certainly don't know what 
to do if something actually happens. I realize that my comments 
conflict with those of Mr. Hamberger. But I am offering my observation 
to this Committee based upon personal assessments by rank-and-file 
workers and local leaders who understand their railroad property and 
its vulnerabilities and know first-hand how little is being done to 
deal with security risks.
    It is well known that real training is effective. We know this from 
positive experiences in the safety arena and experts confirm that it is 
even more crucial in security. Rafi Ron, former Director of Security at 
Tel-Aviv Ben-Gurion International Airport told a Senate committee last 
month that behavior pattern ``techniques implemented by trained 
security and non-security personnel have proven to be a valuable 
measure in the detection and prevention of terrorist attacks in public 
faculties.'' Ron went on to observe ``training provides the skills and 
confidence not only to law enforcement officers . . . but also to 
employees who are present at every point in the system. No one is in a 
better position to recognize irregularities on the ground than the 
people who regularly work there.''
    The Volpe Center recently concluded that ``probably the most 
significant factor in determining whether a transportation employee 
makes a helpful or harmful decision during an emergency is training. 
Trained and alert transportation professionals can make the difference 
between success and disaster. Characteristics such as acting 
responsibly to protect the lives of the public; keeping one's cool and 
keeping passengers calm; contacting emergency assistance authorities 
quickly and reporting the essential details accurately; working 
cooperatively as a member (and sometimes a leader) of a team with a 
common goal--can all be enhanced through proper training.''
    These observations and conclusions are not surprising--it is quite 
frankly common sense that a robust and consistent training regime is a 
cost effective way to enhance rail security. Unfortunately, employers, 
under profit and operational pressures, too often short-change this 
critical security component. We have come to the conclusion that the 
only way workers are going to get the security training they need is 
for the Federal Government to come in and tell the carriers that they 
must offer this training because it is too important to ignore. It is 
not enough for the railroads to pay experts to develop nice reports 
unless the materials developed are delivered to the employees in the 
form of a comprehensive, mandatory training program. That is not 
happening today and we believe this is a disgrace.
    On this point, I want to commend Chairman Stevens and Senator 
Inouye for including a provision (Section 310) in S. 1052 that would 
accomplish this objective. Specifically, Section 310 would require DHS, 
within 60 days of enactment, to develop and issue detailed guidance for 
a rail worker security training program. The guidance issued by DHS 
will require a training program that would encompass a number of 
appropriate elements including crew communications and coordination 
activities; evacuation procedures; use of protective devices; live 
situational training exercises and ways to determine the seriousness of 
any situation. Sixty days after DHS issues these guidelines, each rail 
carrier is required to develop a training program and submit it to DHS 
for review and approval. DHS may also require the rail carrier to make 
revisions to the training program that the Secretary considers 
necessary to ensure that the program meets the guidance requirements. 
The carrier will then have 180 days to complete the training of all 
front-line workers in accordance with the DHS approved program.
    I have little doubt that some in industry will complain that this 
program is too burdensome and that they should be allowed to institute 
training on their schedule. I am also sure that some rail carriers will 
claim that since training is already being done, that this Committee 
should simply stand down and allow industry to proceed on its own. We 
hope you will reject those pleas for more inaction. As I have stated, 
we have talked to too many front-line workers who dispute the 
industry's claims to allow this fiction to perpetuate any longer. 
Comprehensive security training must be mandated, and it must be 
instituted as soon as possible. I applaud you Mr. Chairman and Senator 
Inouye for recognizing this fact and I urge the Committee to retain 
this provision as your bill moves through the legislative process.

Providing Whistleblower Protections
    We must also ensure that workers who report or identify a security 
risk will not face retribution or retaliation from their employers. 
Simply put, a rail worker should not have to choose between doing the 
right thing on security and his or her job. Unfortunately, too often 
this is exactly what occurs.
    Rail workers and their unions have long argued that despite the 
whistle-blower protections included in current law (49 U.S.C. 
Sec. 20109), employees still experience employer harassment and 
intimidation when reporting accidents, injuries and other safety 
concerns. Indeed, in a Federal Railroad Administration (FRA) report 
issued in July 2002 entitled An Examination of Railroad Yard Workers 
Safety (RR02-01), the FRA conducted focus group interviews with certain 
groups of rail workers. The FRA stated, ``Perhaps of most significance, 
rail labor painted a generally adversarial picture of the safety 
climate in the rail industry. They felt that harassment and 
intimidation were commonplace, and were used to pressure employees to 
not report an injury, to cut corners and to work faster.''
    Section 311 of S. 1052 does attempt to address this problem by 
providing certain whistleblower protections for workers who report 
security concerns. While this provision is a step in the right 
direction, and I want to thank Senator Lautenberg for working with us 
on this issue, it needs to be strengthened to provide workers with a 
fair and expedited process to seek redress in whistleblower situations. 
In addition, if we are ever going to stop discrimination against 
workers who report security problems, penalties and fines must be 
increased to create a real deterrent and not just make violations a 
cost of doing business.
    I should note that as part of the Sarbanes-Oxley Act, Congress, on 
a bi-partisan basis, included whistle-blower protections for those who 
report shareholder fraud violations or violations of Securities and 
Exchange Commission rules. (See, 17 U.S.C. 1514A). Surely, if we can 
protect whistleblowers who report financial security problems, we can 
also protect those who report rail security concerns.
    Everyday, rail carriers and the government ask front-line workers 
to be more vigilant about security risks and to report possible 
breaches. With the right training, rail workers are more than happy to 
play this role. But it is disingenuous to ask workers to report 
problems and at the same time refuse to provide the basic protections 
needed to ensure that such reporting will not result in employer 
retribution.

Securing Rail Facilities
    Our members are also increasingly concerned that rail yards and 
facilities are largely open areas where people can come and go 
virtually unchallenged. In general, we need to ensure some type of 
security perimeter around yards and other sensitive facilities and 
better access control. Indeed, I would note that shortly after the 
Madrid attacks Amtrak issued a security notice reminding employees to 
wear their identification badges despite the fact that, according to 
reports from workers we have received, many employees have still not 
actually received their credentials. This of course raises the question 
of how access control is being achieved in those situations.
    On a related issue, we need procedures and technology in place to 
better monitor and protect tracks, signals and switches. Given the 
amount of hazardous material that is moved by our rail system, it does 
not take a lot of imagination to see how a terrorist could sabotage key 
points in our infrastructure to create a deadly accident. Signal 
systems and track switches are too easy to manipulate and access to 
these systems must be better controlled.
    When problems are spotted, our members are told to contact 
appropriate security personnel. The problem (besides the fact that 
there is no training or set procedures on who to contact) is that in 
many instances, especially in rural areas, security guards are often 
not on the property and many miles away. In fact, one rail worker 
stationed out West recently told me that the carrier had one security 
person to contact during emergencies covering a 1,000 mile territory. 
And yet we can't seem to convince our employers that front-line workers 
need training on what to do when there is a security threat and 
security personnel are not available to immediately respond.
    In general, we are increasingly concerned with the lack of security 
with respect to the transport of hazardous materials. Tank car 
integrity standards are critical and out-of-date equipment must either 
be brought into compliance or retired. While not the work of 
terrorists, the tragic accident in Graniteville, South Carolina, where 
nine people died, 310 required medical attention and 5,400 residents 
were forced to evacuate, was a stark reminder of the consequences of a 
hazardous material release. And just last Saturday, two Union Pacific 
trains collided in Texarkana, Arkansas, releasing propylene and leading 
to a massive fire and explosion. Simply put, rail transportation is a 
dangerous business on a normal day. In the post-9/11 environment the 
challenge of protecting the Nation from terrorist threats directed at 
rail transportation multiplies.

Amtrak Security
    Let me say a word about rail security as it relates specifically to 
Amtrak. It is no secret that every year Congress provides Amtrak just 
enough funding to limp through another fiscal crisis. In this 
environment, it is impossible for our Nation's national passenger 
carrier to invest the capitol resources needed to make major 
improvements to rail security. This starvation diet that we have put 
Amtrak on must end; not only because it represents bad transportation 
policy, but because it creates security issues and problems that are 
unacceptable. Again, on this point, let me note the leadership of 
Chairman Stevens, Chairman Lott, Senator Lautenberg and others who have 
pushed this Committee to approve a multi-year reauthorization bill and 
have led the fight in the annual appropriations process that is still 
ongoing as we speak.
    Clearly, Amtrak needs stable, long-term resources to shore up its 
financial challenges. But in the context of security, we cannot expect 
Amtrak to fend for itself while we spend billions addressing so many 
other aspects of homeland security and the war on terrorism. We have 
always believed that transportation security is an integral element of 
our homeland security efforts and publicly supported transportation 
systems like Amtrak deserve adequate Federal resources to protect their 
passengers, workers and the public from terrorist threats.
    There has also been a lot of talk, both from Amtrak and the 
Administration, about the need to contract-out as many Amtrak services 
as possible and to privatize parts or all of the system. Again, we have 
serious transportation policy reasons why these proposals should not be 
adopted and I will not expand on them at this hearing. But let me also 
point out that in-house employees are known quantities that in many 
cases have security responsibilities they must perform. If these 
functions are contracted-out, as they already are in some areas, it 
calls into question how these functions will be handled and makes it 
that much more difficult to reliably control access to train 
operations.

Final Thoughts
    Achieving rail security is of course not a simple task. But we 
cannot allow this challenge to go unmet any longer. Four years after 9/
11 and in the wake of deadly attacks in London and Madrid, our 
government and rail employers are still not doing enough to make rail 
transportation as secure as possible. Rail security needs and deserves 
attention and focus from policy makers. Carriers must be required to 
follow security procedures, employees must be trained and afforded 
whistle-blower protections, and rail yards, facilities, tracks, 
equipment and signal system must be secured. All of transportation 
labor has a vested interest in improving rail security and Mr. Chairman 
and Co-Chairman Inouye, TTD stands ready to work with you to achieve 
this common agenda.
    Thank you again for giving TTD an opportunity to share our views 
today.
                             TTD Affiliates
    The following labor organizations are members of and represented by 
the TTD:
        Air Line Pilots Association (ALPA)
        Amalgamated Transit Union (ATU)
        American Federation of State, County and Municipal Employees 
        (AFSCME)
        American Federation of Teachers (AFT)
        Association of Flight Attendants-CWA (AFA-CWA)
        American Train Dispatchers Association (ATDA)
        Brotherhood of Railroad Signalmen (BRS)
        Communications Workers of America (CWA)
        International Association of Fire Fighters (IAFF)
        International Association of Machinists and Aerospace Workers 
        (IAM)
        International Brotherhood of Boilermakers, Blacksmiths, Forgers 
        and Helpers (IBB)
        International Brotherhood of Electrical Workers (IBEW)
        International Federation of Professional and Technical 
        Engineers (IFPTE)
        International Longshoremen's Association (ILA)
        International Longshore and Warehouse Union (ILWU)
        International Organization of Masters, Mates & Pilots, ILA 
        (MM&P)
        International Union of Operating Engineers (IUOE)
        Laborers' International Union of North America (LIUNA)
        Marine Engineers' Beneficial Association (MEBA)
        National Air Traffic Controllers Association (NATCA)
        National Association of Letter Carriers (NALC)
        National Federation of Public and Private Employees (NFOPAPE)
        Office and Professional Employees International Union (OPEIU)
        Professional Airways Systems Specialists (PASS)
        Sheet Metal Workers International Association (SMWIA)
        Transportation Communications International Union (TCU)
        Transport Workers Union of America (TWU)
        United Mine Workers of America (UMWA)
        United Steel, Paper and Forestry, Rubber, Manufacturing, 
        Energy,
        Allied Industrial and Service Workers International Union (USW)

    The Chairman. Thank you very much, I would urge the 
gentlemen to be precise in your answers because we are limited 
on time.
    Matter of fact, there's two amendments on the floor right 
now that affect my state and I'm anxious to get this hearing 
over. But, Mr. Hamberger, you've alluded to some confusion as 
to whose in charge, TSA or FRA, who do you think is in charge 
and who should be in charge?
    Mr. Hamberger. I believe that TSA should be in charge of 
security, and FRA in charge of safety. The two, however, 
overlap. As you heard in the first panel, a tank car could 
involve a safety issue, it could also raise a security issue. 
So, I think there needs to be better coordination. I think 
Secretary Hawley and Mr. Boardman have undertaken that and have 
had a series of meetings. Within the Department of Homeland 
Security itself, however, there is still, and I think Mr. 
Hawley alluded to it this morning, there needs to be a single 
point of contact for the industry. We hear from the Information 
Analysis and Infrastructure Protection Group, from the Coast 
Guard, from TSA, from different organizations within DHS coming 
to our members and asking for oftentimes overlapping requests 
for data. There just needs to be a single point of contact. 
We've met with Secretary Hawley on that and I think he is 
moving in that direction.
    The Chairman. Mr. Crosbie, I'm sure we're going to hear 
more about the needs of Amtrak, but has the Board explored 
increasing the cost to the passengers instead of totally 
requesting additional Federal money to meet the improvements 
you've mentioned?
    Mr. Crosbie. As I understand it, it was before my time at 
Amtrak, it was considered post 9/11 and there was a significant 
push back from some of the state governments on adding a 
security fee.
    The Chairman. Well, I remember right after 9/11 going to 
Nome and finding TSA in the terminal there at the small 
airport. They had taken over a third of the terminal, which has 
been paid for by the state and the city. They were charging 
passengers more money to provide security. Why is it that rail 
transportation has not been willing to step up to the plate and 
ask the passengers to pay part of the security and safety 
costs?
    Mr. Crosbie. We, within Amtrak, we've certainly considered 
doing that and in the past when we had proposed, like I had 
said, there was a significant resistance to implementing that. 
We haven't ruled it out entirely, but based on the past 
response, we haven't considered it further.
    The Chairman. Am I right that your number of passengers has 
increased since 9/11?
    Mr. Crosbie. Yes.
    The Chairman. Substantially?
    Mr. Crosbie. Sorry, sir.
    The Chairman. There's been a substantial increase?
    Mr. Crosbie. Substantial, yes, it has been.
    The Chairman. Mr. Wytkind, I appreciate your comments about 
Senator Inouye's and my involvement in this bill and I 
understand what you're saying about training. One of the 
problems is, when I think of some of the airline unions, 
they've been very much involved in training themselves. Why 
haven't you?
    Mr. Wytkind. Well, actually they have been and that's 
actually a good example of the problem. In the hazardous 
materials area, the rail unions have had a very robust hazmat 
training program that actually receives some Federal support. 
But, when we've tried to approach the railroads to participate 
in that program and perhaps even help us finance it so that it 
has the support it needs, we've met a lot of resistance. And 
any attempts we've ever made to strengthen training for workers 
or to have them covered by certain safety regulations, we've 
always met with resistance from the railroads. Anytime safety 
re-authorization legislation has been pending in this 
Committee, we've met resistance from the railroads.
    So, my message to you is, I think the rail unions have a 
strong track record of delivering training to their members 
under very limited resources. I would submit to you, that given 
the sheer size of the workforce in the country and the amount 
of responsibility that they bring every day to work, to the 
job, that they need the support to make sure they're prepared. 
When I hear local union reps tell me things like our members 
don't feel any more prepared today than they did 4 years ago, 
before 9/11, that brings chills down my spine and I'm sure to a 
lot of other people.
    The Chairman. I don't know if you know, but I probably 
carried a union card longer than anyone in the room. But, as a 
practical matter, I understand that when your people are laid 
off they automatically continue to receive full pay. There's a 
real question about the retirement and layoff costs of labor in 
terms of these railroads, particularly Amtrak. What do you say 
about that?
    Mr. Wytkind. I don't think those issues are applicable to 
security in the sense that----
    The Chairman. It takes money away from the system.
    Mr. Wytkind. Well, the Congress has affirmed and reaffirmed 
its very strong support for the railroad retirement system that 
the rail employees are covered by, including the railroads 
themselves that have always supported it. So, the costs on the 
system for retirement, to me, are unrelated to whether we 
should be training workers at the rank and file level.
    The Chairman. Thank you very much. We'll go by the early 
bird rules so, we have Senator Lautenberg's, Senator 
Lautenberg, I have a call from the Co-Chairman, I'll be right 
back. Would you proceed?
    Senator Lautenberg. [presiding] Thank you very much. The 
concerns that we have about rail security loom largely in front 
of us, and yet we hear--well, in one instance--that the private 
sector will provide it. And in response to a question I asked 
about oversight and providing the appropriate budget for rail 
security review by the Federal Government, we were told that--
well, we have standby personnel, we have Air Marshals, we have 
people--they are going to be called upon long after the fire 
has begun. They can't suddenly switch from the Air Marshal 
population over to the railroads. The problem, Mr. Wytkind, is 
that we know that Amtrak is under funded to begin with. It is 
difficult to compare with the airline situation, with its 
repeated bankruptcies that we're called upon to bail them out 
of. Also, the infrastructure and operations that provide our 
great aviation service that we have in our country are largely 
supplied by the Federal Government, looking at much of the FAA 
and the other government services that are connected with 
aviation. Amtrak has never been able to get its head above 
water, because from the day that Amtrak became a corporation on 
its own being, we work with the same old equipment, we work 
with the same old systems, we work with a constantly reduced 
level of funding and once and for all, we're going to have to 
take a plunge. And that plunge is going to say that we are 
going to upgrade things, that we are going to buy cars that are 
better than 40- or 50-year old ones and locomotives as well and 
make the investment that so many other countries make.
    And we see it, for instance, in Germany with maybe $7-10 
billion dollars a year going into their system and if you take 
a ride on it, you'll know where it's going. The TGV in France 
will take you from Brussels to Paris at an hour and 20 minutes 
for a 200-mile ride. If we supply that kind of service here, we 
could reduce congestion in our aviation system that now has us 
late for appointments, et cetera. So, I think that we have some 
opportunities to take a realistic look at where we go here and 
I'm appreciative of the commentary that we've heard from our 
witness and I'm sorry that I wasn't here at an earlier point.
    Mr. Wytkind, one of the things that we noticed is the 
substantial increase in violations of the Federal hazmat worker 
training laws and you talked extensively about that and I 
commend you for it. Now, I worked with the Committee to almost 
double the minimum civil penalty in law for these types of 
violations. You talked about how important hazmat training is 
to running a safe and secure railroad. What do you think we 
ought to do? Should the government take the responsibility 
directly, for training these people? Should that be a part of 
the TSA responsibility to do that? How do we get an assurance 
that these people are receiving sufficient training?
    Mr. Wytkind. Thank you for that question. I think we 
separate freight from Amtrak in a couple of ways but, overall I 
think you need strong training mandates the way this Committee 
has provided mandates in the airline side and then you need 
strong oversight to make sure the Department of Homeland 
Security actually carries out its mandates. Because that's part 
of the problem. This Committee mandated flight attendant 
security training after 9/11 and to this day TSA has not 
provided the kind of guidance that you asked for in this 
Committee or actually directed the TSA to do so. But I think 
the issue for Amtrak is one of resources and the mandate on 
Amtrak, if it doesn't also correspond to some financing and 
support for security upgrades across the board, including 
training, we're afraid that it's not going to get down to the 
rank and file level.
    On the freight side, these are very cash rich companies 
that spend enormous sums of money on operations, efficiencies, 
infrastructure and as we've heard this morning, obviously on 
some security or maybe a lot of security. What we would argue 
is that if you put the mandate in the law, like you have in the 
current bill pending for this Committee, then the railroads 
will be required to finally make sure that their rank and file 
workers are getting trained. I think it's that simple but it 
requires a strong mandate out of this Committee and then it 
requires strong oversight of the DHS to make sure they actually 
carry out their regulatory responsibilities. Thank you.
    The Chairman. Thank you, Senator. Senator Rockefeller?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman. I'm giving 
myself double coverage in hopes that I might be heard. Let me 
ask Mr. Hamberger, it hasn't been gone into deeply here but, I 
think you made in your statement something which maybe 
harbingers what you may be going for later on and that is to 
have the Federal Government deciding what chemicals are safe to 
carry and which ones aren't. Now, a number of years ago, I 
guess it was after the Exxon Valdez thing, all ships had to 
double hull. You have some presumably in stock that are double-
hulled. Explain to me why all of your stock is not double-
hulled, even under the circumstances in which the chemical 
companies, which I am very, very sorry, are not represented 
here today because that precludes us from having a good 
discussion. I don't know why they weren't invited but, I regret 
that. Why is it that you just can't double hull or whatever is 
the corresponding guarantee of safety that the shipping 
industry went through.
    Mr. Hamberger. I appreciate that question Senator because 
it is a very important issue. In fact, I was a little late for 
the hearing this morning because we had a conference call with 
members of the American Chemistry Council (ACC) to discuss the 
fact that in my testimony, there is a sentence that says long-
term, it should be a policy to look for safer chemicals. It is 
a little bit of a different issue from the double hull because 
this is really more of a security issue than a safety issue. We 
can require tank cars to double hull, we can do everything 
possible but, there is no way long term to ensure against a 
terrorist attack. The only way to ensure that a community 
through which hazardous material is moving is safer, would be 
to have that hazardous material be less toxic.
    Senator Rockefeller. Do you routinely use GPS and other 
systems to always----
    Mr. Hamberger. About 45 percent of the locomotives do have 
GPS. We're moving to 100 percent.
    Senator Rockefeller. On all of those that carry chemicals 
that are potentially in danger, are they covered by the GPS?
    Mr. Hamberger. I don't have the answer to that.
    Senator Rockefeller. Isn't that fairly important?
    Mr. Hamberger. I just don't know the answer.
    Senator Rockefeller. Yes.
    Mr. Hamberger. But we do have the immediate capability of 
locating all locomotives.
    Senator Rockefeller. You all make a lot of money and I know 
that you always declare yourselves revenue inadequate, we won't 
get into that today.
    Mr. Hamberger. Thank you.
    Senator Rockefeller. But, I look forward to having your 
annual reports. But, the chemical companies are merging and 
having all kinds of problems. Now, not to the extent that the 
airlines are. Railroads are an absolute necessity for this 
country.
    Mr. Hamberger. Yes, sir.
    Senator Rockefeller. This country could not exist without 
them. So, two questions. One, why doesn't industry just go 
ahead and double hull or whatever the proper word is, as a 
matter of course? Because nothing has changed since 9/11 
fundamentally. Part of that is the Federal Government's report, 
I mean, the report we were meant to have gotten and still 
hasn't arrived, which doesn't speak very well for us but, why 
can't you go ahead and do something which doesn't, you know, 
somebody puts a bomb underneath the track, double-hull isn't 
going to do it or whatever the comparable thing is. But, there 
are ways of racheting up.
    Mr. Hamberger. Yes, sir.
    Senator Rockefeller. Safety which can help----
    Mr. Hamberger. And in fact we are working very closely with 
the tank car manufacturers and ACC in determining whether or 
not there is a safer design. We are taking a close look at that 
and we're not going to mandate that but----
    Senator Rockefeller. What does that mean? I mean, you know 
that if you have two layers of hard metal around something it's 
going to be safe, so what does it----
    Mr. Hamberger. Well, frankly Senator, that has cost 
implications for our customers, the chemical companies. The 
fact that we have moved 99.998 percent of the hazardous 
materials without accidental release calls into question 
whether or not that meets the cost-benefit test. There are 
about 12,000 tank cars out there. It would cost $1.2 billion to 
replace the fleet and so you want to make sure that the cost-
benefit analysis is observed.
    Senator Rockefeller. Is the cost-benefit analysis which 
ultimately resolves what the railroad car safety matter will 
look like?
    Mr. Hamberger. Obviously, if we were to make the skin of 
the car 2-3-4 inches thick, it would be much safer. But then 
the payload would be much less. So, there is that balance. And 
it is the chemical companies, as you know, who own the cars. We 
have to work with them in determining what is the appropriate 
standard.
    Senator Rockefeller. Well again, $1.2 billion is a lot of 
money. On the other hand, if you have an explosion because you 
have 99.998 percent--in the Intelligence business, that doesn't 
impress anybody because it's always the .2 percent.
    Mr. Hamberger. Yes, sir.
    Senator Rockefeller. Which is going to happen. So, you're 
betting the farm on something not happening because it hasn't. 
Well, I mean, we've got reams of studies about 9/11 which 
proved that was not a very forward-looking aspect in terms of 
national security and what could we have done and people have 
come up with all kinds of answers. But, I really think that 
it's going to cost us money and therefore we shouldn't do it, 
even though you agree that it would make it safer is a little 
difficult for me.
    Mr. Hamberger. I appreciate that input Senator. I will take 
that back to the tank car committee and when we get push-back 
from the chemical companies and tank car manufacturers, I'll 
invoke this conversation.
    Senator Rockefeller. Can I go to that tank car committee 
meeting too?
    Mr. Hamberger. We'd love to have you.
    Senator Rockefeller. OK, now Mr. Wytkind?
    Mr. Wytkind. Yes?
    Senator Rockefeller. Do you think----
    The Chairman. Could we move along a little bit?
    Senator Rockefeller. I'll stop.
    The Chairman. We have each taken 5 minutes.
    Senator Rockefeller. Well then, I'll stop.
    The Chairman. Do you want to ask your question?
    Senator Rockefeller. No, not if it breaks the 5-minute 
rule.
    The Chairman. Senator Nelson?

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Ben Nelson. Thank you, Mr. Chairman. Mr. Hamberger, 
I understand that before I arrived this morning that you made 
reference to the importance of getting TRIA, Terrorism Risk 
Insurance Act reenacted this year, re-authorized or put in 
place for the future. I share that view and I hope that we will 
be able to get the support that we need to get that in place.
    Mr. Hamberger. Thank you, Senator.
    Senator Ben Nelson. In the Committee's bill, it focuses on 
threats about high hazard materials and a lot of the discussion 
this morning has already been about that and there have been a 
number of recent accidents, as we know, South Carolina and 
Texarkana. It all reminds us of the dangers that an accident 
that involves toxic chemicals can really present to the public 
at large. Particularly those that are somewhere in the 
proximity of rail traffic. If you were required as S. 1052 
contemplates to develop threat mitigation plans for high hazard 
hazardous materials traveling in specific rail quarters in a 
high threat area such as Washington, D.C., can you tell me why 
the DHS shouldn't have some authority, some relationship with 
the question of the security aspects of it, if not the safety, 
but at least with respect to the security aspects?
    Mr. Hamberger. Before Senator Rockefeller leaves, I would 
like to say that it is indeed a bet-the-farm issue for us when 
we move this material. As I pointed out in my testimony, given 
the limitations on insurance and given that our common carrier 
obligation, requires us to move hazmat, it clearly is a bet-
the-farm situation for our railroads. In fact, Senator, we are 
working with TSA and the Department of Homeland Security in 
developing risk-assessments for high hazardous materials 
corridors. Four, I believe, have been completed for Washington, 
New Orleans, Cleveland and New Jersey. We will continue to work 
with them to identify the risks and then put in place 
countermeasures for those corridors where high hazardous 
material does move.
    Senator Ben Nelson. Well, I have talked to some of your 
members and I know that there is a significant interest on 
their part to make the rail traffic safer and more secure.
    Mr. Hamberger. Yes, sir. And I think one of the questions 
is, once, if a plan is adopted and reduced to a regulation or 
has to go through a governmental approval process to change, 
then we believe we will not be as nimble as we need to be. For 
example, using Rita and Katrina as examples, our members acted 
immediately to detour materials out of the hurricane area up 
through Memphis and Kansas City. We want to work with the 
agency to develop the plan, but not have it as a mandate or 
regulation that would require an approval process before we can 
implement change based on intelligence we might get from the 
National Joint Terrorism Task Force, for example.
    Senator Ben Nelson. Now, the rail industry hauls various 
pieces of equipment on the track, some of which may belong to 
the rail industry but, some of which may not belong to the rail 
industry. Who owns the tank cars that Senator Rockefeller was 
asking about, for example?
    Mr. Hamberger. The tank cars are owned by the chemical 
companies or by a leasing company that leases them to the 
chemical companies. We do not own them.
    Senator Ben Nelson. So they are, as opposed to let's say 
box cars?
    Mr. Hamberger. That is correct. We own a substantial amount 
of the box car traffic or the gondola traffic cars but, none of 
the tank cars.
    Senator Ben Nelson. Mr. Crosbie, in conjunction with the 
cost of security and who pays for the cost of security, 
obviously, with respect to air traffic, there's an addition to 
the ticket, $2.50 per segment for air travel. What kind of a 
push back could you possibly get by adding that kind of a 
surcharge, if you will, or security charge as more properly 
described, what kind of a push back could you possibly get for 
adding some of the cost of security for travelers?
    Mr. Crosbie. We have one that occurred, I'd say that it 
happened before my time with Amtrak, I joined Amtrak in 2003, 
January of 2003 and at the time, as I understand it, there was 
a push back from the states on basically, increasing the fares 
and you've seen, I think, some of that recently as well on the 
Northeast Corridor related to fares or reductions on discounts 
are sensitive----
    Senator Ben Nelson. Nobody likes the security charge on the 
airline tickets, we've had discussions here about the fact that 
if you travel non-stop from Washington to L.A. you paid one 
surcharge and one security charge, if you go where it said to 
stop in between, you have to pay for both segments which could 
be the $5 dollars versus the $2.50 that you pay if you fly non-
stop on a longer journey. I mean there are all kinds of 
questions about it but, it does seem reasonable to expect that 
the travelers would pay part of that security charge.
    Mr. Crosbie. We've certainly considered it.
    Senator Ben Nelson. You certainly didn't have a lot of 
competition to worry about in terms of passenger rail travel.
    Mr. Crosbie. And we can go back and revisit it again. We 
certainly haven't ruled it out, we never have ruled it out. 
But, like I said when we proposed it in the past, it was not 
received well throughout the Northeast Corridor.
    Senator Ben Nelson. I would imagine. I didn't receive it 
very well when they added it to airline travel. But, it's 
always a question of not only how much, but who pays? So, I 
appreciate the fact that you will take another look at that. 
Thank you, Mr. Chairman. My time is up.
    The Chairman. Thank you, I appreciate that line of 
questioning, I've sort of been playing the bad guy here, before 
you got here, Ben. But I do think there has to be some 
examination of this, because there is a limit to how much more 
we can allocate for Federal funds and I think Amtrak is 
vulnerable now, because of the failure to find some way to 
increase revenues, I really do. Mr. Hamberger, I hate to tell 
you, but after the big Valdez disaster, I was the one that went 
to London.
    Mr. Hamberger. Yes, sir.
    The Chairman. And came back and said that the only answer 
was to double-hull those tankers and people didn't like me at 
all. You better listen to these guys. Someone ought to test 
whether double-hulls on these tank cars will provide additional 
security because I think right now the attitude in Congress 
would be to mandate that all of those cars carrying chemicals 
be double-sided. And the only thing that is going to deter that 
would be sufficient proof that it wouldn't make any difference. 
If that won't make a difference then I would urge you to go and 
look and see what we're doing in Iraq by some of the changes 
that are classified as a matter of fact to the tank cars that 
are carrying fuel or the trucks that are carrying ammunition. 
They have new facilities, new ways to improve the safety for 
those people driving those by virtue of changes that have been 
made in country to those tanks and those trucks.
    And, I think Congress right now would be in the mood to say 
that is a risk that should not be, that the cities of the 
country should not be exposed to that risk if it really exists.
    Mr. Hamberger. In fact Senator, we are working on a polymer 
additive at our Pueblo rail research facility, the 
Transportation Technology Center. It was developed for the Iraq 
environment to see whether it can make the tank cars more 
impervious. It is also a self-sealant so that if there is a 
breach, it would self-seal. So, you are absolutely right and I 
appreciate that.
    The Chairman. Thank you very much, thank you all very much 
for coming. I appreciate it and we will continue to consider 
this bill that Senator Inouye and I and others have introduced.
    [Whereupon, at 11:37 a.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Mark Pryor, U.S. Senator from Arkansas

    I would like to thank Chairman Stevens and Co-Chairman Inouye for 
holding this hearing on rail security this morning. It is a very timely 
hearing Mr. Chairman, especially for Arkansas. As many of you have 
read, just last Saturday we had a tragic accident in Texarkana, 
Arkansas. A Union Pacific train coming into station collided with 
another Union Pacific train that was stationary on the tracks in the 
Texarkana rail yard. The resulting explosion killed one Arkansan, 
hospitalized 20 others, destroyed two homes and a rail bridge, and 
temporarily evacuated close to 700 people from their homes.
    The gas that caused the explosion, propylene, is a respiratory 
toxicant that is abundantly produced in this country, typically used in 
the production of plastics and rubber. I am sorry that this accident 
happened, and I don't know the cause. I do know that the Federal 
Railroad Administration and the National Transportation Safety Board 
are already investigating, and I hope they have a report that will tell 
us the cause of this terrible accident soon. I also hope that they will 
keep me informed of the progress of the investigation as it moves 
forward.
    I have a couple of observations I would like to make in regards to 
this accident. First, my thoughts and prayers are with the family of 
the individual who was killed as well as the families whose homes were 
destroyed or damaged as a result of the accident. Second, I would like 
to publicly recognize the first responders of Texarkana who responded 
so quickly to the explosions and kept fires from spreading to many, 
many other homes in the area. This could have been a much larger 
disaster but for their efforts.
    Mr. Chairman, it is time that we ensure governments--local, State, 
and Federal have the plans in place and the resources in place to be 
able to quickly respond to accidents or terrorist attacks throughout 
our rail system. It is too important. Too many people and too many 
essential commodities move through the system each day to ignore the 
risks inherent in the system. The first thing we must do in order to 
put these plans in place is to conduct a risk assessment. You can't 
decide where to spend precious resources unless you know where the 
threats are. I encourage the Transportation Security Administration and 
the Department of Homeland Security to work in coordination with the 
Federal Railroad Administration and Department of Transportation in 
conducting this risk assessment as quickly as possible. After 
performing the assessment, we must move forward to ensure that workers 
are properly trained to recognize safety risks and threats, and we must 
ensure that appropriate technologies are developed and utilized to 
protect our vital rail infrastructure.
    I look forward to discussing rail security with all the interested 
parties, including industry and labor as well as the Administration and 
my colleagues in the Congress. I am happy to be a cosponsor of S. 1052. 
the Transportation Security improvement Act of 2005, and look forward 
to the thoughts of the witnesses on the rail aspects of this important 
legislation. I thank the Chairman and Co-Chairman.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                          Cathleen A. Berrick

    Question 1. The rail provisions of S. 1052 include security 
upgrades, threat assessments, security training, research and 
development, and several other important initiatives, many of which 
were unanimously approved by the Senate last year. What is your 
position on the rail provisions of S. 1052? How can we improve them?
    Answer. Our comments on the rail provisions of S. 1052 pertain to 
those affecting passenger rail operations. In general, we concur with 
the provisions recommending that grants be awarded to upgrade rail 
security. Some of the upgrades identified in the proposed legislation, 
such as implementing public secure awareness campaigns for passenger 
train operations, employee security awareness programs, and emergency 
response training, reflect practices we have observed in our recent 
work on rail security. It will be particularly important, as noted in 
the legislation, for improvements in these areas and others to reflect 
the results of vulnerability and risk assessments conducted by the 
Transportation Security Administration (TSA), the Department of 
Transportation (DOT) and other appropriate agencies that identify 
critical rail assets.
    On the issue of rail risk assessments, we support the creation of a 
task force to ensure that these assessments are completed and critical 
assets and infrastructure and related vulnerabilities are identified. 
It is unclear, however, if the task force is meant to include non-
federal stakeholders such as rail industry associations and regional 
passenger rail agencies. We encourage the inclusion of these non-
federal stakeholders in the risk assessment process to leverage their 
expertise. Consistent with Homeland Security Presidential Directive 7, 
we believe that it is important that these assessments incorporate an 
overall methodology that will enable different rail assets to be 
evaluated on a consistent basis. We also recommend that funds disbursed 
to Amtrak for system wide security upgrades be based on a comprehensive 
terrorism risk assessment and response plan that provides a baseline 
for investment prioritization and decision making. During our review of 
passenger rail security, we observed that Amtrak had not yet completed 
such a system wide assessment.
    With regard to the provision (Sec. 314(b)) instructing TSA to 
review existing DOT regulations to identify areas where regulations 
need to be revised to improve security, we believe that other actions 
may also be taken to strengthen security. Specifically, we believe that 
TSA should review existing rail security regulations, directives, and 
standards and report to the Committee the results of its review of (a) 
an assessment of whether established security regulations, directives, 
and standards are consistent with industry best practices, and (b) a 
plan and schedule for rail inspections to be conducted by rail security 
inspectors. We further recommend, based on unique security practices 
observed in foreign countries during our review, that the Department of 
Homeland Security evaluate the feasibility of establishing and 
maintaining an information clearinghouse on existing and emergency 
security technologies and security best practices used in the passenger 
rail industry both in the U.S. and abroad. We further recommend that 
the Department be required to evaluate the potential benefits and 
applicability of implementing covert testing procedures to evaluate the 
effectiveness of rail system security personnel, practices used by 
foreign rail operators that integrate security into infrastructure 
design, and random searches and screening of passengers and their 
baggage, pending the results of and ongoing joint Federal and industry 
review of the impact of random screening on passenger rail operators.

    Question 2.  During GAO's investigation on passenger rail security, 
did you have an opportunity to review a preliminary version of the 
National Strategy for Transportation Security? Now that it has been 
released, do you think it addresses some of the concerns that you 
identified in your report, particularly your concerns regarding the 
lack of a coordinated plan for rail security?
    Answer. We did not have an opportunity to review a draft of the 
NSTS during our recent audit work on rail security because, according 
to TSA, the document was not available before we completed our work. We 
believe that the NSTS since issued by DHS provides a broad framework 
for conducting transportation risk assessments, and is a first step for 
determining how critical transportation assets are to be evaluated for 
protection. However, we believe that the strategy as written is too 
general to address our concerns about how risk assessments are actually 
to be conducted and how stakeholders are to be involved in the process. 
It is also not clear from the strategy how assets within different 
transportation sectors, such as passenger rail and aviation, are to be 
compared in order to prioritize risks and allocate resources. Nor does 
the strategy include transportation modal security plans, as required 
by the Intelligence Reform and Terrorism Prevention Act of 2004, 
although broad elements of modal strategic plans are discussed. Other 
strategic planning documents that TSA is expected to issue in 2006, 
such as the Transportation Sector Specific Plan, may include these 
specific details not contained in the NSTS. We believe it is important 
that more specific information related to the Department's strategy for 
securing all modes of transportation be developed, coordinated, and 
shared with appropriate stakeholders, beyond what is published in the 
NSTS.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                          Edward R. Hamberger

    Question 1. As the representatives of the major sectors of the 
railroad industry, you live with the challenges of securing your 
railroads everyday. We have tried to craft a bill that will help make 
this job easier. Yet, I'm sure we can do more. Can you tell us which of 
our provisions you feel are most needed and why? If there were one 
thing more we could do in this bill to help you reach your goal of a 
safe and secure railroad and workplace, what would it be?
    Answer. The AAR supports provisions in the bill that call on the 
Administration to develop a comprehensive security plan that includes 
the identification of the most important rail assets and the 
identification of the biggest threats to those assets. In developing 
this plan, the government should use the AAR's Security Plan as its 
basis. Additionally, freight railroads should be able to apply directly 
for rail security grants rather than have to go through the states. The 
AAR also fully support funding for research and the deployment of rail 
security technologies, including automated security inspections, 
infrastructure integrity monitoring systems, emergency bridge repair 
and replacement, communications-based train control systems and tank 
car vulnerability reductions.
    One additional measure that the bill could address concerns the use 
of the National Guard and local law enforcement support to augment 
industry protection of critical infrastructure. To date, railroads have 
been underwriting the cost of security measures for the general public 
and national defense. Protective measures that would be required at the 
highest alert levels could not be sustained by the rail industry alone. 
Rail security legislation could make clear that states would be 
reimbursed by the Federal Government for costs associated with 
increased protection of critical rail infrastructure assets under 
heightened alert conditions.

    Question 2. The Committee's bill, S. 1052, focuses on the threats 
posed by the rail shipment of ``high-hazard materials'' and requires 
railroads to develop threat mitigation plans. While the safety 
statistics you quote are impressive, recent accidents in Graniteville, 
SC and Texarkana, AK, remind us of the dangers that an accident 
involving toxic inhalants and explosives presents. If you were 
required, as S. 1052 contemplates, to develop threat mitigation plans 
for high-hazard hazardous materials traveling in specific rail 
corridors in high threat areas, such as Washington D.C., why should the 
DHS not have the power to approve those plans? If there is no approval 
or enforcement authority, how can anyone be sure that the plans are 
adequate?
    Answer. The AAR and member railroads are working with TSA and the 
Department of Homeland Security in developing risk assessments for high 
hazardous materials corridors. Four have been completed to date 
including Washington, New Orleans, Cleveland and New Jersey. We are 
continuing to work with these agencies to identify risks and put in 
place countermeasures for those corridors where high hazardous material 
moves. We have consulted and conferred and they have not taken 
exceptions to our plans. Further, on request, railroads have altered 
their operations and cooperated with DHS for special situations and 
events.
    The USDOT, both under the Federal Rail Safety Act and the Hazardous 
Materials Transportation Act, already extensively regulates the safe 
transportation of hazardous materials. The Research and Special 
Programs Administration (now the Pipeline and Hazardous Materials 
Safety Administration, PHMSA) regulation HM-232, published in 2003, 
requires railroads to develop and implement security plans when 
transporting hazmat. This agency also has oversight authority for the 
implementation of these plans.
    If legislation requires a governmental approval process for threat 
mitigation plans, we believe that it could actually jeopardize security 
by limiting the ability of the railroads to respond to quickly changing 
circumstances. The response of the railroads after Katrina and Rita is 
illustrative. The railroads were able to act immediately to detour 
hazmat materials out of the hurricane area using a routing plan 
specific to that particular situation and without having to wait for an 
approval from Washington.
    To implement this provision as written, DHS would have to develop 
criteria to define a satisfactory threat mitigation plan. Such criteria 
would no doubt be promulgated by regulations. Regulations, then create 
a certainty as to what the railroads are or are not doing, when for 
true security, uncertainty is best. Equally, situations could occur 
where railroads would need to alter their plans on short notice but 
could be hamstrung by conflicting regulatory requirements. DHS already 
has the authority to review our transportation security plans. We 
believe that the most effective approach is to work in consultation 
with DHS rather than a Federally-directed command and control effort.

    Question 3.  In your written statement you also oppose the 
provision in our bill, Section 310, which requires that DHS and DOT in 
consultation develop and issue guidance on rail worker security-
training programs and to review and approve training programs submitted 
by railroad carriers. Do you believe the existing freight railroads 
security-training program is sufficient?
    Answer. The AAR does not oppose the provision that would require 
DHS and DOT to develop and issue guidance on rail worker security 
training or to review the security training programs advanced by 
railroad carriers. The AAR opposes the institution of a Federal 
approval process for the railroads' security training programs for the 
following reasons. First, a Federal approval process tends to make it 
difficult for the industry to adapt quickly to new circumstances and 
adjust security training requirements on a real time basis. We are 
concerned that railroad workers would then refuse to undertake any 
security training unless it was specifically approved by the Federal 
Government. Second, the provision unfairly singles out the railroad 
industry--as opposed to all manufacturing and service industries--as 
requiring Federal approval for corporate training practices.
    Since the days of railroad bandits and terrorist outlaws, the Class 
1 freight railroads have employed and maintained their own railroad 
police forces to help protect the security of its employees, passengers 
and freight. Some 2000 railroad police are employed today as duly 
appointed sworn law enforcement officers certified or commissioned 
under State and Federal statues. Reacting swiftly to the events of 
September 11th, the major railroads put into place more than 50 
countermeasures to ensure the security of the industry. Access to 
important rail facilities and information was restricted. The industry 
significantly increased cyber-security procedures and techniques. 
Employee records were compared with FBI terrorist lists. Security 
briefings, like safety briefings, became a daily part of an employee's 
job. Some railroads have gone so far as to include security training as 
part of the annual FRA-mandated employee certification process. In an 
effort to further increase the level of security awareness for their 
employees, AAR member railroads are working with the National Transit 
Institute (NTI) at Rutgers University to develop a uniform security 
awareness curriculum that will significantly enhance the level of 
employee security training. The curriculum is modeled after the program 
NTI and the Federal Transit Administration developed for public transit 
agency employees.
    The goal of the training is to provide rail employees with an 
understanding of their role and responsibility in system security and 
how to implement their companies' procedures upon detection of 
suspicious objects or activities. Course modules include instructions 
on reacting to threats, identifying suspicious activity, identifying 
suspicious objects, and responding to incidents. These course modules 
will be rolled out by the AAR member railroads within the next 90 days.

    Question 4.  How do you explain the disparity between AAR's 
perception of the rail workers' confidence in the security training 
they have received and the results of a recent Teamsters Union Rail 
Division survey in which 85 percent of those responding claim to not 
have received security training in the last twelve months?
    Answer. Despite an enviable record of safety over more than two 
decades, some rail labor union leaders are attempting to attack the 
industry by tallying responses to a loaded union questionnaire and 
touting it as a nationwide ``study'' of security gaps on U.S. 
railroads. Union leaders more than a year ago gave the short 
questionnaire to members of the Brotherhood of Locomotive Engineers and 
Trainmen (BLET) and the Brotherhood of Maintenance of Way Employes 
Division (BMWED), both part of the International Brotherhood of 
Teamsters Rail Labor Bargaining Coalition. It carried a Teamsters logo 
and instructed members to ``please give this form to your local 
chairman.''
    Teamsters admit their report is not a scientific analysis. In 
reality, it is a tactic aimed at the bargaining table that ignores the 
facts and misrepresents the industry's strong safety record.
    The fact is that after 9/11, America's railroads worked quickly 
with Federal security agencies to develop and implement a multi-
layered, risk-based security plan for the Nation's freight rail network 
that included security awareness training for rail employees. Since 9/
11, freight railroads have implemented more than 100 new security 
actions and 50-plus changes in their operations. That's in addition to 
the intensive safety training required of all railroad operating 
employees and the special security training that all rail employees who 
handle hazardous materials movements receive.
    The industry is currently working with the National Transit 
Institute (NTI) at Rutgers University to create an enhanced security 
awareness training program for railroad employees throughout the 
country.
    America's freight railroads have developed train control technology 
that will improve significantly the safety of freight operations. This 
21st Century technology will help to prevent train collisions, improve 
productivity and reduce accidents caused by fatigue and human error, 
the most common causes of train accidents. Taking the Nation's freight 
rail network to this next level of safety and success will require 21st 
Century labor agreements and changes to antiquated work rules 
negotiated years prior to these technological advances. U.S. freight 
railroads are now in negotiations with unions representing engineers 
and train crews--hence the interest of the Teamsters in discrediting 
the safety and security record.

    Question 5. I would like to compliment the railroad industry for 
its commitment to Operation Respond. According to our information the 
Operation Respond software is now available to over 56,000 response 
agencies. Have the railroads given any thought to how this valuable 
connection with emergency responders can help them deal with 
communities concerns over railroad security? I am referring 
specifically to advanced information and rerouting of hazardous 
materials.
    Answer. The Class 1 railroads have joined the Department of 
Homeland Security and the Department of Transportation in sponsoring 
Operation Respond, a public-private partnership that develops software, 
mapping systems, alert networks and training programs for community 
responders. The AAR supports Operation Respond financially and is a 
member of its Steering Committee. The AAR and Operation Respond signed 
an agreement in November 2003 to assist emergency responders, promote 
safety and increase security along our Nation's railroad system. This 
agreement includes the development of an ``information sharing system'' 
to benefit emergency responders and railroad carriers, and the 
integration of the Emergency Services Information Network Corporation 
(ESINC) network and the AAR Rail Alert Network.
    The freight railroads work aggressively to make sure that railroad 
employees, first responders, emergency personnel and other necessary 
officials are prepared to respond quickly and efficiently. Railroads 
provide local emergency officials with information on the types of 
hazardous materials being transported through their communities. The 
railroads also work closely with Local Emergency Planning Committees to 
make sure they have comprehensive and up-to-date emergency planning 
information.
    The Nation's freight railroads, both individually and in 
partnership with the American Chemistry Council (ACC), train more than 
20,000 emergency responders each year in communities across the Nation. 
Railroad companies are active participants in the ACC's 
TRANSCAER<SUP>'</SUP> (Transportation and Community Awareness and 
Emergency Response), a nationwide effort to assist communities with 
emergency response plans as well as CHEMTREC<SUP>'</SUP> (Chemical 
Transportation Emergency Center), the ACC's 24-hour emergency response 
operation. TRANSCAER requires its industry partners to adhere to a 
rigorous code of management practices and strict standards for self-
evaluation, systems management and performance measurement and mutual 
assistance. Under TRANSCAER, railroads bring hands-on and classroom 
training to thousands of emergency first responders. They also help 
emergency planning groups identify the general types of hazardous 
materials moving through the community; provide guidance for local 
officials to develop and evaluate their emergency response plans; 
assist with testing and training.
    Railroads also participate in CHEMTREC, a 24/7 operation that 
provides immediate emergency response information and assistance during 
emergencies involving chemicals. Each CHEMTREC member puts CHEMTREC's 
number on its packages and tank cars. CHEMTREC maintains an extensive 
database of information on chemicals, shippers and emergency response, 
used by first responders during hazmat accidents. The railroads provide 
needed information to CHEMTREC during railroad accidents so that the 
information can be communicated to local emergency responders to help 
mitigate accidents.
    Individually, railroads sponsor annual training for first 
responders across the country at the Emergency Response Training Center 
in Pueblo, Co. The training includes hazardous materials technician; 
tank car specialist; advanced tank car specialist; intermodal 
specialist; incident commander; advanced hazmat technician; highway 
emergency response; weapons of mass destruction; hazmat monitoring; and 
transportation specialist. The railroad industry sponsors an Annual 
Hazardous Materials Seminar attended by hundreds of emergency 
responders, shippers, contractors as well as railroad emergency 
response personnel to provide up-to-date training on the latest 
emergency response techniques and regulations. It also provides hands-
on training to familiarize responders with equipment used in hazmat 
accidents.
    In big cities, small towns, and rural areas, railroads work with 
communities to conduct full-scale emergency response drills that can 
take up to six months to plan and involve responders from local, 
county, state, regional and Federal levels. The railroads help planners 
include every public agency that needs to be notified and involves them 
in the drill. Drills are sometimes conducted across multiple towns and 
regions to test how well communities work together in an emergency 
situation.
    Since 9/11, emergency training has also included a terrorism 
component. AAR member railroads own four tank cars that are used for 
both the emergency response drills as well as training purposes. Other 
safety initiatives conducted by various railroads include mock safety 
drills and table top simulations in communities; on-going assessments 
of potential risks to employees and local communities resulting from 
accidents or other emergencies; on-going training programs for those 
employees who have response or communications responsibilities in the 
event of an emergency; emergency exercises, at least annually, to test 
operability of written emergency response plans; facility tours for 
emergency responders to promote emergency preparedness and provide up-
to-date knowledge of facility operations; special environmental 
monitoring teams, located along the railroad system, which can be 
immediately mobilized to relay information to health experts. These 
teams are equipped with advanced detection and monitoring equipment; 
audits of hazmat contractors to ensure that equipment, training and 
response capabilities meet standards; audits of internal operations and 
chemical shippers for correct shipping documentation; reviews of non-
accident releases from tank cars and, if necessary, offers to retrain 
chemical shippers regarding safe loading and sealing procedures.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Frank R. Lautenberg to
                          Edward R. Hamberger

    Question 1. Are all AAR member railroads offering security training 
for their employees?
    Answer. All railroad employees have received security awareness 
training. Security is also a part of employees' daily job safety 
briefing. As a general rule we want our non-security employees to 
report suspicious activity to the railroad police so they can take 
appropriate action. We do not want non-security employees to put 
themselves at risk in addressing a security concern. Railroad employees 
will be briefed at daily job briefings when they need to take 
additional action and what that action entails.

    Question 2.  Do you believe that the Federal Government has a role 
in the development of uniform standards for employee security training 
programs?
    Answer. The most effective role that the Federal Government can 
play with respect to employee security training programs is to share 
best practices information with the industry. The AAR is currently 
developing a uniform security awareness curriculum with the National 
Transit Institute that will be deployed throughout the industry in 2006 
that significantly enhances the level of employee security training. 
The goal of the training is to provide rail employees with an 
understanding of their role and responsibilities in system security, 
and how to implement their companies' procedures upon detection of 
suspicious objects or activities. Course modules include instructions 
on reacting to threats, identifying suspicious activity, identifying 
suspicious objects and responding to incidents.
    The Department of Transportation implemented security training 
requirements in 49 CFR Sec. 172.704. Since the railroads already comply 
with the current regulations, and we have a system in place to instruct 
employees on what they will need to do at increased alert levels, we 
see no reason for additional regulations or standards.
    The AAR does not believe it to be an appropriate Federal Government 
role to mandate uniform standards to the private sector for employee 
security training. Private industry inherently has an interest in the 
protection of its employees and assets and is in the best position to 
appropriately discern how best to train its workforce. Worker security 
training practices across manufacturing and service industries will 
vary greatly depending on many circumstances. What may be appropriate 
security training for a locomotive engineer will not be the same as for 
a hospital nurse, a cafeteria worker or a nuclear plant operator.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                           William L. Crosbie

    Question 1. As the representatives of the major sectors of the 
railroad industry, you live with the challenges of securing your 
railroads everyday. We have tried to craft a bill that will help make 
this job easier. Yet, I'm sure we can do more. Can you tell us which of 
our provisions you feel are most needed and why? If there were one 
thing more we could do in this bill to help you reach your goal of a 
safe and secure railroad and workplace, what would it be?
    Answer. The Rail Security Act of 2005 provides the most 
comprehensive approach to improving rail surface transportation systems 
to date. Because of Amtrak's continuing fiscal uncertainty on future 
funding levels for the Corporation as a whole, the most needed 
provisions of S. 1052 for Amtrak are the rail security and life safety 
sections (Sections 303, 304 and 305). While Amtrak is currently 
committing capital resources to security improvements. it is critical 
that the Federal Government provide an equitable share of funding for 
the rail transportation mode.
    Since 9/11, rail security issues and funding have been given short 
shrift. The most important thing that this Committee could do to help 
Amtrak reach its goal of a safe and secure railroad and workplace is, 
simply, to have this legislation passed and enacted.

    Question 2. Amtrak has been very proactive in working with DHS/TSA 
and DOT/FRA to engage in pilot programs and other security activities. 
What additional assistance do you need, in addition to more funding, 
from the Federal Government to ensure adequate security for your 
passengers?
    Answer. Amtrak believes that some of the initiatives it has 
coordinated with DHS/TSA provide a guide for government/industry 
relations that can reasonably improve rail security. An example is the 
use of TSA baggage screening personnel and equipment based upon certain 
events (RNC, Inaugural events). This ought to be extended to 
intelligence driven threats at specific locations or areas. In 
addition, systematic security schemes ought to be deployed and 
developed by government to keep terrorists off balance or to eliminate 
security predictability. Such efforts performed in coordination with 
rail agencies would improve rail security.
    Intelligence information and sharing is one of the key elements for 
helping to secure Amtrak. Like all rail agencies, Amtrak needs to 
receive timely information to address threats. DHS/TSA must ensure that 
dissemination of threat information is performed in a quick and 
effective manner.
    Because of the expanse of the Amtrak route system, Federal agencies 
ought to provide assistance to Amtrak upon request to support security 
initiatives (such as the TSA canine program). Consideration ought to be 
given to state and local agencies receiving grant funding for 
initiatives designed to improve rail and transit security.
    DHS passenger rail and transit security grant programs should be 
expanded and used as models for development of integrated rail security 
plans and policies.
    As stated in GAO report, 05-851, there needs to be a security 
technology clearinghouse established by the government that rail 
agencies can use to develop, coordinate or seek assistance in 
purchasing, implementing and improving equipment to protect rail 
security assets.

    Question 3. Amtrak has shown leadership in its support of Operation 
Respond hazardous materials tracking technology, particularly as it 
relates to providing police and fire departments with valuable response 
guidance. If and when something does happen, the Operation Respond 
software is a valuable response tool for Amtrak. What do you think can 
be done to encourage a more widespread incorporation of the Operation 
Respond software by the communities Amtrak serves and the commuter rail 
industry?
    Answer. First responder training grants have been available to 
state and local agencies for years. The grants are usually conditioned 
upon a Federal agency approving the course or actually providing the 
course. A possible method of expanding the use of the Operation Respond 
program would be to allow first responders to receive funding for 
Operation Respond training, to have Federal agencies conduct and/or 
approve training and funding for Operation Respond training, and/or to 
condition grant funding for first responders to take also Operation 
Respond training. An evaluation of the ability of Operation Respond to 
handle increased training demands should also be explored and/or 
funded.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                         Edmund ``Kip'' Hawley

    Question 1. I have worked hard, together with Chairman Stevens, to 
craft a solid blueprint for future Federal actions to secure our 
Nations' railroads. The rail provisions of S. 1052 include security 
upgrades, threat assessments, security training, research and 
development, and several other important initiatives, many of which 
were unanimously approved by the Senate last year. Yet, if we can 
strengthen our efforts, we must. I hope each of you will help us do 
that. What is your position on the rail provisions of S. 1052? How can 
we improve them?
    Answer. The Department's views on S. 1052 were sent to the 
Committee on November 10, 2005. We stand ready to render any technical 
assistance that the Committee may request.

    Question 2. In less than a year and a half, terrorists have killed 
almost 300 people in bombings of mass transit systems, most recently in 
London and in Madrid. Yet, this summer, Secretary Chertoff indicated in 
an interview that the protection of transit and rail should largely be 
the responsibility of cities and states and not the Federal Government. 
Do you believe that funding for rail and transit security is a lower 
priority for the Federal Government than for other transportation 
modes?
    Answer. The Transportation Security Administration (TSA) and the 
Congress have focused the majority of transportation security funding 
towards what has been considered the largest and most consistent 
potential threat--attacks on our aviation system. At the same time, TSA 
has been working to improve security in other modes of transportation. 
The Nation's transportation system is vast and complex, but 
historically only in aviation security is the Federal role direct and 
pre-eminent. For that reason, TSA and the Department of Homeland 
Security (DHS) have known that the aviation model of security would not 
work for securing other modes of transportation. Thus, the Department, 
in coordination with TSA continues to work with State, tribal, local, 
regional and private partners to help secure our transportation system. 
These efforts span the spectrum of security, from intelligence and 
information sharing to awareness through prevention, response, and 
recovery from a potential terrorist attack in the United States.
    The responsibility for securing our Nation's transportation system 
is a shared one between Federal, State, and local governments, and 
private industry stakeholders, and system users. Public and private 
stakeholder investment in security is both appropriate and expected. 
Currently, the Federal Government is providing funding, in the form of 
security grants, to help ameliorate the cost borne by the private 
stakeholders. TSA and ODP will continue to assist system operators 
identify their security risks through: (1) security assessments, both 
government-facilitated and through use of self-assessment tools, (2) 
compliance efforts, and (3) through cooperative partnerships with 
industry associations and operators to develop effective and cost-
efficient mitigation strategies.
    An example of a cooperative partnership is the work that DHS, 
including TSA have done and continues to do with Amtrak. TSA has 
provided explosives detection canine teams to Amtrak upon its request 
on several occasions, including during the Republican National 
Convention, Inauguration and in New York during the fall 2005 security 
alert. TSA is engaged in a continuous dialogue with Amtrak regarding 
use of canine resources and is exploring the possibility of instituting 
a more formal framework for providing such support to Amtrak in the 
future. TSA fully integrates Amtrak into its security planning and is 
working to further enhance information and intelligence sharing 
capabilities.

    Question 3. I am sure you are aware of the recent survey of the DHS 
staff that showed a low morale. You are new to the Agency, or rather, 
returning to it. How do you plan on addressing the morale issue?
    Answer. Workforce morale is very important to me and I am pleased 
to say that the Transportation Security Administration (TSA) has taken 
a number of actions to improve morale since we initially surveyed our 
entire workforce in February/March 2004, which was followed by a 
resurvey of a sample of our workforce by the Office of Personnel 
Management (OPM) and the Department later in 2004. Our Corporate 
Organizational Action Plan outlines the broad interventions that fall 
under four general areas that were highlighted as important for change: 
fairness and treatment of others, rewards and recognition, 
communication, and work environment/quality of worklife. Additionally, 
our recently published TSA Compendium of Positive Practices identifies 
interventions that can and have been taken by local leaders to address 
workplace and workforce issues in a variety of areas.
    Underlying the first two areas was a general sense that outstanding 
performance does not result in any tangible rewards, such as increased 
pay or bonuses, promotional opportunities or other career advancement. 
I am pleased that both national and local rewards and recognition 
programs have been established since the survey was administered. These 
programs allow for both monetary and non-monetary recognition for a job 
well done. A screener performance management system is being designed 
that will better identify top performers and link their outstanding 
performance to pay increases. This system will consider objective 
measures of performance, assessment of competencies and will 
incorporate continual feedback and coaching as critical components. We 
will continue to seek suggestions for ways to publicly recognize and 
reward those who do an outstanding job for TSA, both at the national as 
well as the local, airport level.
    Expanding career opportunities for our screener workforce is very 
important to me. I recently announced a change in the job series and 
title for TSA screeners that better signifies the important 
professional role that they serve. We will also be establishing intern 
programs that will assist members of our workforce to transition into 
Federal Air Marshal and Inspector positions. I have decided to reserve 
some Federal Air Marshal openings to be filled exclusively by TSA 
employees. We currently have a variety of career planning services 
available to TSA employees, including a career coaching service to help 
guide employees in identifying career interests, conducting job 
searches, and developing effective application materials. We also have 
a web-based Career Toolbox to support employees' career planning.
    Communication is also critical to employee morale. An important 
aspect of that is to give employees at all levels a voice in matters 
that directly affect them. To that end, there are initiatives at many 
airports across the country to do this, many of them folded under 
broader Model Workplace Programs--town hall meetings, screener advisory 
groups and small on-site meetings through which action plan results for 
an individual work location are fed back directly to the employees who 
work at that site. At the national level, we have the Employee Issues 
Coordination Council, bringing together organizations that deal with 
employee issues, to provide a corporate focus and clearinghouse for 
information on employee issues as well as to collect and analyze 
information on employee issues, recommending corporate priorities for 
action.
    I have personally conducted numerous town hall meetings, both in 
Headquarters and in airports across the country, since rejoining TSA. 
Visible and empowering leadership is important. Role clarity is 
essential to achieving optimal action planning and results. We must 
highlight the leaders who are accountable and celebrate those who 
achieve results. At a national level, I've announced the establishment 
of a Screener Advisory Group and an Assistant Federal Security Director 
Advisory Group. As their first charge, I have asked both groups to 
propose a set of incentives that they believe are key to retaining our 
most talented employees, and I eagerly await their suggestions.
    We are also taking steps to address concerns related to the quality 
of the work environment. Of utmost concern to me is the safety and 
well-being of our workforce, particularly the screener workforce. I 
will be focusing additional attention first on preventing injuries and 
second, getting employees back on the job as soon as possible. The 
physical work environment of many of our screeners continues to require 
the attention of both local and national leadership. I am pleased that 
many improvements have been put in place already and others are 
underway in airports across the country.
    Finally, it is important to continually assess employee morale and 
whether the programs put in place make a difference. To that end, we 
expect to again survey the entire TSA workforce in early 2006 to see 
whether morale has improved, and in what areas. With those results, we 
will be able to determine where additional effort and/or resources must 
be focused to achieve further gains. Additionally, in November 2005, 
TSA launched a National Exit Survey for departing employees, with the 
same end in mind.
    While I am pleased that some progress has been made, I recognize 
that we have much more work to do. It is a challenge that is worth the 
effort--to create the model workplace and become an employer of choice.

    Question 4. How many staff does TSA have dedicated to rail 
security--people whose primary job functions is to work on rail 
security issues? How many people whose primary function is working on 
non-aviation security issues? How many staff working on aviation 
security issues?
    Answer. The Transportation Security Administration (TSA) is basing 
its answers to these inquiries on an analysis of the funding source for 
the salaries and benefits of TSA employees.
    As of October 15, TSA staff includes a total of 116 individuals 
dedicated to rail security, including 96 Rail Inspectors. The total 
number of individuals whose primary function is on non-aviation 
security issues is 220. This figure includes the 116 dedicated to rail 
security. Employees paid from the Aviation Security budget category, 
which include primarily security screeners, total about 51,440.
    TSA notes that these totals do not include individuals serving in 
cross-cutting areas such as credentialing, intelligence, and 
administrative support.

    Question 5. What percentage of TSA funding, apart from grants are 
directed exclusively to rail security? How much is that in comparison 
of funding directed exclusively to aviation?
    Answer. Under the Homeland Security Appropriations Act, 2006 (Pub. 
L. 109-90), Congress appropriated funding to the Transportation 
Security Administration (TSA) as follows:

  <bullet> $4,607,386,000 for necessary expenses relating to providing 
        civil aviation security services;

  <bullet> $36,000,000 for necessary expenses related to providing 
        surface transportation security activities;

  <bullet> $74,996,000 for necessary expenses for the development and 
        implementation of screening programs of the Office of 
        Transportation Vetting and Credentialing;

  <bullet> $510,483,000 for necessary expenses relating to providing 
        transportation security support and intelligence; and

  <bullet> $686,200,000 for necessary expenses of the Federal Air 
        Marshals Service.

    Of the $36 million for surface transportation security activities, 
Congress directed that $8 million be set aside for the rail inspector 
program and canine teams. TSA also intends to spend approximately $8 
million for rail security efforts in FY 2006, for a total of about $16 
million.
    However, this number is not reflective of all efforts directed 
towards rail security either within TSA, the Department of Homeland 
Security (DHS), or the Federal Government. First, it should be noted 
that other efforts and funding streams within TSA, particularly under 
the transportation security support and intelligence category, 
contribute to rail security efforts. For example, cross-cutting 
offices, such as the Chief Technology Office, Office of the Chief 
Counsel, Transportation Security Operations Center, Human Resources, 
Chief Information Officer, and Transportation Security Intelligence 
Service, provide support to all programs within TSA, including the rail 
security programs. Specifically, TSA and the Department have focused 
significant resources on intelligence with the goal of identifying and 
stopping a terrorist before he reaches the intended target. Because of 
these cross-cutting offices and other Departmental efforts, it is 
impossible to parse a percentage of funds spent exclusively on rail or 
aviation.
    Additionally, Congress has funded programs for infrastructure 
protection and research and development through other DHS entities. TSA 
works closely and its programs align with the Information Analysis and 
Infrastructure Protection (IAIP) and Science and Technology (S&T) 
Directorates efforts on rail and infrastructure security along with the 
Department of Transportation's modal administrations efforts in rail. 
In summary, TSA's spending on rail security is obviously significantly 
less than the amount spent on aviation security. That is the result of 
the congressionally mandated security role TSA provides in aviation by 
screening passengers and baggage versus a more standard-setting and 
compliance role that it plays in rail security.

    Question 6. TSA may use ``risk/value analysis,'' but will the 
funding & staff be there to address the risks?
    Answer. As indicated above, Congress recently appropriated funding 
for the Transportation Security Administration (TSA) for FY 2006, and 
TSA will manage the level of resources that have been made available by 
utilizing a threat-based, risk-management approach to transportation 
security. TSA constantly reassesses these resources and budget 
priorities as part of the Department of Homeland Security's (DHS) risk-
based management approach to securing the Nation's critical 
infrastructure. In addition, since the creation of TSA, Congress has 
provided very specific direction as to how funds are to be spent. TSA 
is responsible for evaluating risk to the transportation system across 
a changing array of threats, sharing threat and risk information with 
transportation stakeholders (public and private), establishing 
consistent national transportation security standards across all modes, 
monitoring compliance with those standards by transportation 
stakeholders and in the event of a transportation security incident, 
ensuring rapid restoration of service and public confidence. TSA and 
our partners within DHS, in coordination with the Department of 
Transportation (DOT), have conducted vulnerability assessments on 
transportation assets, such as rail and transit, to determine their 
susceptibility to attack or compromise.
    Ensuring that our Nation's transportation systems are secure must 
be accomplished through effective partnering between appropriate 
Federal, State, local and private industry entities. Of course, DHS is 
charged with the responsibility for protecting all modes of 
transportation, but it has consistently held that this responsibility 
must be shared with Federal, State, local and private industry 
partners, many of whom were already in the business of providing 
security for their particular piece of the transportation puzzle. The 
Administration and Congress have recognized the importance of 
supporting these efforts through grants to our governmental and 
industry partners. In the Homeland Security Appropriations Act, 2006 
(Pub. L. 109-90), the Office for Domestic Preparedness will mange the 
following transportation security programs as directed by Congress to 
include the following:

  <bullet> Rail and Transit Security--$150,000,000
  <bullet> Port Security--$175,000,000
  <bullet> Intercity Bus Security--$10,000,000
  <bullet> Trucking Security--$5,000,000

    Additionally, DHS has allocated $8.6 billion since its creation for 
counterterrorism preparedness. These funds can be allocated by State 
and local governments for rail security efforts.

    Question 7. How much of the Transit Security Grant Program funding 
has been actually obligated? What percentage of this has gone to 
freight rail security?
    Answer. In FY 2005, Congress directed that $150 million be made 
available for rail and transit security grants. Of these funds, the 
Department of Homeland Security's Office for Domestic Preparedness 
(ODP) made available nearly $134 million under the Transit Security 
Grant Program (TSGP). To date, ODP has obligated all funds under the 
TSGP. While none of these funds were awarded to promote freight rail 
security efforts, the Department did make available $5 million from the 
remaining rail and transit security grant funding provided by Congress 
for a Freight Rail Security Program. This $5 million was awarded to the 
Railroad Research Foundation to undertake three projects: (1) 
development of a Rail Corridor Risk Management Tool; (2) development of 
a Rail Corridor Hazmat Response and Recovery Tool; and (3) development 
and demonstration of ``Safe Haven'' concepts for in-route toxic 
inhalation hazard shipments. These projects were made available and are 
being managed by the Office for Domestic Preparedness as identified 
through partnerships with other DHS entities, including TSA, the Border 
and Transportation Security Directorate, and the Information Analysis 
and Infrastructure Protection Directorate, as well as with the Federal 
Railroad Administration and the Pipeline and Hazardous Materials Safety 
Administration within the Department of Transportation. These projects 
offer the potential for long-term enhancement of freight rail security.

    Question 8. In June 2005, Mr. Ed Wytkind, President of the 
Transportation Trades Department, AFL-CIO, sent a letter to Secretary 
Chertoff outlining several concerns over the status of transportation 
security in this country. Specifically, the letter points out that no 
Federal agency has issued security training mandates for rail workers 
and urges DHS to ``address this problem by immediately issuing training 
standards and requirements.'' To my knowledge, the Department has not 
yet responded to this letter and DHS and TSA still has not mandated 
that passenger rail agencies provide security training to employees as 
a condition of receiving security grants. What is TSA doing to ensure 
front line rail employees are receiving security training?
    Answer. TSA has issued two rail security directives (SD RAILPAX-04-
01 and SD RAILPAX-04-02), which require rail operators to implement 
various security measures. While ``security training'' in a specified 
manner or amount of time is not expressly mandated, each of these 
measures requires passenger rail systems to educate their personnel on 
security requirements and ensure their implementation through repeated 
advisories and guidance. Training programs and materials delivered to 
employees meet this responsibility.
    In addition, DHS is partnering with the American Public 
Transportation Association (APTA) to assist its employee member 
organizations in developing training standards for public 
transportation employees. These training standards are developed in 
collaboration with transit industry professionals, industry experts, 
and professional training institutes. In addition, both the Federal 
Transit Administration and TSA fund and support a variety of safety and 
security training initiatives for transit agencies and their employees. 
Much of the training is available at no cost. Transit-specific training 
programs include recognizing terrorist activity and response, 
explosives incidents, weapons of mass destruction, and responding to a 
hijacking. For example, through the Federal Law Enforcement Training 
Center, TSA sponsored the Land Transportation Anti-Terrorism Training 
Program which has trained over 400 Law Enforcement and Transit 
personnel as of the end of FY05.

    Question 9. During a hearing on the London bombings, you described 
security on the Nation's mass transit systems as ``outstanding'' 
despite the fact that TSA had not completed its security risk 
assessments and transit workers, like rail workers, are not being 
trained. How would you characterize the state of security on our 
railroads? What steps need to be taken to improve rail security and 
what is TSA doing about it?
    Answer. The mass transit and rail industry, and State and local 
governments, are to be commended for their proactive response and 
significant commitments in addressing homeland security issues, both 
pre- and post-9/11, and following the Moscow, Madrid and London bombing 
incidents. The responsible government approach has been to continue to 
leverage these efforts as we developed baseline standards and refined 
our rail security strategy.
    To this end, the United States Government has made significant 
enhancements to transportation security, specifically in rail and mass 
transit, and put specific measures in place after the Madrid attacks. 
Security standards for rail are in place; criticality and vulnerability 
assessments have been completed and are continuing; inspectors are 
being deployed across the country; and new technologies have been 
tested. For example, TSA took major strides in developing and field-
testing a new technology, in the Transit and Rail Inspection Pilot 
(TRIP) for screening passengers and baggage in a rail environment for 
deployment during high threat scenarios. (Deployed to the Republican 
National Convention in August 2004 and Presidential Inauguration in 
January 2005 at the request of Amtrak).
    Nevertheless, I recognize that improving the state of security in 
our Nation's transportation network and facilities is a continuing 
endeavor. Specific efforts that TSA is taking in the rail area include:

  <bullet> continuing rail corridor assessments in high threat urban 
        areas where Toxic by Inhalation (TIH) materials are 
        transported;

  <bullet> expanding inspections of passenger rail operations and their 
        associated facilities for compliance with the TSA issued 
        security directives and identification of potential security 
        gaps, utilizing TSA's 100 rail inspectors; and

  <bullet> Continuing to partner with the DHS' Science & Technology 
        Directorate to pursue and test detection and other technologies 
        applicable in the rail and mass transit environment.

    TSA will also continue to assist system operators identify their 
security risks through: (1) security assessments, both government-
facilitated and through use of self-assessment tools, (2) compliance 
efforts, and (3) through cooperative partnerships with industry 
associations and operators to develop effective and cost-efficient 
mitigation strategies.

    Question 10. Does TSA have plans for more non-aviation related 
security requirements for the industry? If so, in what areas?
    Answer. The Department of Homeland Security publishes a semiannual 
summary of all current and projected rulemakings, reviews of existing 
regulations, and completed actions of the Department of Homeland 
Security (DHS) and its component agencies and divisions. This agenda 
provides the public with information about DHS' regulatory activity, 
thereby enabling the public to be more aware of and effectively 
participate in the Department's regulatory activity. DHS made its most 
recent semiannual publication on October 31, 2005 (70 FR 64629). The 
following, relating specifically to TSA's regulatory agenda, is 
excerpted from the October 31, 2005 entry in the Federal Register:

       Transportation Security Administration--Proposed Rule Stage

                                                           Regulation
  Sequence  Number                  Title                  Identifier
                                                             Number

1441                  Aircraft Repair Station Security         1652-AA38
1442                  Foreign Air Carriers                     1652-AA40
1443                  Transportation Worker                    1652-AA41
                       Identification Credential
                       (TWIC) Maritime
1444                  Modification of the Aviation             1652-AA43
                       Security Infrastructure Fee
                       (ASIF)
1445                  Due Process for FAA Certificate          1652-AA44
                       Holders and for Other Threat
                       Assessments
1446                  Registered Traveler (RT)                 1652-AA47



        Transportation Security Administration--Final Rule Stage

                                                           Regulation
  Sequence  Number                  Title                  Identifier
                                                             Number

1447                  Imposition and Collection of             1652-AA00
                       Passenger Civil Aviation
                       Security Service Fees
1448                  Aviation Security Infrastructure         1652-AA01
                       Fees (ASIF)
1449                  Air Cargo Security Requirements          1652-AA23
1450                  Privacy Act of 1974:                     1652-AA34
                       Implementation of Exemptions;
                       Intelligence, Enforcement,
                       Internal Investigation, and
                       Background Investigation
                       Records
1451                  Flight Training for Aliens and           1652-AA35
                       Other Designated Individuals;
                       Security Awareness Training for
                       Flight School Employees
1452                  Secure Flight Program                    1652-AA45
1453                  Technical Amendment:                     1652-AA46
                       Administrative Organizational
                       Changes
1454                  Privacy Act of 1974:                     1652-AA48
                       Implementation of Exemptions;
                       Secure Flight Records



        Transportation Security Administration--Long-Term Actions

                                                           Regulation
  Sequence  Number                  Title                  Identifier
                                                             Number

1455                  Civil Aviation Security Rules            1652-AA02
1456                  Security Programs for Aircraft           1652-AA03
                       Weighing 12,500 Pounds or More
1457                  Private Charter Security Rules           1652-AA04
1458                  Background Checks for Airport            1652-AA06
                       Workers
1459                  Protection of Sensitive Security         1652-AA08
                       Information
1460                  Security Compliance Program for          1652-AA09
                       Aircraft Operators
1461                  Security Compliance Program for          1652-AA10
                       Airports
1462                  Criminal History Records Checks          1652-AA11
1463                  Transportation of Explosives              152-AA16
                       From Canada to the United
                       States Via Commercial Motor
                       Vehicle and Railroad Carrier
1464                  Security Threat Assessment for           1652-AA17
                       Individuals Applying for a
                       Hazardous Materials Endorsement
                       for a Commercial Drivers
                       License
1465                  Surface Transportation Security          1652-AA26
                       Directives
1466                  Enhanced Security Procedures for         1652-AA39
                       Operations at Certain Airports
                       in the Washington, D.C.,
                       Metropolitan Area Flight
                       Restricted Zone
1467                  Ronald Reagan Washington                 1652-AA49
                       National Airport: Enhanced
                       Security Procedures for Certain
                       Operations



    Question 11. The recent GAO report on passenger rail security (GAO-
05-851) questions the feasibility of enforcing the TSA security 
directive issued to passenger rail operators following the Madrid 
bombings in May 2004. Are the May 20, 2004 passenger rail security 
directives enforceable? Does TSA have penalty authority with regards to 
non-aviation security directives? Has TSA issued fines against any 
passenger rail operator or owner for noncompliance?
    Answer. The TSA Security Directives issued on May 20, 2004, are 
fully enforceable. TSA has available a number of enforcement mechanisms 
to ensure that regulated entities comply with applicable requirements. 
TSA may employ a variety of tools to encourage action that secures 
compliance, including:

  <bullet> On-the-spot counseling: Minor instances of noncompliance are 
        identified and can be immediately corrected in the presence of 
        the inspector.

  <bullet> Corrective action: Measures taken by the passenger rail 
        system to correct a deficiency in a manner that protects 
        against recurrences. These measures may be developed by the 
        passenger rail system and approved by TSA, expressly prescribed 
        by TSA, or mutually prepared by the system and TSA. Written 
        documentation of the corrective action is made through a simple 
        written description of measures taken to address the 
        discrepancy or preparation of the formal written plan 
        compliance plan.

  <bullet> Compliance notice: TSA may issue a compliance notice to a 
        passenger rail system following an inspection that reveals 
        noncompliance with mandatory security requirements, such as the 
        security directives. The notice requests the passenger rail 
        system owner or operator to submit a compliance plan, describe 
        corrective actions already taken, or dispute the allegation of 
        noncompliance within 10 days of receipt.

    TSA also possesses general authority to seek civil penalties 
through proceedings in Federal District Court, against any party for 
any violation of a TSA issued standard, regulation, or requirement. 
Under 49 U.S.C. 46305, a civil penalty ``may be collected by bringing a 
civil action against the person subject to the penalty, a civil action 
in rem against an aircraft subject to a lien for a penalty, or both.'' 
Pursuant to 49 U.S.C. 46301(a)(4), the maximum penalty available for 
non-aviation security related violations is $10,000. Initiating any 
proceeding in Federal District Court requires the concurrence and 
assistance of the Department of Justice. To date, TSA has not initiated 
any enforcement action through Federal District Court proceedings. TSA 
may seek and impose civil penalties for alleged violations of aviation 
security standards through an administrative proceeding (unless certain 
statutory exclusions under 49 U.S.C. 46301(d) apply). However, TSA 
requires additional authority from Congress to seek and impose civil 
penalties for alleged violations of surface security standards through 
an administrative proceeding.

    Question 12. The results of the Teamsters Rail Security Report 
released on September 29, 2005, are very distressing. Sixty-eight 
percent of the respondents of the survey saw trespassers in the rail 
yard on the date the survey was taken, and 96 percent responded that 
there was no security presence in the yard that day. Additionally, 84 
percent of the respondents stated they had received no additional 
training relating to terrorism prevention in the last twelve months, 
and 62 percent responded they had not been trained in the railroads' 
emergency action or response plan. Has TSA issued any security 
directives that address these security problems? If so, does TSA intend 
to enforce them? If not, are such security directives being put under 
consideration?
    Answer. TSA issued rail security directives in May 2004 (SD 
RAILPAX-04-01 and SD RAILPAX-04-02). In crafting the security 
directives, TSA required rail operators to take steps to provide for 
the physical security of rail facilities, such as rail yards. Among 
other things, rail operators are required to ensure that their 
personnel are notified through various media of changes in threat 
conditions, reinforce employee watch programs, and ensure that 
employees maintain vigilance and immediately report through the 
appropriate chain of command any situation that constitutes a potential 
threat or suspicious activity. Additionally, the systems are required 
to inform passengers of heightened security measures and the need to be 
vigilant and report suspicious activity. While ``security training'' in 
a specified manner or amount of time is not expressly mandated, each of 
these measures requires passenger rail systems to educate their 
personnel on security requirements and ensure their implementation 
through repeated advisories and guidance. Training programs and 
materials delivered to employees meet this responsibility.
    In addition, DHS is partnering with the American Public 
Transportation Association (APTA) to assist its employee member 
organizations in developing training standards for public 
transportation employees. These training standards are developed in 
collaboration with transit industry professionals, industry experts, 
and professional training institutes. In addition, both the Federal 
Transit Administration and TSA fund and support a variety of safety and 
security training initiatives for transit agencies and their employees. 
Much of the training is available at no cost. Transit-specific training 
programs include recognizing terrorist activity and response, 
explosives incidents, weapons of mass destruction, and responding to a 
hijacking. For example, through the Federal Law Enforcement Training 
Center, TSA sponsored the Land Transportation Anti-Terrorism Training 
Program which has trained over 400 Law Enforcement and Transit 
personnel as of the end of FY05.
    As indicated in the response to question #11, TSA possesses a 
variety of enforcement tools to elicit compliance with the security 
directives.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Frank R. Lautenberg to
                         Edmund ``Kip'' Hawley

    Question 1. What is your agency doing to ensure that front line 
rail employees--the eyes and ears of the railroad environment--are 
receiving appropriate security training?
    Answer. The Transportation Security Administration (TSA) has issued 
two rail security directives (SD) (SD RAILPAX-04-01 and SD RAILPAX-04-
02), which require rail operators to implement various security 
measures. While ``security training'' in a specified manner or amount 
of time is not expressly mandated, each of these measures requires 
passenger rail systems to educate their personnel on security 
requirements and ensure their implementation through repeated 
advisories and guidance. Training programs and materials delivered to 
employees meet this responsibility.
    Through the Annex to the Interdepartmental DHS and DOT MOU the 
Office for Domestic Preparedness is partnering with the FTA to 
determine and deliver where appropriate cross discipline training 
programs designed to enhance the awareness, and ability to prepare for, 
respond to, and recover from an incident. In addition, DHS is 
partnering with the American Public Transportation Association (APTA) 
to assist its member organizations in developing training standards for 
public transportation employees. These training standards are developed 
in collaboration with transit industry professionals, industry experts, 
and professional training institutes. In addition, both the Federal 
Transit Administration and TSA fund and support a variety of safety and 
security training initiatives for transit agencies and their employees. 
Much of the training is available at no cost. Transit-specific training 
programs include recognizing terrorist activity and response, 
explosives incidents, weapons of mass destruction, and responding to a 
hijacking. For example, through the Federal Law Enforcement Training 
Center, TSA sponsored the Land Transportation Anti-Terrorism Training 
Program which has trained over 400 Law Enforcement and Transit 
personnel as of the end of FY05.

    Question 2. By law, the Secretary of Transportation--or his 
designee--sits on the Amtrak board of directors. In April, the board 
approved Amtrak's funding request for Amtrak's security needs of up to 
$254 million a year (figure includes ``support'' functions as well). If 
this funding was needed to help secure Amtrak and its 25 million annual 
passengers, why didn't President Bush ask for it in his budget?
    Answer. The Transportation Security Administration (TSA) believes 
that this question would most appropriately be directed to the 
Department of Transportation, since Amtrak funding is within its 
purview.
    Additionally, the Department of Homeland Security's Office of State 
and Local Government Coordination and Preparedness (SLGCP) has provided 
$6,373,730 in grant funding to Amtrak in FY 2005 for security 
enhancements for intercity passenger rail operations in the Northeast 
Corridor (service between Washington, D.C. and Boston, Massachusetts) 
and at Amtrak's hub in Chicago, Illinois. In addition, a further 
$726,270 in technical support is being provided to Amtrak in FY 2005 
through the SLGCP Mass Transit Technical Assistance Program. This 
support will entail a facilitated risk assessment of Amtrak's Northeast 
Corridor and Chicago operations designed to provide Amtrak with a risk 
management strategy and roadmap for making funding allocation decisions 
on security enhancements to the most critical portions of its system.

    Question 3. Will the Administration specifically request funding 
for Amtrak's security needs in FY07?
    Answer. Again, the Transportation Security Administration (TSA) 
believes that this question would most appropriately be directed to the 
Department of Transportation, since Amtrak funding is within its 
purview. TSA fully integrates Amtrak into all of our security planning 
and is working to further enhance information and intelligence sharing 
capabilities.

    Question 4. How would you characterize the state of security on our 
railroads?
    Answer. The mass transit and rail industry, and State and local 
governments, are to be commended for their proactive response and 
significant commitments in addressing homeland security issues, both 
pre- and post-9/11, and following the Moscow, Madrid and London bombing 
incidents. The responsible government approach has been to continue to 
leverage these efforts as we developed baseline standards and refined 
our rail security strategy.
    To this end, the United States Government has made significant 
enhancements to transportation security, specifically in rail and mass 
transit, and put specific measures in place after the Madrid attacks. 
Security standards for rail are in place; criticality and vulnerability 
assessments have been completed and are continuing; inspectors are 
being deployed across the country; and new technologies have been 
tested. Federal efforts have focused on greater information sharing 
between the industry and all levels of government, addressing 
vulnerabilities, developing new security measures and plans, increasing 
training and public awareness campaigns, and providing greater 
assistance and funding, mostly in the form of security grants, to help 
ameliorate the cost borne by the non-federal stakeholders.
    Following both July incidents in London, Transportation Security 
Administration (TSA) surface transportation security inspectors were 
deployed to operations centers for passenger rail and mass transit 
systems. Those inspectors were supplemented by Federal Railroad 
Administration inspectors. Working together, they found the systems had 
initiated actions to ensure compliance with security requirements and 
swiftly implemented enhanced security measures, even before the 
Department of Homeland Security (DHS) had raised the threat level for 
mass transit to Orange.
    Of note, the Federal Transit Administration (FTA) reported that as 
of August 2005 some 90 percent of the Nation's top 50 transit systems 
were in full compliance with its Top 20 Security Program Action Items 
for Transit Agencies. FTA developed this list following the 9/11 
terrorist attacks and has regularly monitored compliance with these 
guidelines. TSA will continue to build upon this frame work as it 
utilizes a threat-based, risk-management approach to continually focus 
resources, as needed, to ensure the security of the Nation's 
transportation system and its critical infrastructure.

    Question 5. What is TSA doing to track high-hazmat rail cars?

    Question 6. Does the Administration believe that active monitoring 
of the movement of high-hazmat rail cars is necessary?
    Answer to Questions 5 and 6. There is no class of materials 
classified as ``high hazmat'' in Federal law or regulation. The 
Transportation Security Administration (TSA) is currently studying the 
feasibility and value of actively monitoring rail cars that carry 
materials that are Toxic by Inhalation (TIH). The study will encompass 
both testing of available technology, cost and the development of 
systems to allow for third-party tracking of rail car movements. At 
present, the rail industry has the ability to track these TIH shipments 
using existing technology that has been established for commercial and 
operational purposes. TSA is studying enhanced technologies to 
supplement the current method of tracking rail cars. It is envisioned 
that these enhanced technologies may provide more accurate real-time 
location tracking and provide additional data such as product releases 
and container tampering. TSA is also considering what level of threat 
will require active monitoring and the value of the data generated by 
active monitoring.
    In addition, the Department of Homeland Security (DHS) and the 
Department of Transportation (DOT) have been working on various 
initiatives that support the development of a national risk-based plan 
to address the shipment of hazardous materials by rail and truck. For 
rail, DHS and DOT are focusing on the assessments of vulnerabilities of 
high threat urban areas where TIH are transported, identification of 
practical alternatives to placards on rail tank cars, new rail car 
design standards, and the development of hazardous materials security 
plans to improve the adequacy and effectiveness of industry security 
plans. Through the FY 2005 TSGP, the Office for Domestic Preparedness 
provided $5,000,000.00 for three projects designed to enhance the 
security of TIH corridors. The three projects are:

        1) Development of a Rail Corridor Risk Management Tool;
        2) Development of a Rail Corridor Hazmat Response and Recovery 
        Tool; and
        3) Development and demonstration of ``Save Haven'' concepts for 
        in-route toxic inhalation hazard shipments.

    These projects were made available and are being managed by the 
Office for Domestic Preparedness as identified through partnerships 
with other DHS entities, including TSA, the Border and Transportation 
Security Directorate, and the Information Analysis and Infrastructure 
Protection Directorate, as well as with the Federal Railroad 
Administration and the Pipeline and Hazardous Materials Safety 
Administration within the Department of Transportation. These projects 
offer the potential for long-term enhancement of freight rail security.

    Question 7. Assuming the Federal Government is able to collect 
vital information about hazmat releases, how will it distribute this 
data to first responders who may be putting their own lives at risk 
just by arriving on scene?
    Answer. Measures are in place to provide state and local 
governments, and by extension first responders, sufficient information 
to protect their communities in the event of an accident or an attack 
involving hazmat releases. The Department of Homeland Security (DHS) 
and the Transportation Security Administration (TSA) currently provide 
notification to municipalities on the pending movement of hazardous 
materials through local jurisdictions on a case-by-case basis. DHS/TSA 
believes that case-by-case notification is sufficient and that in 
otherwise normal circumstances comprehensive real-time notification is 
not warranted. For example, here in Washington, D.C., for special 
events such as the Fourth of July and President Reagan's funeral, local 
governments were provided information in advance of hazardous materials 
shipments passing through the local jurisdictions in this area. In such 
rare cases, information provided to local jurisdictions can be analyzed 
by the governments in light of the risk and threat to determine whether 
additional measures are necessary. In addition, rail carriers annually 
provide the governments with a picture of the types and quantities of 
the hazardous materials that have come through the jurisdiction. This 
information enables the governments to prepare, plan, and train for any 
incident involving a hazardous material that is typically transported 
through their jurisdictions.
    As noted in question 6 above, the vision for the Development of a 
Rail Corridor Hazmat Response and Recovery Tool would be to improve 
response by providing first responders with the appropriate tools, 
equipment, and training for responding to a major freight rail 
incident.
    Following the terrorist attacks on September 11, concerns were 
raised that placards may unduly draw attention to the transport of 
hazardous materials on rail cars. On July 25, 2003, TSA coordinated and 
hosted a Placard Workshop to enable industry and first responder 
representatives to discuss with TSA the issues surrounding the 
potential removal of placards on rail cars. As a result of the Placard 
Workshop, TSA was requested to conduct an independent study, and it 
contracted with the Texas Transportation Institute (TTI) to determine 
whether there are feasible alternatives to the current rail placarding 
system. The comprehensive study examined the available technology, and 
input from first responders, rail operators and other key stakeholders 
was included. As a result of the findings of the study, Secretary 
Chertoff announced on April 7, 2005, that the Department was 
recommending continuation of the placard system for hazardous materials 
transported by rail, which is designed to ensure the safety of citizens 
and first responders.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                             Edward Wytkind

    Question 1. As the representatives of the major sectors of the 
railroad industry, you live with the challenges of securing your 
railroads everyday. We have tried to craft a bill that will help make 
this job easier. Yet, I'm sure we can do more. Can you tell us which of 
our provisions you feel are most needed and why? If there were one 
thing more we could do in this bill to help you reach your goal of a 
safe and secure railroad and workplace, what would it be?
    Answer. As explained in my submitted written statement, Section 
310, the Rail Worker Security Training Program, is extremely important 
and will from our perspective make important improvements to rail 
security. Training is relatively inexpensive and experts have confirmed 
that a well prepared and informed workforce can help prevent a 
terrorist attack and mitigate harm if one does occur. As far as 
improvements that we would like to see, we continue to believe the 
whistleblower protections need to be enhanced to ensure that workers 
are not discouraged or intimidated from reporting security concerns.

    Question 2. From listening to your testimony and the statements of 
other witnesses at the hearing, there seems to be some disconnect 
between what we have heard and the perception from the vantage point of 
the rail worker. Based on the Teamsters Rail Security Report released 
on September 29, 2005 and your testimony, we learned that rail workers 
are not receiving the training they need to do their jobs effectively, 
and that there is too often open access to facilities where an ill-
intentioned person could do significant harm. Can you provide more 
information concerning what your members are seeing everyday and what 
we can do about it?
    Answer. We agree that there is a disconnect between what industry 
is reporting and our perspective on what is actually happening on the 
ground. I should note that my observations are based on conversations 
we have had with local leaders and rank-and-file workers. These are the 
employees who are on the front lines and understand their railroad 
property and its vulnerabilities as well as know first-hand how little 
is being done to deal with security risks. Specifically, our members 
report that rail facilities, tracks and other infrastructure are not 
being adequately protected or secured. Credentials are not being fully 
used and there is potential for unauthorized individuals to enter 
facilities. In addition, and as explained in more detail below, 
security training is sorely lacking.

    Question 3. Are you familiar with the survey, discussed above, of 
rail workers regarding rail security efforts undertaken by the 
Brotherhood or Locomotive engineers and Trainman that found that 
workers do not feel adequately trained to address a rail security 
incident? Do you believe that these findings are generally consistent 
with the situation facing the employees that you represent?
    Answer. While we cannot speak to the specifics of the survey, we 
can report that the findings are generally consistent with the 
situation that is faced by the employees represented by TTD unions.

    Question 4. Can you explain some of the benefits of consistent 
worker training standards, and why from the perspective of your members 
a Federal mandate is needed?
    Answer. Workers need to know how to identify a security risk, what 
to do in response, and the steps that must be taken in the event an 
attack does occur. While we understand that not all workers need the 
same training, without Federal standards and guidelines that carriers 
must follow, our experience is that the content of training will be 
highly deficient. Furthermore, if training is left to the discretion of 
individual carriers, we know that too often carriers will opt not to 
provide training across the board. Safety and security should not vary 
from carrier to carrier - we must have one level of security throughout 
the system. Simply put, a mandate is needed because without it the 
status-quo will remain in effect and that is simply not acceptable.

    Question 5. Do you know what percentage of the front-line rail 
employees that you represent have received any security training?
    Answer. We do not currently have that data for our members. It 
should also be noted that even if training has occurred, it is a 
separate question if that training is comprehensive and if recurring 
training is being done.

    Question 6. You mentioned in your testimony, the need for more 
robust whistleblower protection for rail workers. What about the 
provision of this Committee's bill, Sec. 311 of S. 1052? What changes 
do you recommend to what is already provided? Are you aware of specific 
cases where employees have been punished for raising security concerns?
    Answer. Section 311 is a good start and we supported its inclusion 
but we believe that improvement should be made. Specifically, the 
provision should follow the model of protections provided for financial 
whistleblowers as in the Sarbanes-Oxley Act. This law ensures that 
whistleblower complaints are considered in a more timely fashion and 
allows workers to pursue a action in Federal court if agency response 
is unnecessarily delayed.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                           Joseph H. Boardman

    Question 1. I have worked hard, together with Chairman Stevens, to 
craft a solid blueprint for future Federal actions to secure our 
Nations' railroads. The rail provisions of S. 1052 include security 
upgrades, threat assessments, security training, research and 
development, and several other important initiatives, many of which 
were unanimously approved by the Senate last year. Yet, if we can 
strengthen our efforts, we must. I hope each of you will help us do 
that. What is your position on the rail provisions of S. 1052 ? How can 
we improve them?
    Answer. The U.S. Department of Transportation (DOT) has worked with 
the U.S. Department of Homeland Security (DHS) to provide the 
Administration's views on S. 1052. Those views were conveyed to 
Chairman Stevens by letter dated November 10, 2005. We would, however, 
like to point out some additional issues with S. 1052 that should be 
considered.

Sec. 304. Fire and Life-Safety Improvements
    This section would authorize a total of $670 million for FY 2006-
2008 to be made available to the Secretary of Transportation, from 
funds appropriated under section 102 of the bill to the Secretary, to 
make grants to Amtrak for design and construction of fire- and life-
safety improvements to tunnels in New York, New York; Baltimore, 
Maryland; and Washington, D.C. Funds appropriated pursuant to this 
section would remain available until expended. Amtrak would be required 
to submit for the Secretary's approval an engineering and financial 
plan for projects and a project management plan for each project. The 
Secretary would not be authorized to disburse funds to Amtrak unless 
the Secretary had approved such plans. The section would also establish 
a complex series of deadlines for the Secretary's review of the plans.
    DOT opposes this provision as an unnecessary infringement on the 
Secretary's discretion to carry out the review of Amtrak's plans. DOT 
recognizes the benefits of fire- and life-safety improvements to these 
critical elements of the Nation's rail infrastructure. In recognition 
of the importance of these tunnels, not just for intercity but also for 
commuter rail service, we believe that any funds made available for 
this purpose should flow through a Federal-State partnership such as 
that proposed in the Administration's April 13, 2005 legislative 
proposal to restructure intercity rail passenger service--the Passenger 
Rail Investment Reform Act.

Sec. 315. Welded Rail and Tank Car Safety Improvements
    This section would mandate that FRA undertake certain actions to 
improve the safety of railroad track and railroad tank cars.
    There does not appear to be a need for this legislation because a 
very similar provision was enacted in August 2005 as section 9005 of 
the Safe, Accountable, Flexible, and Efficient Transportation Equity 
Act of 2005 (SAFETEA-LU, Pub. L. 109-59).

Sec. 316. Report Regarding Impact on Public Safety of Train Travel 
        Communities Without Grade Separation
    This section would require that DOT, in consultation with the 
Transportation Security Administration (TSA) and State and local 
governments, study and report to Congress on the effect of blocked 
highway-rail grade crossings upon the ability of emergency responders 
to perform public safety and security duties.
    There does not appear to be a need for this legislation as a 
similar provision was enacted in section 9004 of SAFETEA-LU.

    Question 2. The FRA issued a Safety Advisory earlier this month 
calling on railroads that transport hazardous materials to improve 
procedures for tracking the movement of time-sensitive shipments. The 
advisory also emphasized that all railroad employees who handle such 
shipments be aware of, and clearly understand, the procedures. The 
Advisory was issued as a result of an incident that occurred in 
Cincinnati this summer, when a tank car carrying styrene sat idle on 
the same railroad for seven months and as a result of the long delay, 
exploded. Such negligence poses obvious security risks. What is the FRA 
doing to ensure compliance with these new requirements, including 
employee awareness? What additional steps has the FRA taken to secure 
the movement of hazardous materials by rail?
    Answer. FRA issued Safety Advisory 2004-05 on September 29, 2005, 
to improve the safety and reliability of hazardous materials shipments 
by railroad. The Safety Advisory informs shippers, consignees, and 
railroads of the dangers of allowing cars of time-sensitive chemicals 
to remain undelivered beyond their anticipated date of placement, and 
recommends enhanced procedures to avoid such occurrences. While FRA 
cannot enforce compliance with the Safety Advisory, as it does not 
impose any requirements in itself, FRA is closely monitoring the 
industry's efforts to promote the timely shipment of time-sensitive 
hazardous materials in accordance with the recommendations in the 
Safety Advisory. FRA is also closely monitoring the compliance of 
railroads, shippers, and consignees with existing DOT regulations, 
which require notification and special awareness for those time-
sensitive materials posing a significant risk in transportation. FRA 
will pursue future regulatory or other action should the Safety 
Advisory and existing regulations prove insufficient to minimize the 
safety risks associated with the movement of time-sensitive hazardous 
materials.
    FRA recognizes that employee awareness and understanding of the 
regulations and procedures governing the safe transport of time-
sensitive hazardous materials shipments are critical, and DOT 
regulations at 49 CFR 172.700 et seq., provide for initial and 
recurrent training of all employees engaged in the transportation of 
hazardous materials. Railroads also impose additional training 
requirements, and FRA expects that this Safety Advisory will be made a 
part of the industry's hazardous materials transportation training 
curriculum.
    FRA has taken additional steps to promote the safety and security 
of the movement of hazardous materials by rail. On October 24, 2005, 
FRA issued Emergency Order No. 24, which requires railroads to modify 
their operating rules and take other action necessary to ensure that 
railroad employees who dispatch non-signaled territory or who operate 
hand-operated main track switches in non-signaled territory restore the 
switches to their proper (normal) position after use. The failure to 
restore such switches to their proper position after use has resulted 
in a number of accidents and fatalities. This Emergency Order is part 
of a broader focus on human factor-caused train accidents that is being 
conducted under the auspices of FRA's Railroad Safety Advisory 
Committee (RSAC). RSAC has tasked its Operating Rules Working Group to 
develop recommendations to reduce human factor-caused train accidents 
generally, and the Working Group is scheduled to report its findings 
and recommendations to the full RSAC in February 2006.
    FRA also has ongoing a number of additional initiatives to promote 
and enhance the safety and security of hazardous materials shipments. 
Since January 2004 FRA has inspected more than 3,600 security plans 
(including the plans for all the major rail carriers) and reviewed the 
training records for more than 29,000 rail hazmat employees. As a 
result, we are processing 120 recommended civil penalty actions for 
violations of the DOT security regulations. DOT and DHS are examining 
the feasibility of specific security enhancements, including 
improvements to security plans, modifications of methods used to 
identify shipments, enhanced requirements for temporary storage, 
strengthened tank car integrity, and implementation of tracking and 
communication systems. FRA staff have also provided support to the 
vulnerability assessments led by TSA on several rail corridors.
    FRA and DOT 's Pipeline and Hazardous Materials Safety 
Administration (PHMSA) are also coordinating with DHS in formulating 
proposed regulations that would enhance the current security plan 
requirements, as a follow-up to an August 16, 2004, notice (jointly 
issued by PHMSA and TSA). Possible enhancements under consideration 
include data collection on shipments of Toxic Inhalation Hazard (TIH) 
and other highly hazardous materials; analysis of safety and security 
risks along rail transportation routes where these materials are 
transported; alternative routing options; and en route storage.

    Question 3. Are there plans to cross-train FRA and TSA rail 
inspection staff so that when conducting inspections, both sets of 
inspectors can be looking for safety and security problems? What do you 
think of the concept of creating a unified Federal rail inspection team 
to ensure maximum efficiency and coordination, rather than having 
separate TSA and FRA inspectors essentially performing the same 
function separately?
    Answer. There are generally no plans to cross-train FRA and TSA 
rail inspection staff so that both sets of inspectors look for both 
safety and security problems. Instead, FRA has been working closely 
with the managers of TSA's new inspection program to ensure that the 
roles of the two agencies' inspectors are clearly distinguished and do 
not result in duplicative inspections of the rail industry. FRA's 
safety mission is critical and requires the constant attention of its 
inspection force. FRA believes that public safety is best served by 
having FRA inspectors direct their expertise in monitoring compliance 
with the extensive body of laws and regulations governing the five 
major areas of railroad safety: track, signal systems, equipment, 
operating practices, and hazardous materials shipments.
    FRA does not believe that uniting TSA and FRA inspectors into a 
single, Federal rail inspection team would ensure maximum efficiency 
and coordination, as the question suggests, as TSA and FRA rail 
inspectors generally do not perform the same functions. For example, 
TSA rail inspectors are focused on securing the rail transportation 
network from terrorist attack through the evaluation of potential 
terrorist targets, identification and elimination/neutralization of 
security gaps, identification of suspicious persons and objects, and 
more--functions which are generally distinct from those performed by 
FRA safety inspectors.
    Of course, FRA's railroad safety mission necessarily includes 
involvement in railroad security issues and, in those areas such as 
hazardous materials transportation where safety and security are 
significantly interrelated, FRA inspectors will continue to have an 
active role. FRA has been and will continue to be engaged in the 
railroad industry's response to the threat of terrorism, as detailed in 
Administrator Boardman's written testimony. Yet, FRA believes that 
through careful delineation of that role, and close coordination with 
TSA, FRA's security efforts will dovetail with those of TSA while 
continuing to allow FRA to keep its principal focus on railroad safety.

    Question 4. I understand that the FRA and TSA have been working on 
a rail security annex to the MOU developed between the Department of 
Transportation and the Department of Homeland Security. S. 1052 
requires the agencies to complete this annex within one year following 
enactment. Can you tell us what the current status of this rail 
security annex is?
    Answer. FRA has prepared an annex addressing rail security issues, 
including relations between FRA inspectors and TSA's new inspection 
workforce. FRA has shared the draft annex with TSA, and we hope that it 
will be completed soon.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Frank R. Lautenberg to
                           Joseph H. Boardman

    Question 1. What additional enforcement action is the Federal 
Railroad Administration taking to ensure railroads and hazmat shippers 
are complying with your recent safety advisory on rail hazmat 
transportation?
    Answer. Please see the answer to Question 2 from Senator Inouye. 
The answer addresses this question and provides additional information.

    Question 2. Is rail transportation of high hazmat and handling 
incident thereto inherently dangerous?
    Answer. Rail transportation and handling of any hazardous material, 
especially TIH materials, are dangerous when not properly done. 
Congress recognized this very danger long ago and has regulated these 
activities. Over the years, a body of statutory law and detailed 
administrative regulation has been developed to address the risks 
associated with the transportation and handling of hazardous materials. 
FRA and DOT as a whole continually seek ways to further mitigate these 
risks, such as through efforts to enhance the security of TIH 
shipments. The effectiveness of this regulatory regime is evidenced by 
the remarkably low number of incidents in light of the high volume and 
length of haul of TIH materials transported by rail.

    Question 3. Does it present a safety or security risk?
    Answer. By definition, hazardous materials pose various types of 
risks to safety, including security. Under DOT 's hazardous materials 
transportation regulations, there are nine designated classes of 
hazardous materials, most of which are further subdivided by specific 
hazard. See 49 CFR 173.2. As noted above, DOT 's promulgation and 
enforcement of these regulations help to manage the risks posed, and we 
continually seek ways to further mitigate these risks.

    Question 4. By law, the Secretary of Transportation--or his 
designee--sits on the Amtrak board of directors. In April, the board 
approved Amtrak's funding request for Amtrak's security needs of up to 
$254 million a year (figure includes ``support'' functions as well). If 
this funding was needed to help secure Amtrak and its 25 million annual 
passengers, why didn't President Bush ask for it in his budget?
    Answer. FRA does not believe it correct to characterize the $254 
million figure as a funding request, per se. Rather, this amount was 
for use as an internal budgeting threshold. Funding for Amtrak's police 
and security needs would come from Amtrak's operating funds, up to this 
dollar amount, as determined by Amtrak's management. Further, the 
President's budget for FY06 had already been submitted to Congress by 
April 2005.

    Question 5. Will the Administration specifically request funding 
for Amtrak's security needs in FY07?
    Answer. The President's FY07 budget request has not yet been 
finalized. As a result, it would be premature to discuss what specific 
initiatives will be in that request. We will be glad to share with the 
Committee the details of the FY07 budget request, once we are in a 
position to do so.

                                  <all>

</pre></body></html>
